Office of Inspector General
Department of Veterans Affairs




 Semiannual Report to Congress
 October 1, 2003 - March 31, 2004
                                                 FOREWORD
 




I am pleased to submit the semiannual report on the activities of the Department of
Veterans Affairs (VA), Office of Inspector General (OIG) for the period ended March 31,
2004. This report is issued in accordance with the provisions of the Inspector General Act
of 1978, as amended. The OIG is dedicated to helping ensure that veterans and their
families receive the care, support, and recognition they have earned through service to our
country.

A total of 118 reports on VA programs and operations resulted in systemic improvements
and increased efficiencies in areas of medical care, benefits administration, procurement,
financial management, and information technology. Audits, investigations, and other
reviews identified over $1.9 billion in monetary benefits, for an OIG return on investment of
$57 for every dollar expended.

Our criminal investigators closed 502 investigations involving a wide variety of criminal
activity directed at VA personnel, patients, programs, or operations. Special agents
conducted investigations that led to 616 arrests, indictments, convictions, and pretrial
diversions. They also produced $18.2 million in monetary benefits to VA (recoveries and
savings). Additionally, the efforts of our agents led to the apprehension of 149 fugitive
felons nationwide.

One of our more significant investigations involved a former chief research coordinator at
the Veterans Affairs Medical Center (VAMC) Albany, NY, who has been charged in a 48-
count felony indictment for criminally negligent homicide, manslaughter, and fraud for
falsifying veterans’ medical records in order to enroll them in cancer research studies
sponsored by private pharmaceutical companies. The indictment followed an investigation
that revealed the researcher’s alterations, forgeries, and false statements pertaining to the
official records led to the 2001 death of a veteran who had sought treatment for gastric
cancer. The researcher allegedly falsified blood tests, switched the records of potential
research patients with other patients, and doctored lab reports to camouflage the fraud.
The investigation also revealed that the researcher was dismissed from medical school for
falsifying transcripts in 1984, was convicted of mail fraud for falsifying information on a
medical license application in 1992, and had lied on his federal employment application
regarding his undergraduate performance and mail fraud conviction. The investigation is
ongoing and could result in charges being filed against additional subjects.
Audit oversight focused on determining how to improve VA services to veterans and their
families. Our follow-up audit of part-time physician time and attendance showed that
Veterans Health Administration’s (VHA’s) implementation of management controls
continues to need improvement to ensure that all part-time physicians meet their
employment obligations. An audit of VAMCs’ procurement of medical, prosthetic, and
miscellaneous operating supplies found that VA could reduce supply costs by up to
$1.4 billion over 5 years by using contract sources more effectively and by awarding more
national-scope contracts. Also, preaward and postaward contract reviews identified
monetary benefits of about $538 million resulting from actual or potential contractor
overcharges to VA. Contract review recoveries have resulted in significant returns to VA’s
revolving supply fund.

Our health care inspectors focused on quality of care issues in VA. Inspectors visited a
number of facilities to respond to Congressional and other special requests concerning
health care related matters. We also completed two summary evaluation reports that
should assist VHA managers in improving VA medical facility potable and waste water
systems security, and the quality of care provided to patients and maximize the use of
resources in the homemaker and home health aide program. If VHA had established
benchmark rates as recommended in a 1997 OIG report, the program could have
redirected about $10.7 million annually to treat additional patients.

Our Hotline provides an opportunity for employees, veterans, and other concerned citizens
to report criminal activity, waste, abuse, and mismanagement. The reporting of such
issues is integral to the goal of improving the efficiency and effectiveness of the
Government. During the reporting period, the Hotline received 13,976 contacts and
opened 546 cases. Analysts closed 513 cases, of which 166 (32 percent) contained
substantiated allegations. The monetary impact resulting from these cases totaled almost
$960,000.

The OIG’s ongoing Combined Assessment Program (CAP) evaluates the quality,
efficiency, and effectiveness of VA facilities. Through this program, auditors, investigators,
and health care inspectors collaborate to assess key operations and programs at VA
medical centers and VA regional offices on a cyclical basis. The 23 CAP reviews and 3
CAP summary reviews completed during this reporting period highlighted numerous
opportunities for improvement in quality of care, management controls, and fraud
prevention.

I look forward to continued partnership with the Secretary and the Congress in pursuit of
world-class service for our Nation’s veterans.




RICHARD J. GRIFFIN
Inspector General
                                           TABLE OF CONTENTS
 


                                                                                                                         Page

HIGHLIGHTS OF OIG OPERATIONS ..............................................................................                    i


VA AND OIG MISSION, ORGANIZATION,AND RESOURCES ...........................................                                    1


COMBINEDASSESSMENTPROGRAM .........................................................................                           7


OFFICE OF INVESTIGATIONS

    Mission Statement .................................................................................................      17

    Resources ...........................................................................................................    17

    Criminal Investigations Division ................................................................................        17

            Veterans Health Administration .....................................................................             18
 

            Veterans Benefits Administration ...................................................................             21
 

            Fugitive Felon Program ...............................................................................           25
 

            OIG Questioned Document Forensic Laboratory .............................................                        26
 

            OIG Computer Crimes Forensic Laboratory ...................................................                      27
 

    Administrative Investigations Division ........................................................................          28
 

            Veterans Health Administration .....................................................................             29
 

    Analysis and Oversight Division ...............................................................................          30
 


OFFICE OF AUDIT

    Mission Statement .................................................................................................      33

    Resources ...........................................................................................................    33

    Overall Performance .............................................................................................        33

            Veterans Health Administration .....................................................................             34

            Veterans Benefits Administration ...................................................................             36

            Office of Management .................................................................................           36

            Office of Information and Technology .............................................................               40

            Multiple Office Action ...................................................................................       41


OFFICE OF HEALTHCARE INSPECTIONS

    Mission Statement .................................................................................................      43

    Resources ...........................................................................................................    43

    Overall Performance .............................................................................................        43

           Veterans Health Administration ......................................................................             44


OFFICE OF MANAGEMENT AND ADMINISTRATION

    Mission Statement .................................................................................................      55

    Resources ...........................................................................................................    55

    Hotline Division .....................................................................................................   56

            Veterans Health Administration .....................................................................             57

            Veterans Benefits Administration ...................................................................             61

            National Cemetery Administration..................................................................               62

        Operational Support Division ...................................................................................   62

        Information Technology and Data Analysis Division .....................................................            64

        Financial and Administrative Support Division .............................................................        67

        Human Resources Management Division .................................................................              68


OTHER SIGNIFICANT OIG ACTIVITIES

    President’s Council on Integrity and Efficiency ............................................................           69

    OIG Management Presentations .............................................................................             69

    Awards and Special Thanks ....................................................................................         70

    OIG Congressional Testimony .................................................................................          72


APPENDIXA- REVIEWS BYOIG STAFF .........................................................................                   73


APPENDIX B - STATUS OF OIG REPORTS UNIMPLEMENTED FOR OVER 1 YEAR                                                           85

    Veterans Health Administration ................................................................................        86

    Joint (Veterans Health Administration and Office of Security and Law Enforcement) ..........                           88

    Joint (Veterans Health Administration and Office of Information and Technology) ...............                        90

    Veterans Benefits Administration ..............................................................................        90


APPENDIX C - INSPECTOR GENERAL ACT REPORTING REQUIREMENTS ..........                                                       93


APPENDIX D - OIG OPERATIONS PHONE LIST ........................................................                            97


APPENDIX E - GLOSSARY .......................................................................................              99

               HIGHLIGHTS OF OIG OPERATIONS
 

This semiannual report highlights the activities and accomplishments of the Department of Veterans Affairs
(VA) Office of Inspector General (OIG) for the 6-month period ended March 31, 2004. The following
statistical data highlights OIG activities and accomplishments during the reporting period.

        DOLLAR IMPACT                                                                                       Dollars in Millions

                  Funds Put to Better Use ................................................................ $1,940.0
                  Dollar Recoveries ......................................................................... $19.7
                  Fines, Penalties, Restitutions, and Civil Judgments ..........................               $7.8

        RETURN ON INVESTMENT
            Dollar Impact ($1,967.5) / Cost of OIG Operations ($34.3) .........                                     57 : 1


        OTHER IMPACT
            Arrests .........................................................................................        286

            Indictments ...................................................................................          161

            Convictions ..................................................................................           158

            Pretrial Diversions .........................................................................             11

            Fugitive Felon Apprehensions ........................................................                    149

            Administrative Sanctions ...............................................................                 260


        ACTIVITIES
          Reports Issued
             Combined Assessment Program (CAP) Reviews ...........................                                     23

             CAP Summary Reviews ................................................................                       3

             Joint Review .................................................................................             1

             Audits ..........................................................................................         12

             Contract Reviews .........................................................................                56

             Healthcare Inspections ..................................................................                 16

             Administrative Investigations .........................................................                    7


             Investigative Cases
                 Opened ........................................................................................     498

                 Closed .........................................................................................    502


             Healthcare InspectionsActivities
                Clinical Consultations ....................................................................             8


             Hotline Activities
                 Contacts ....................................................................................... 13,976

                 Cases Opened ..............................................................................         546

                 Cases Closed ...............................................................................        513

                                                                       i

OFFICE OF INVESTIGATIONS

Overall Focus

The Criminal Investigations Division focuses its resources on investigations that have the highest impact on
the programs and operations of the Department. While continuing to target traditional “white collar”
criminal activity associated with the operations of VA, personnel of the Criminal Investigations Division
more frequently find themselves involved in the investigation of violent criminal activity such as murder,
armed robbery, terroristic or other threats -- all of which are occurring on VA property and/or directed at
VA personnel, patients, programs, or operations.

The Administrative Investigations Division concentrates its resources on investigating allegations against
high-ranking VA officials relating to misconduct and other matters of interest to Congress and the
Department.

The Analysis and Oversight Division provides guidance and support for the Office of Investigations by
conducting routine office inspections and by directing efforts to identify and develop new initiatives designed
to enhance the abilities of investigators to accomplish the core mission in a more effective and efficient
manner. The Division is also responsible for facilitating personnel training and equipment procurement.

During this semiannual period, the Criminal Investigations Division closed 502 investigations resulting in
330 judicial actions (indictments, convictions, and pretrial diversions) and $18.2 million recovered or
saved. Investigative activities resulted in the arrest of 286 individuals who had committed crimes directed
at VA programs and operations or crimes that were committed on VA property. In addition, VA OIG
investigations led to the apprehension of 149 fugitive felons nationwide. Criminal investigations also
resulted in 192 administrative sanctions. The Administrative Investigations Division closed 12 cases,
issuing 7 reports and 2 advisory memoranda. These investigations resulted in management agreeing to take
28 administrative sanctions, including personnel actions against 9 officials, and corrective actions in 19
situations that will improve VA operations. The Analysis and Oversight Division completed the inspection
of the OIG Southeast Field Office and its four resident agencies.

Veterans Health Administration (VHA)

Two individuals, a mother and daughter, are pending sentencing after pleading guilty to an indictment
charging them with conspiracy, theft in connection with health care, mail, and wire fraud. The judicial
action followed a joint investigation with the Federal Bureau of Investigation (FBI) that revealed the two
co-conspirators devised and executed a scheme in which they stole checks payable to a VAMC. The
mother, a VAMC employee, was responsible for the receipt and application of medical reimbursements to
veterans’ accounts and selectively stole reimbursement checks. She concealed the theft by closing the
accounts of veterans whose payments she had stolen. She then provided the stolen checks to her daughter
who negotiated them through her purported business account. As a result of their scheme, the VAMC lost
approximately $718,000.




                                                       ii
                                         Austin American-Statesman
 

                                                  Austin, TX
 

                                          Friday, February 20, 2004
 





After a year-long investigation and a 6-day trial, a former VA out-patient clinic psychiatrist was
convicted of nine misdemeanor counts of assaulting three patients under his care. Expert testimony
was provided by VA psychiatrists and a noted forensic psychiatrist. From April 1993 to May 2001,
the doctor was employed by VA. Testimony from the victims and experts revealed the doctor
sexually exploited the doctor-patient relationship. As a result of the local media coverage of this trial,
several new alleged victims of the doctor have come forward and made complaints to VA officials and the
sex crimes division of the local police department. The information is being evaluated by the county district
attorney’s office. The subject was sentenced to pay a fine of $4,500. Additionally, the assistant district
attorney is preparing a judgment that will be forwarded to the state board of medical examiners, which is
expected to terminate the subject’s license to practice medicine in the state. Due to a reciprocal agreement,
the medical board of a second state is expected to also terminate the subject’s license in that state. In
addition, tort claims of over $15 million have been filed by at least three former patients. The claims are
being handled by the U.S. Attorney’s Office.

Veterans Benefits Administration (VBA)

An attorney, appointed as the fiduciary for an incompetent veteran, and his legal secretary, were indicted for
criminal acts relating to his duties as a fiduciary. The Federal charges included misappropriation of monies,
conspiracy to commit theft of Government funds, mail fraud, money laundering, and conspiracy to launder
money. The state charged them with felonious embezzlement. The joint VA OIG, FBI, Internal Revenue
Service, and local sheriff’s office investigation disclosed the attorney embezzled more than $300,000 from a
disabled veteran’s account and also wrongfully cashed a $163,170 certificate of deposit held in the
guardianship account. The legal secretary allegedly wrote checks and kept the books relative to the




                                                      iii
veteran’s account and filed false annual accountings with VA. The attorney was recently convicted in an
unrelated bank fraud and is awaiting sentencing on that matter. His license to practice law has been
suspended by the state bar.

An individual pled guilty in a state court to forging a bank instrument and was sentenced to 5 years’ probation.
The plea and sentence followed an extensive investigation conducted jointly by VAOIG, Secret Service,
Railroad Retirement Board, Internal Revenue Service, and Social Security Administration (SSA) OIG agents.
From 1999 to 2000, the individual and three other co-defendants, who are still pending Federal grand jury
action, participated in a scheme to intercept over 3,000 benefit checks intended for VA, SSA, and Railroad
Retirement pensioners living in Mexico. The checks were intercepted in Mexico City, the central distribution
point for all pensioners living within Mexico. These checks were then sent back to the United States via
courier to a privately owned supermarket where the recipients’ signatures were forged and the checks
processed through the business accounts of the supermarket. Loss to VA and other Federal agencies was in
excess of $3.5 million.

Fugitive Felon Program

To date, approximately 1.8 million felony warrant files have been received from the participating agencies.
These warrant files were matched to more than 11 million records contained in VA benefit system files,
resulting in the identification of more than 27,000 matched records. The records match has resulted in over
10,300 referrals of information from VAfiles about fugitive felons to various law enforcement agencies
throughout the country. The information provided to the agencies has directly led to the apprehension of
324 fugitive felons; 195 of these arrests were made with the direct assistance of VA OIG agents. Over
6,500 fugitive felons identified in these matches have been referred to VBA for benefit suspension resulting
in the identification of $46.8 million in overpayments and a cost avoidance of over $100 million.

During this reporting period, there were 149 fugitives apprehended as a result of VA OIG agents directly
assisting law enforcement or by sharing our information with law enforcement. There were also 4,236
administrative actions referred to VBA for benefit suspension with an identification of $32 million in
overpayments and a cost avoidance of $55.8 million.

OFFICE OF AUDIT

Audit Saved or Identified Improved Uses for $1.9 Billion

Audits and evaluations were focused on operations and performance results to improve service to veterans.
Contract preaward and postaward reviews were conducted to assist contracting officers in price
negotiations and to ensure reasonableness of contract prices. During this reporting period, 95 audits,
evaluations, CAP reviews, CAP summary reviews, and contract preaward and postaward reviews were
conducted. An audit of VAMCs’procurement of medical, prosthetic, and miscellaneous operating supplies
found that VA could reduce supply costs by up to $1.4 billion over 5 years by using contract sources more
effectively and by awarding more national-scope contracts. Also, preaward and postaward contract




                                                       iv
reviews identified monetary benefits of about $538 million resulting from actual or potential contractor
overcharges to VA.

Veterans Health Administration

Our unannounced follow-up audit of part-time physician time and attendance showed that VHA’s
implementation of management controls over part-time physician time and attendance continues to need
improvement to ensure that part-time physicians meet their employment obligations. Also, an audit of
VHA-reported medical care waiting lists showed that the waiting lists were not accurate.

Office of Management

The audit of VA’s Consolidated Financial Statements for FYs 2003 and 2002 resulted in an unqualified
opinion. The report on internal control discusses two material weaknesses involving: (i) inadequate
information technology security controls, and (ii) lack of an integrated financial management system. The
report also discusses two reportable conditions that, while not considered material weaknesses, are
significant system or control weaknesses that could adversely affect the recording and reporting of the
Department’s financial information. The two conditions are: (i) loan guaranty business process, and (ii)
application program and operating system change controls.

Office of Information Technology

An audit of VA information security controls and security management reported that VA has made
insufficient progress in improving its information security posture. The VAis not in compliance with the
requirements of the Federal Information Security Management Act. The audit found that significant
information security vulnerabilities continue to place VA at risk of: (i) denial of service attacks on mission
critical systems, (ii) disruption of mission critical systems, (iii) unauthorized access to and improper
disclosure of data subject to Privacy Act protection and sensitive financial data, (iv) fraudulent
disbursements from VA benefit payment systems, and (v) fraudulent receipt of health care benefits. Also, an
audit of the installation of the Microsoft Blaster Worm virus security patch confirmed that VA computers
were not effectively and timely patched.

OFFICE OF HEALTHCARE INSPECTIONS

The Office of Healthcare Inspections (OHI) participated with the Offices of Audit and Investigations on 18
CAP reviews and reported on specific clinical issues warranting the attention of VA managers. The OHI
inspectors reviewed health care issues and made 59 recommendations and 59 suggestions to improve
operations, activities, and the care and services provided to patients.

Inspection of the Homemaker and Home Health Aide Program found that patients enrolled in the program
did not always meet clinical eligibility requirements. Initial patient assessments by clinicians rarely included




                                                        v
documentation of actual evaluations by all required interdisciplinary team members and did not thoroughly
document patients’ disabilities, dependencies, and need for services. Some facilities had many patients on
waiting lists and did not always consider eligibility or patients’ needs. To enhance controls, VA managers
need to issue policy for the provision and acquisition of program services to improve the quality of care and
to maximize the use of resources. VHA managers also need to establish a method of benchmarking rates
for the acquisition of program services. If VHA had established benchmark rates as recommended in a
1997 OIG report, the program could have, on average, redirected about $10.7 million annually to treat
additional patients.

Inspection of efforts to safeguard VHA potable and waste water systems identified varying degrees of effort
by VHA facilities in conducting water system assessments and security reviews. No facility reported that it
coordinated these efforts with the Environmental Protection Agency (EPA) or the Department of Homeland
Security. The Under Secretary for Health needs to standardize security requirements for protecting water
infrastructures and coordinate efforts with EPA to assess and implement security of potable and waste water
systems on VHA properties. These efforts would assist the Department of Homeland Security in unifying
efforts for addressing national water infrastructure concerns, including development of critical infrastructure
personnel surety programs.

In responding to Congressional and other special requests and reviewing patient allegations pertaining to
quality of care issues received by the OIG Hotline, OHI completed 16 Hotline cases, reviewed 78 issues,
and made 52 recommendations. These recommendations resulted in managers issuing new and revised
procedures, improving services, improving quality of patient care, and making environmental and safety
improvements. The OHI assisted the Office of Investigations on eight criminal cases that required extensive
review of medical records and quality assurance documents, and monitored the work of VHA’s Office of
the Medical Inspector.

OFFICE OF MANAGEMENT AND ADMINISTRATION

Hotline

Our Hotline provides an opportunity for employees, veterans, and other concerned citizens to report
criminal activity, waste, abuse, and mismanagement. During the reporting period, the Hotline received
13,976 contacts and opened 546 cases. Analysts closed 513 cases, of which 166 (32 percent) contained
substantiated allegations. The monetary impact resulting from these cases totaled almost $960,000. The
Hotline staff wrote 82 responses to inquiries received from Members of the Senate and House of
Representatives. The closed cases led to 40 administrative sanctions against employees and 81 corrective
actions taken by management to improve VA operations and activities. Examples of some of the issues
addressed by the Hotline include: quality of care, benefits, facilities and services, employee misconduct,
and privacy/Health Insurance Portability andAccountability Act.




                                                      vi
Follow Up on OIG Reports

The Operational Support Division continually tracks VAstaff actions to implement recommendations made
in OIG audits, inspections, and reviews. As of March 31, 2004, there were 89 open OIG reports
containing 329 unimplemented recommendations with over $2.04 billion of actual or potential monetary
benefits. During this reporting period, we closed 89 reports and 395 recommendations, with a monetary
benefit of $807 million, after obtaining information that VAofficials had fully implemented corrective actions.

Status of OIG Reports Unimplemented for Over 1 Year

The FederalAcquisition StreamliningAct of 1994 provides guidance on prompt management decisions and
implementation of OIG recommendations. It states a Federal agency shall complete final action on each
recommendation in an OIG report within 12 months after the report is finalized. If the agency fails to
complete final action within this period, the OIG will identify the matter in their semiannual report to
Congress. There are seven OIG reports issued over one year ago (March 31, 2003, and earlier) with
unimplemented recommendations. Four of these are VHA reports; one is a joint report with
recommendations for VHA and Office of Security and Law Enforcement, Office of Policy, Planning, and
Preparedness; one is a joint report with recommendations for VHA and Office of Information and
Technology; and one is a VBA report. The OIG is particularly concerned with one report on VHA
operations (issued in 1997) and one report on VBA operations (issued in 2000) with recommendations that
still remain open. Details about these reports can be found in Appendix B.

JOINT REVIEW

Interim Report of VAMC Bay Pines, FL

We received requests from the Secretary of Veterans Affairs and Congressional members to review
allegations questioning the adequacy of clinical and administrative activities at the VAMC Bay Pines. We
issued the interim report to disclose the progress of the review. This review was conducted jointly by OIG
investigators, auditors, and health care inspectors. When we have completed our review of the allegations,
we will issue a final report. Our review found that VAMC managers cancelled surgeries because critical
surgical supplies and instruments were not consistently available or properly sterilized by supply processing
and distribution. Other deficiencies identified included improper sterilization procedures, inadequate
inventory practices, and poorly trained staff. Our review also showed that VA Core Financial and Logistics
System (CoreFLS) project managers still have significant work to do to implement the CoreFLS system.
CoreFLS issues on data conversion, testing, training, interfacing with other VAsystems, information security,
and contracting processes need management attention. This is an interim disclosure report and, as such,
there are no recommendations. We will include them in the final report when we complete the review.




                                                      vii
VA AND OIG MISSION, ORGANIZATION, AND
RESOURCES

The Department of
Veterans Affairs
Background

In one form or another, American governments
have provided veterans benefits since before
the Revolutionary War. VA’s historic predecessor
agencies demonstrate our Nation’s long
commitment to veterans. The Veterans
Administration was founded in 1930, when
Public Law 71-536 consolidated the Veterans’
Bureau, the Bureau of Pensions, and the                                    VA Central Office
 

                                                               810 Vermont Avenue, NW, Washington, DC
 

National Home for Disabled Volunteer
Soldiers. The Department of Veterans Affairs
                                                            Organization
was established on March 15, 1989, by Public
Law 100-527, which elevated the Veterans
                                                            VA has three administrations that serve veterans:
Administration, an independent agency, to
                                                            z	 	 Veterans Health Administration (VHA)
Cabinet-level status.
                                                                 provides health care,
                                                            z	 	 Veterans BenefitsAdministration (VBA)
Mission                                                          provides income and readjustment benefits,
                                                                 and
VA’s motto comes from Abraham Lincoln’s                     z	 	 National Cemetery Administration (NCA)
second inaugural address, given March 4, 1865,                   provides interment and memorial services.
“to care for him who shall have borne the battle
and for his widow and his orphan.” These words              To support these services and benefits, there are
are inscribed on large plaques on the front of the               six Assistant Secretaries:
VACentral Office building on Vermont Avenue in              z	 	 Management (Budget; Finance; and
Washington, DC.                                                  Acquisition and Materiel Management
                                                                 [A&MM]);
The Department’s mission is to serve America’s              z Information and Technology (I&T);
veterans and their families with dignity and                z	 	 Policy, Planning, and Preparedness (Policy;
compassion and to be their principal advocate in                 Planning; and Security and Law Enforcement
ensuring that they receive the care, support, and                [S&LE]);
recognition earned in service to our Nation.



                                                     1
 

VA and OIG Mission, Organization and Resources

z	 	   Human Resources and Administration                  treatment programs (formerly called
       (Diversity Management and Equal                     "domiciliaries"), and 867 outpatient clinics
       Employment Opportunity; Human Resources             (including hospital clinics).
       Management; Administration; and Resolution
       Management);                                        Veterans benefits were funded at $32.1 billion
z      Public and Intergovernmental Affairs; and           in FY 2004, about 52 percent of VA’s budget.
z      Congressional and LegislativeAffairs.               Approximately 13,000 VBA employees at 57
                                                           VA regional offices (VAROs) provided benefits
In addition to VA’s OIG, other staff offices               to veterans and their families. Almost
providing support to the Secretary include the             2.9 million veterans and their beneficiaries
Board of Contract Appeals, the Board of                    receive compensation benefits valued at
Veterans’Appeals, the Office of General                    $26.3 billion. Also, $3.4 billion in pension
Counsel, the Office of Small and                           benefits are provided to approximately
Disadvantaged Business Utilization, the Center             562,000 veterans and survivors. VA life
for Minority Veterans, the Center for Women                insurance programs have 7.5 million lives insured,
Veterans, the Office of Employment                         with a face value of almost $747.6 billion.
Discrimination Complaint Adjudication, and                 Approximately 350,000 home loans will be
the Office of Regulation Policy and                        guaranteed in FY 2004, with a value of
Management.                                                approximately $47 billion.

Resources                                                  The NCA operates and maintains 120
                                                           cemeteries and employs over 1,500 staff in FY
While most Americans recognize VA as a                     2004. Operations of NCA and all of VA’s
Government agency, few realize that it is the              burial benefits account for approximately
second largest Federal employer. For FY                    $419 million of VA’s budget. Interments in VA
2004, VA had approximately 218,000                         cemeteries continue to increase each year, with
employees and a $62.1 billion budget. There                90,700 projected for FY 2004. Approximately
are an estimated 25.2 million living veterans.             338,000 headstones and markers will be
To serve our Nation’s veterans, VA maintains               provided for veterans and their eligible
facilities in every state, the District of                 dependents in VA and other Federal cemeteries,
Columbia, the Commonwealth of Puerto Rico,                 state veterans’ cemeteries, and private
Guam, and the Philippines.                                 cemeteries.

Approximately 201,000 of VA’s employees work               VA Office of Inspector
in VHA. Health care was funded at over
$28.9 billion in FY 2004, approximately 47                 General (OIG)
percent of VA’s budget. VHA provided care to
an average of 57,000 inpatients daily. During              Background
FY 2004, there were almost 54 million
episodes of care for outpatients. There were               VA’s OIG was administratively established on
158 medical centers, 133 nursing home units, 206           January 1, 1978, to consolidate audits and
veterans centers, 42 VAresidential rehabilitation          investigations into a cohesive, independent




                                                    2
 

                                                     VA and OIG Mission, Organization and Resources

organization. In October 1978, the Inspector
General Act (Public Law 95-452) was enacted,                                                     ALLOC ATED
                                                                          OFFIC E
                                                                                                    FTE
establishing a statutory Inspector General (IG) in
VA.                                                             Inspector General                           4

Role and Authority                                              C ounselor                                  4

The Inspector General Act of 1978 states that                   Investi gati ons                        136
the IG is responsible for: (i) conducting and
                                                                Audi t                                  176
supervising audits and investigations; (ii)
recommending policies designed to promote                       Management and
economy and efficiency in the administration                                                              57
                                                                Admi ni strati on
of, and to prevent and detect criminal activity,
waste, abuse, and mismanagement in VA                           Healthcare Inspecti ons                   46
programs and operations; and (iii) keeping the
                                                                           TOTAL                        423
Secretary and the Congress fully informed
about problems and deficiencies in VA
programs and operations, and the need for                      In addition, 25 FTE are reimbursed for a
corrective action.                                             Department contract review function.
The Inspector General Act Amendments of                        The FY 2004 funding for OIG operations was
1988 provided the IG with a separate                           enacted as a 2-year appropriation that provides
appropriation account and revised and                          the funds to remain available until September 30,
expanded procedures for reporting semiannual                   2005. The FY 2004 funding of OIG operations
workload to Congress. The IG has authority                     is $68.4 million, with $61.6 million from
to inquire into all VA programs and activities                 appropriations, $3.8 million from FY 2003
as well as the related activities of persons or                carryover, and $3.0 million through reimbursable
parties performing under grants, contracts, or                 agreement. Approximately, 73 percent of the
other agreements. The inquiries may be in the                  total funding is for salaries and benefits, 5 percent
form of audits, investigations, inspections, or                for official travel, and the remaining 22 percent
other special reviews.                                         for all other operating expenses such as
                                                               contractual services, rent, supplies, and
Organization                                                   equipment.

Allocated full-time equivalent (FTE) employees                 OIG resource allocation, by VAorganizational
from appropriations for the FY 2004 staffing plan              element, during this reporting period, is shown as
as follows.                                                    follows.




                                                        3
 

VA and OIG Mission, Organization and Resources

                                                           OIG Mission Statement
                                Information
               VHA              Technology
               46%                  3%                     The OIG is dedicated to helping VA ensure
                                                           that veterans and their families receive the
                                                           care, support, and recognition they have
       Management
                                  VBA                      earned through service to their country. The
                                  32%
          5%                                               OIG strives to help VA achieve its vision of
                        A&MM                               becoming the best-managed service delivery
                         14%
                                                           organization in Government. The OIG
                                                           continues to be responsive to the needs of its
                                                           customers by working with the VA
OIG resource allocation applied to mandated,               management team to identify and address
reactive, and proactive work is shown below.               issues that are important to them and the
                                                           veterans served.
                    Mandated
                      7%                                   In performing its mandated oversight function,
                                                           the OIG conducts investigations, audits, and
                                   Reactive                health care inspections to promote economy,
                                    40%                    efficiency, and effectiveness in VA activities,
       Proactive
                                                           and to detect and deter criminal activity, waste,
         53%                                               abuse, and mismanagement. Inherent in every
                                                           OIG effort are the principles of quality
                                                           management and a desire to improve the way
                                                           VA operates by helping it become more
Mandated work is required by statute or                    customer driven and results oriented.
regulation. Examples include our audits of VA’s
consolidated financial statements, oversight of            The OIG will keep the Secretary and the
VHA’s quality management programs and Office               Congress fully and currently informed about
of the Medical Inspector, follow-up activities on          issues affecting VA programs and the
OIG reports, and releases of Freedom of                    opportunities for improvement. In doing so,
Information Act (FOIA) information.                        the staff of the OIG will strive to be leaders
                                                           and innovators, and to perform their duties
Reactive work is generated in response to                  fairly, honestly, and with the highest
requests for assistance received from external             professional integrity.
sources concerning allegations of criminal
activity, waste, abuse, and mismanagement.
Most of the Office of Investigations’ work is
reactive.

Proactive work is self-initiated, focusing on areas
where the OIG staff determines there are
significant issues.




                                                      4

                                                                      Department of Veterans Affairs
                                                                       Office of Inspector General


                                                                                 Inspector General
                                       Executive Assistant                                                                    Counselor to the
                                                                                                                             Inspector General
                                                                                        Deputy


        Assistant Inspector General                  Assistant Inspector General                  Assistant Inspector General               Assistant Inspector General
       Management and Administration                        Investigations                                    Audit                           Healthcare Inspections

                      Deputy                                       Deputy                                      Deputy                                  Deputy


                                                                                                  Contract                               Medical Advisor          Program
         Hotline                Operational       Administrative               Criminal           Review                     Audit             to               Administration
                                 Support          Investigations            Investigations          and                    Planning        Inspector             and Special
                                                                                                 Evaluation                                 General               Projects

         Human                   Financial
        Resources                   and           Analysis and                               Operational                   Financial               Regional Offices




5
 

       Management              Administrative      Oversight                    Benefits      Support                        Audit                      Atlanta
                                 Support                                         Fraud                                                                  Bedford
                                                                                                                                                        Chicago
       Information                               Field Offices                                                             Veterans                      Dallas
       Technology                                   Chicago                    Computer             IT                      Health                    Los Angeles
        and Data                                     Dallas                     Crimes             Audit                     and                      Washington
         Analysis                                 Los Angeles                     and                                      Benefits
                                                   New York                    Forensics
       Field Office
                                                 St. Petersburg
                                                                                                      Operations Divisions
          Austin                               Resident Agencies                                    Atlanta        Bedford
                                        Atlanta
                                                                               Healthcare
                                                         Bedford                                    Chicago        Dallas
                                        Cleveland        Columbia                Fraud
                                                                                                    Kansas City    Los Angeles
                                        Denver           Houston                                    Seattle        Washington
                                        Kansas City      Nashville
                                        New Orleans      Newark                 Fugitive
                                        Phoenix          Pittsburgh                                           Sub-Office
                                                                                 Felon                          Austin
                                        San Diego        San Francisco
                                        Seattle          Washington
                                                                                Program
                                        West Palm Beach

                                                                                Forensic
                                                                               Document
                                                                               Laboratory
VA and OIG Mission, Organization and Resources




                                         6
 

COMBINED ASSESSMENT PROGRAM

Reports Issued                                                 Auditors conduct reviews to ensure management
                                                               controls are in place and operating effectively.
During the period October 1, 2003, through                     Auditors assess key areas of management
March 31, 2004, we issued 23 CAP reports. Of                   concern, which are derived from a concentrated
the 23 CAP reports, we reported on 16 VA                       and continuing analysis of VHA, Veterans
health care systems, VAMCs, and a rehabilitation               Integrated Service Network (VISN), and VAMC
center; 4 VAROs; and 2 VA medical and regional                 databases and management information. Areas
office centers (VAMROCs). At one VAMROC,                       generally covered include procurement practices,
we issued two reports. We also issued three                    financial management, accountability for
CAP summary reports during this period.                        controlled substances, and information security.

Combined Assessment Program                                    Special agents conduct fraud and integrity
                                                               awareness briefings. The purpose of these
Overview - Medical
                                                               briefings is to provide VAMC employees with
                                                               insight into the types of fraudulent and other
CAP reviews are part of the OIG’s efforts to
                                                               criminal activities that can occur in VAprograms
ensure that quality health care services are
                                                               and operations. The briefings include an
provided to our Nation’s veterans. CAP reviews
                                                               overview and case-specific examples of fraud and
provide cyclical oversight of VAMC operations,
                                                               other criminal activities. Special agents may also
focusing on the quality, efficiency, and
                                                               investigate certain matters referred to the OIG by
effectiveness of services provided to veterans by
                                                               VA employees, Members of Congress, veterans,
combining the skills and abilities of representatives
                                                               and others.
from the OIG Offices of Healthcare Inspections,
Audit, and Investigations to provide collaborative
                                                               During this period, we issued 18 health care
assessments of VA health care systems.
                                                               facility CAP reports. See Appendix A for the full
                                                               title and date of the CAP reports issued this
Health care inspectors conduct proactive reviews
                                                               period. These 18 reports relate to the following
to evaluate care provided in VA health care
                                                               VA medical facilities:
facilities and assess the procedures for ensuring
the appropriateness of patient care and the safety
                                                               z   VAGreater LosAngeles Healthcare
of patients and staff. The facilities are evaluated
                                                                   System, California
to determine the extent to which they are
                                                               z   VAMC Grand Junction, Colorado
contributing to VHA’s ability to accomplish its
                                                               z   Robert J. Dole VAMROC, Wichita,
mission of providing high quality health care,
                                                                    Kansas
improved patient access to care, and high patient
                                                               z   VAMC St. Cloud, Minnesota
satisfaction. Their effort includes the use of
                                                               z   G.V. (Sonny) Montgomery VAMC,
standardized survey instruments.
                                                                   Jackson, Mississippi




                                                        7
 

Combined Assessment Program

z   W.G. (Bill) Hefner VAMC, Salisbury,                 Summary of Findings
    North Carolina
z   VAMC Muskogee, Oklahoma                             Deficiencies identified during prior CAP reviews
z   VASouthern Oregon Rehabilitation Center             relating to management of veterans health care
    and Clinics, White City, Oregon                     programs were discussed in two recently issued
z   James E. Van Zandt VAMC, Altoona,                   OIG summary reports - Summary Report of
    Pennsylvania                                        CAP Reviews at VHA Medical Facilities,
z   VAMC Coatesville, Pennsylvania                      October 2002 through September 2003; and
z   VAMC Lebanon, Pennsylvania                          Summary Report of CAP Reviews at VHA
z   VAMC Wilkes-Barre, Pennsylvania                     Medical Facilities, October 2003 through
z   VABlack Hills Health Care System, South             December 2003. During this reporting period,
    Dakota                                              we identified similar problems at the 18 facilities.
z   VAMC Salem, Virginia
z   Louis A. Johnson VAMC, Clarksburg,                  Procurement
    West Virginia
z   VAMC Tomah, Wisconsin                               The OIG identified the need to improve VA
z   VAMROC Cheyenne, Wyoming                            procurement practices as one of the
z   VAMC Sheridan, Wyoming                              Department’s most serious management
                                                        challenges. We continue to identify control
                                                        weaknesses in this area during CAP reviews.
“The staff and I perceive the OIG CAP review            Controls need to be strengthened to: (i)
as an opportunity to learn from our own                 effectively administer the Government
review and those reviews conducted at other             purchase card program, (ii) improve service
facilities. I personally appreciate the                 contract controls, (iii) improve contract
demeanor of the OIG CAP review team. The                administration, and (iv) strengthen inventory
team members required us to take a critical             management.
look at our programs but did so in a manner
that was assistive and not punitive.”                   z  Government purchase card controls were
                                                        deficient at 5 of 9 facilities where we tested these
                  Director, VAMC Salem, VA
                                                        controls. Policy and procedures governing the
                                                        use of purchase cards, setting purchasing limits,
                                                        and accounting for purchases were not followed.

                                                        z   Contract award and administration
“Please express my appreciation to the
                                                        deficiencies were identified at 12 of 18 facilities
auditors and inspectors who conducted the
                                                        where we tested these issues. Service contract
review. The Medical Center staff appreciate
                                                        controls were deficient at 8 of 11 facilities where
their professionalism and efforts to assist in
                                                        we tested these issues. We identified deficiencies
improving hospital operations and controls.”
                                                        at all three sites visited where we reviewed
                                                        clinical service contracts and sharing agreements,
              Director, VAMC Sheridan, WY
                                                        and all three sites where we reviewed non-clinical
                                                        service contracts. We also noted deficiencies at




                                                 8
 

                                                                         Combined Assessment Program

2 of 8 facilities where we tested community                   procedures, and guidelines; however, CAP
nursing home contracts, and both sites where we               reviews found that facility policy development,
tested non-contract procurements. Controls                    implementation, and compliance were
needed to be strengthened to ensure that: (i)                 inconsistent. In addition, there was a need to
acquisition and materiel management staff                     improve access controls, contingency
determine price reasonableness in noncompetitive              planning, incident reporting, and security
contracts, (ii) contract provisions include                   training.
procedures to help ensure contract compliance,
and (iii) contracting officials monitor contract              We found inadequate management oversight
performance.                                                  contributed to inefficient practices, and to
                                                              inadequate information security and physical
z   Scarce medical specialist services contracts              security of assets. CAP findings complement
were reviewed at three sites visited. At 2 of 3               the results of our FY 2003 Federal
sites, a VA policy had not been implemented that              Information Security Management Act audit,
required the chief of staff and each physician,               which identified information security
clinician, or allied health supervisor or manager to          vulnerabilities that place the Department at
sign an acknowledgement form stating that they                risk of: (i) denial of service attacks on mission
have read and agree to abide by the guidance in a             critical systems, (ii) disruption of mission
VA handbook pertaining to the conflict of interest            critical systems, (iii) unauthorized access to
aspects of contracting for services.                          and improper disclosure of data subject to
                                                              Privacy Act protection and sensitive financial
z    Management of supply inventories was                     data, (iv) fraudulent payment of benefits, and
deficient at 11 of 14 sites where we tested these             (v) fraudulent receipt of health care benefits.
controls. Medical supply inventory management
was deficient at 6 of 8 facilities where we tested            z     Information technology (IT) security
these issues, and nonmedical inventory                        deficiencies were found at 16 of 18 VHA sites
management was deficient at 7 of 8 facilities                 visited. We found that: (i) security plans were
where we tested these issues. We found that                   not prepared or not kept current and lacked key
nonmedical inventories were either not performed              elements, (ii) access to VHA’s Veterans Health
or inaccurate. Also, management of equipment                  Information Systems and Technology Architecture
inventories was deficient at 3 of 6 facilities.               was not effectively monitored, and/or
Overall, we found that inventory levels exceeded              (iii) background investigations were not
current requirements resulting in funds being tied            conducted on contract personnel working in
up in excess inventories.                                     sensitive areas.

Information Technology                                        Controlled Substances

A wide range of automated information                         z   VA has established policies, procedures, and
system vulnerabilities were identified that                   guidelines for accountability of controlled
could lead to misuse or destruction of critical               substances and other drugs. However, controlled
sensitive information. VA had established                     substance inspection procedures were inadequate
comprehensive information security policies,                  to ensure compliance with VHA policy and U.S.




                                                       9
 

Combined Assessment Program

Drug EnforcementAdministration regulations at                  Part-Time Physician Time and Attendance
15 of 18 facilities visited. Unannounced
inspections and inventories were not properly                  z    VAMC managers did not have effective
conducted, unusable drugs were not disposed of                 controls in place to ensure that part-time
timely or properly, and discrepancies between                  physicians were on duty when required by
inventory results and recorded balances were not               employment agreements at 2 of 10 facilities where
reconciled in a timely manner. The lack of                     we tested these controls. Physicians did not
management oversight at facility and VISN levels               complete appropriate time and attendance
contributed to inefficient practices and to                    records, and timecards were not posted based on
weaknesses in drug accountability.                             the timekeepers’ actual knowledge of physicians’
                                                               attendance. Additionally, timekeepers did not
Medical Care Collections Fund                                  receive annual refresher training, and desk audits
                                                               were not conducted, as required by VA policy.
z    VA has increased Medical Care Collection
Fund collections. However, we found                            Financial Controls
deficiencies at 6 of 12 facilities where we tested
these issues. Facility management needs to                     z   Controls over the agent cashier function
strengthen billing procedures to avoid missed                  needed improvement at 2 of 4 sites where we
billing opportunities.                                         tested the controls. We identified instances where
                                                               the agent cashier was not escorted when making
Pharmacy Security                                              trips to the credit union, unannounced audits were
                                                               not conducted timely, cash advance funds were
z   VAneeds to improve physical security in                    not evaluated for adequacy during unannounced
pharmacy areas. We found physical security                     audits, and security cameras were not
deficiencies in pharmacy areas at 2 of 12 facilities           operational.
where we tested these issues.
                                                               z   Personal funds of patients accounts needed
                                                               improvement at 2 of 5 sites where we tested the
                                                               controls. Inactive accounts were not reviewed
                                                               timely to verify patient status resulting in funds of
                                                               patients being retained by the facility and not
                                                               being transferred to patients, guardians, or
                                                               patients’ next-of-kin.

                                                               Health Care Management

                                                               z   Inspectors reviewed the patient transportation
                                                               services programs in 14 VHA facilities during the
        VA Black Hills Health Care System                      CAP reviews. We accompanied patient
                 Hot Springs, SD
                                                               transports and observed driver safety practices;
                                                               interviewed managers; reviewed local policies,
                                                               employee and volunteer driver training records,




                                                       10
 

                                                                             Combined Assessment Program

and VA transportation contracts; assessed how                    the care. We interviewed patients in primary
patient transportation is integrated in the facility’s           care, mental health, or specialty care clinics.
emergency preparedness plan; and collected                       We also surveyed outpatients who were in
information about employee and volunteer driver                  waiting areas of the various supportive
accidents. We identified opportunities for VHA                   services such as pharmacy, radiology, and
to further define guidelines for employees and                   laboratory.
volunteers who transport patients; to strengthen
initial and follow-up screenings of drivers, to                  z   Overall, 92 percent of the outpatients rated
include physical examinations, driving record                    the quality of care as good, very good, or
reviews, and verifications of current state drivers’             excellent. Ninety-two percent of the respondents
licenses; to ensure appropriate and necessary                    stated they would recommend medical care to
training is offered for drivers; to ensure systems               eligible family members or friends, and 89 percent
are established to monitor VA-contract and fee-                  told us their treatment needs were being
basis driver competency; and to ensure vehicles                  addressed to their satisfaction.
contain equipment for drivers’ and patients’ safety
and protection.                                                  z   Eighty-eight percent of the outpatients told us
                                                                 they felt involved in decisions about their care, 82
Community Residential Care Program                               percent told us a health care provider discussed
                                                                 the results of tests and procedures with them, 95
z    We reviewed VHA’s policies and practices                    percent told us their primary care provider
related to the community residential care program                discussed the reasons for medications with them,
at seven medical facilities. We found that VAMC                  89 percent were told the reasons for referrals to
employees did not always follow inspection                       specialists, and 92 percent were told why
policies and procedures. Fire safety officers at 4               diagnostic tests were ordered.
of 7 facilities did not routinely conduct annual fire
safety evaluations, and employees at 2 of 7                      z   While 81 percent of the outpatients stated
facilities did not always verify that identified                 they received counseling by the pharmacist when
deficiencies were corrected. We also found that                  they received new prescriptions and 83 percent
clinicians at 3 of 7 facilities did not consistently             said they received their refills in the mail before
conduct or document monthly follow-up visits.                    they ran out of medications, only 59 percent told
VHA clinicians at 4 of 7 facilities did not meet                 us they received their prescriptions from the
with VBA field examination supervisors annually                  outpatient pharmacy within 30 minutes.
to discuss cases involving incompetent patients
with fiduciaries. We made several                                z   Only 69 percent of the outpatients told us
recommendations.                                                 they were generally able to schedule
                                                                 appointments with their primary care providers
Survey Results                                                   within 7 days of their request, and only 71
                                                                 percent of the outpatients who were referred to a
Outpatient Surveys                                               specialist told us that they were given
                                                                 appointments and were assessed by the specialist
We surveyed 438 VA outpatients at 18                             within 30 days of the referrals.
facilities to ascertain their satisfaction with




                                                         11
 

Combined Assessment Program

Inpatient Surveys                                            areas. We found showerheads were not always
                                                             constructed in order to prevent suicide (10
We completed 288 inpatient interviews in 18                  percent), grab bars were not properly
VHA facilities during this period. We surveyed               constructed (10 percent), and sprinkler heads
patients in the areas of medicine, surgery,                  were not constructed to break away from body
intensive care, mental health, nursing home,                 weight (7 percent).
domiciliary, and special emphasis programs.

z    We discussed the results with local
management officials before leaving the sites.
Overall, 96 percent of patients would recommend
VAmedical care to eligible family members or
friends and 95 percent of the inpatients
interviewed rated the quality of care as good,
very good, or excellent. Results of these findings
were discussed with facility managers during site
visits.
                                                                   VA Medical and Regional Office Center
Physical Plant Environment
                                                                              Cheyenne, WY

We inspected 222 areas at 18 facilities,                     Employee Surveys
including primary care and specialty
outpatient clinics, inpatient wards, emergency               Employee feedback was obtained from
rooms (ER), intensive care/coronary care units,              responses to a web-based survey we
nursing home care units, domiciliary units,                  implemented at 18 CAP reviews. All
psychiatry units, surgery, and rehabilitation                employees of each facility were notified by
areas.                                                       e-mail about the survey and were provided
                                                             with the web address. We received 2,362
z    Overall, we found 80 percent of the areas we            responses. Since we began performing CAP
inspected were generally clean and had good                  reviews, we have systematically elicited
sanitation. While minor uncleanliness could be               employees’ perceptions on a wide range of
identified in all facilities, management was                 issues. We believe that the resulting data can
responsive and took immediate corrective actions             provide an independent, objective indicator of
for equipment in the hallways (15 percent),                  employee satisfaction for facility management
nourishment kitchen maintenance (10 percent),                to use in decision-making. VHA aspires to be
and repairs needed (7 percent). Among safety                 the employer of choice. We provided facility
deficiencies, inspectors found 9 percent of all              management with survey results obtained
chemicals and cleaning supplies were not stored              during CAP reviews.
properly.
                                                             z    Eighty-one percent of the employees who
z   VAhas established certain guidelines to                  responded felt that quality patient care was the
prevent suicide within inpatient mental health               first priority at their medical center. Eighty-five




                                                     12
 

                                                                          Combined Assessment Program

percent of the respondents believed the quality of            z   VARO San Diego, California
 

care provided to patients at their respective                 z   Robert J. Dole VAMROC, Wichita, Kansas
 

facilities was either good or excellent. Eight-five           z   VARO Buffalo, New York
 

percent of the employees who responded felt                   z   VARO Columbia, South Carolina
 

their medical center was clean, and 72 percent of             z   VARO Houston, Texas
 

them asserted they would recommend their facility             z   VAMROC Cheyenne, Wyoming
 

to an eligible family member or friend.
                                                              Summary of Findings
z   Eighty-seven percent of the respondents
believed they received proper orientation,                    Deficiencies identified during prior CAP reviews
education, and training to do their jobs. In                  in the management of veterans benefits programs
addition, 61 percent of these employees felt                  were discussed in a recently issued OIG summary
management provided them opportunities to fulfill             report - Summary Report of CAP Reviews at
their continuing education needs or requirements.             VBA Regional Offices October 2002 through
Seventy-six percent of the employees who                      September 2003. During this reporting period,
responded asserted that adequate supplies were                we identified similar problems at the six regional
available for them to do their jobs.                          offices. The following areas required the attention
                                                              of VBA management.
We noted the following deficiencies that were
common to most facilities:                                    Information Technology

z    Fifty percent of the responding employees                The CAP review coverage of VBA facilities in
believed they had not been offered opportunities              FY 2004 identified a wide range of
for career advancement.                                       vulnerabilities in VBA systems similar to those
                                                              we identified during VHA CAP reviews. The
z  Thirty-three percent of respondents asserted               deficiencies could lead to misuse or loss of
work orders for needed repairs were not                       sensitive automated information and data.
addressed promptly at their facilities.                       The CAP review findings show a need to
                                                              improve access controls, contingency
z    Only 41 percent of responding employees felt             planning, risk assessments, and security
staffing levels were usually sufficient to provide            training. Inadequate management oversight
safe patient care.                                            contributed to inadequate information security
                                                              and physical security of assets.
Combined Assessment Program
Overview - Benefits                                           z   IT security was deficient at 4 of 6 offices
                                                              reviewed. Risk assessments needed to be
During this period, we issued six CAP reports on              conducted, and some contingency plans required
the delivery of benefits. See Appendix A for the              revision and testing. Physical security of IT
full title and date of the CAP reports issued this            equipment at one site needed prompt attention.
period. These six reports relate to the following
benefit facilities:




                                                      13
 

Combined Assessment Program

                                                            status. When appropriate, action is needed to be
                                                            taken to place veterans who are not pursuing their
                                                            approved training programs in discontinued or
                                                            rehabilitated program status.

                                                            z   Government purchase card program
                                                            deficiencies existed at 2 of 5 sites where we
               VA Regional Office                           tested the program controls. Reconciliations and
                  Houston, TX                               certifications were not performed timely, single
                                                            purchase limits were not enforced, and purchase
Compensation and Pension Claims                             card duties were not separated. Management
Processing                                                  needs to reiterate the need to record the dates of
                                                            monthly purchase card reconciliations and
z   Timeliness of compensation and pension                  certifications, ensure micro-purchases do not
claims processing needed improvement at all five            exceed the $2,500 limit, and ensure separation of
offices where we tested the processing. The                 duties or explain why the facility can not meet the
claims had avoidable processing delays and/or               requirement and document the reasoning for their
procedural errors that affected workload and                modified policy on separation of duties.
timeliness measures. Managers need to consult
with medical center staff to improve compliance             z   We found that improvements were needed in
with requirements for notification when veterans            fiduciary accounting and field examination
are hospitalized for extended periods and provide           controls and procedures at 4 of 5 offices where
refresher claims processing training for veteran            we tested these issues. Fiduciary accountings
service center staff.                                       were not always submitted timely or accurately.
                                                            Management needs to improve the oversight of
z   Other deficiencies found during our visits              incompetent beneficiaries’ funds by ensuring
included inaccurate actions on system error                 accountings and field examinations were
messages, inaccurate entry of data, and improper            conducted timely and appropriate corrective
reduction by veteran service center personnel of            action was taken.
pension benefits of veterans hospitalized for
extended periods at Government expense.                     Interim Report Issued - VAMC
                                                            Bay Pines, Florida
Other VBA Programs
                                                            • Allegations Questioning Clinical and
z   VBA’s processing and timeliness over                    Administrative Activities
vocational rehabilitation and employment claims
needed improvement. Data entry, claims                      We received requests from the Secretary of
processing, and case monitoring errors were                 Veterans Affairs and Congressional members to
noted at 5 of 6 sites where we tested these                 review allegations questioning the adequacy of
issues. Management needs to process claims for              clinical and administrative activities at VAMC Bay
vocational rehabilitation benefits in a timely              Pines, Florida. On March 19, 2004, we issued
manner, enter accurate data, and monitor claims




                                                    14
 

                                                               Combined Assessment Program

an interim report to disclose the progress of
patient care and administrative issues at VAMC
Bay Pines. A final report will be issued when we
have completed our review of all the allegations.




                VA Medical Center
                 Bay Pines, FL

Our review found that VAMC managers
cancelled surgeries because critical surgical
supplies and instruments were not consistently
available or properly sterilized by supply
processing and distribution. Other deficiencies
identified included improper sterilization
procedures, inadequate inventory practices, and
poorly trained staff. Our review also showed that
VA CoreFLS project managers still have
significant work to do to implement the CoreFLS
system. CoreFLS issues on data conversion,
testing, training, interfacing with other VAsystems,
information security, and contracting processes
need management attention.

This is an interim disclosure report and, as such,
there are no recommendations. We will include
them in the final report. (Interim Report -
Patient Care and Administrative Issues at
VAMC Bay Pines, FL, 04-01371-108, 3/19/04)




                                                       15
 

Combined Assessment Program




                              16
 

OFFICE OF INVESTIGATIONS

Mission Statement                                        I. CRIMINAL
   Conduct investigations of criminal                    INVESTIGATIONS
   activities and administrative matters                 DIVISION
   relating to the programs and operations
   of VA in an independent and objective                 This Division is primarily responsible for
   manner and seek prosecution,                          conducting investigations into allegations of
   administrative action, and/or monetary                criminal activities related to the programs and
   recoveries in promoting integrity,                    operations of VA. Criminal violations are
   efficiency, and accountability within the             referred to the Department of Justice for
   Department.                                           prosecution. The Division is also responsible
                                                         for operation of both the questioned document
Resources                                                forensic laboratory and the computer crimes
                                                         forensic laboratory.
Overall, the Office of Investigations has 136
FTE allocated to its three divisions: Criminal           Resources
Investigations Division, Administrative
Investigations Division, and the Analysis and            The Criminal Investigations Division has 121
Oversight Division. The following chart                  FTE allocated for its headquarters and 22 field
shows the allocation of resources.                       locations. These individuals are deployed in
                                                         the following VA program areas.



                                                                                       VHA
                                                                                       33%
                                  Administrative
      Criminal                    Investigations
                                                                                          A&MM
   Investigations                      4%                                                  6%
        92%                                                      VBA
                                   Analysis                      60%                    E. Crimes
                                     4%                                                     1%




                                                   17

Office of Investigations

Overall Performance                                              VA facilities throughout the nation to help
                                                                 ensure safety and security for those working in
Output
 
                                                        or visiting VAMCs. During this semiannual
z 502 investigations were concluded during the
 
                period, OIG special agents have participated
reporting period.
 
                                             with or provided support to VA police, in the
                                                                 arrest of 56 individuals who committed crimes
Outcome
 
                                                       on VHA properties.
z Arrests - 286
 

z Indictments - 161
 
                                           Homicide, Manslaughter, and Fraud
z Convictions - 158
 

z Pretrial Diversions - 11
 
                                    z   One of our more significant investigations
z Fugitive Felon Apprehensions - 149*
 
                         involved a former chief research coordinator at
z Administrative Sanctions - 192 (criminal
 
                    the Veterans Affairs Medical Center (VAMC)
investigations)
 
                                               Albany, NY, who has been charged in a 48-count
z Monetary benefits - $18.2 million ($7.8
 
                     felony indictment for criminally negligent homicide,
million - fines, penalties, restitutions, and civil
 
           manslaughter, and fraud for falsifying veterans’
judgments; $5.9 million - efficiencies/funds put
 
              medical records in order to enroll them in cancer
to better use; and $4.5 million - recoveries)
 
                 research studies sponsored by private
                                                                 pharmaceutical companies. The indictment
  * This includes the total fugitive felon
apprehensions made by VA OIG and other law                                         Times Union
 

enforcement agencies during this reporting                                          Albany, NY
 

                                                                             Thursday, October 30, 2003
 

period.

Customer Satisfaction
 

z Customer satisfaction during this reporting
 

period was 4.9 on a scale of 5.0.
 


Veterans Health
Administration
The Criminal Investigations Division
investigates those instances of criminal
activity against VHA that have the greatest
impact and deterrent value, including crimes
such as patient abuse, theft of Government
property, drug diversion, bribery/kickback
activities by employees and contractors, false
billings, and inferior products. Working
closely with VA police, the Division has placed
an increased emphasis on crimes occurring at




                                                         18
 

                                                                                       Office of Investigations

followed an investigation that revealed the                    that the nurse, a 13-year VAMC employee,
researcher’s alterations, forgeries, and false                 diverted in excess of 1,000 Hydrocodone tabs
statements pertaining to the official records led to           for her own use during a 1-year period. The
the 2001 death of a veteran who had sought                     drugs had been prescribed to local veterans
treatment for gastric cancer. The researcher                   seeking treatment. Complaints from veterans
allegedly falsified blood tests, switched the                  about missing prescriptions prompted the
records of potential research patients with other              investigation.
patients, and doctored lab reports to camouflage
the fraud. The investigation also revealed that the            Improper Medical Treatment
researcher was dismissed from medical school for
falsifying transcripts in 1984, was convicted of               z    AVA OIG investigation resulted in the arrest
mail fraud for falsifying information on a medical             of a nurse working in a surgical intensive care unit
license application in 1992, and had lied on his               at a VAMC who was dispensing a controlled
federal employment application regarding his                   substance outside the parameters of the law. The
undergraduate performance and mail fraud                       investigation disclosed that a significant shortage
conviction. The investigation is ongoing and could             of morphine was detected during a routine
result in charges being filed against additional               inventory. Additional discrepancies were
subjects.                                                      detected in the nurse’s narcotics log. During
                                                               interview, the nurse admitted that he illegally gave
Theft/Diversion of Pharmaceuticals                             medication to ensure patients remained pain free,
                                                               to regulate blood pressure, and to increase
z   A former VA pharmacy technician was                        sedation. The nurse was released on bond and is
sentenced to 24 months’ incarceration, 36                      awaiting his next court appearance. He was
months’ supervised probation, and ordered to                   placed on administrative leave with pay.
make restitution of $54,295. Additionally, the
individual was ordered to forfeit $600,000, which              Attempted Murder
represented the subject’s proceeds from the
criminal scheme, to the U.S. Treasury. AVA OIG                 z    The VA OIG was requested to assist in the
investigation disclosed that the former pharmacy               investigation of a VAMC employee who was
technician and a former VA purchasing agent                    arrested and charged with attempting to kill an
diverted approximately 600,000 tablets of                      employee of the United States and other felony
Hydrocodone and Alprazolam from a VA                           firearms-related offenses. The investigation
outpatient clinic from 2001 to 2003.                           disclosed that the employee arrived at the
                                                               hospital armed with a 12-gauge shotgun, 7 mm
z   After pleading guilty to theft of                          rifle, .22 caliber rifle, and a .380 caliber pistol,
pharmaceutical drugs, a VA nurse was                           entered the human resources service, and fired
sentenced to 36 months’ probation. In                          the 12-gauge shotgun directly into a desk
accordance with a plea agreement, the nurse                    under which an employee was taking cover.
was also required to voluntarily surrender her                 He then fired the shotgun two more times through
nursing license for the period of probation and                the closed office door of the assistant chief of
participate in a drug rehabilitation program. A                human resources service. The employee then left
joint VA OIG/VA police investigation disclosed                 the building, reloaded the shotgun, and went to an




                                                       19
 

Office of Investigations

area where he had left a loaded 7 mm rifle. At                reflecting claims paid by VAin the scheme
this point, VA police arrived on the scene in a               resulting in a loss of $31,620. Each subject has
marked patrol car. The employee fired two                     been indicted and is pending further judicial
additional times with the shotgun striking the                action.
windshield of the patrol car. VA police returned
fire and subsequently took the gunman into                    Sexual Assault
custody uninjured. A Federal criminal complaint
was filed and the case is pending further judicial            z    A former VAMC nursing assistant was
action.                                                       arrested by VA OIG agents and local police
                                                              and charged with four counts of felony sexual
Identity Theft                                                battery. The arrest was based on a VA OIG
                                                              investigation of reports by two terminally ill female
z    An individual pled guilty to knowingly                   VAMC patients that the nursing assistant sexually
possessing false identification documents with the            assaulted them. The victims provided a sworn
intent to defraud the United States. AVA OIG                  statement of their accounts of the sexual
investigation disclosed that the individual, a non-           batteries. Both victims have since died from their
veteran, went to a VAMC for a scheduled                       illnesses. The subject provided a full confession
appointment and was found to be in possession of              during his interview. Subsequently, two additional
a Social Security card and a veterans universal               victims, aged 64 and 67, were identified. One of
access identification card bearing the name and               these victims was terminally ill at the time of the
Social Security number of a legitimate veteran.               incident and is now deceased. The other victim
Investigation showed that since the mid-1990’s,               has advanced stages of Parkinson’s disease.
the individual had used the veteran’s identity to             Pursuant to his arrest, the nursing assistant was
obtain medical services at four VAMCs around                  re-interviewed and denied indecently assaulting
the country. The total VA loss was approximately              the third terminally ill patient; however, he
$21,000.                                                      admitted to indecently assaulting the patient with
                                                              Parkinson’s disease.
Health Care Fraud
                                                              Procurement Fraud
z    A veteran and her former caregiver were
indicted and charged with wire fraud. The                     z   A VAMC plumbing supervisor pled guilty
charges concluded an 18-month VA OIG                          to criminal charges relating to kickbacks and
investigation that disclosed the veteran, who                 conspiracy. Two contractors involved in the
claimed to suffer from Post Traumatic Stress                  scheme have already signed plea agreements in
Disorder (PTSD), and the caregiver created a                  which they agreed to plead guilty to conspiracy
fictitious company that allegedly treated the                 charges. The indictment and plea agreements
veteran for her condition. The veteran had                    followed a VA OIG investigation that disclosed
previously convinced VA officials that she had                the VAMC employee and contractors engaged
flashbacks and needed a full-time caregiver. The              in a scheme to inflate and falsify purchase
veteran and caregiver submitted fictitious time               orders for emergency and routine plumbing
sheets of non-existent employees to VA.                       repairs at the VAMC. Over a 3-year period, the
Consequently, they received wire transfers                    contractors overcharged the VAMC more than



                                                      20
 

                                                                                    Office of Investigations

$80,000. This amount represents the money the                Bank Fraud
contractors paid the VAMC employee in order to
obtain work at the VAMC.                                     z    After pleading guilty to bank fraud, a former
                                                             credit union employee was sentenced to 18
z    The chief executive of a construction                   months’ probation, with the first 6 months to be
company was found guilty following a 2-week                  served in home confinement, and ordered to pay
trial on charges of money laundering, wire fraud,            $31,222 in restitution . The sentencing followed a
mail fraud, and making false statements to both              VA OIG investigation that disclosed two tellers,
Government and private entities, including VAand             one of which was previously sentenced,
the Small BusinessAdministration. The                        fraudulently withdrew a total of $68,900 in funds
investigation, with VAOIG audit assistance,                  from a VAMC Federal credit union. The credit
disclosed a conspiracy with other individuals, two           union manager detected the theft and requested
of whom have already been convicted, to defraud              an audit of the missing funds. The two tellers quit
the various entities by filing false statements.             their positions immediately prior to the audit. A
During the period of the thefts, the executive’s             review of the tellers’ electronic password histories
company was engaged in VA construction                       revealed they were used to access the missing
contracts at two VAMCs totaling over $2.2                    funds. Both individuals admitted in sworn
million. As a result of this conviction, the                 statements to logging fabricated transactions in
individual faces 72 months’ imprisonment at the              order to conceal their theft of funds.
time of sentencing.

z   A VA contractor pled guilty to charges of
                                                             Veterans Benefits
conspiracy to bribe a public official. A VA                  Administration
OIG investigation disclosed the contractor was
awarded contracts in return for paying a                     VBA provides wide-reaching benefits to
Government employee between $250 and $600                    veterans and their dependents, including
in cash for each awarded contract. The                       compensation and pension payments, home
scheme was facilitated by a former VA                        loan guaranty services, and educational
employee who released sealed bid information                 opportunities. Each of these benefits
to the contractor that allowed the contractor to             programs is subject to fraud by those who wish
submit lower bids and receive Government                     to take advantage of the system. For example,
repair contracts. The VA employee also                       individuals submit false claims for service-
created fictitious repair jobs for which the                 connected disabilities, third parties steal
contractor would submit invoices. The                        pension payments issued after the unreported
subsequent payment would be split between                    death of the veteran, individuals provide false
the co-conspirators. The scheme caused VA to                 information so that veterans qualify for VA
lose over $355,000. The employee was                         guaranteed property loans, equity skimmers
previously arrested and is awaiting further                  dupe veterans out their homes, and
judicial action                                              educational benefits are obtained under false
.                                                            representations. The Office of Investigations
                                                             spends considerable resources in investigating
                                                             and arresting those who defraud operations of
                                                             VBA.



                                                     21
 

Office of Investigations

Death Match Project                                          imprisonment, 2 years’ supervised release, and
                                                             ordered to pay $130,820 in restitution to VA.
z   The Office of Investigations is conducting an            The sentence was based on a VA OIG
ongoing proactive project in coordination with VA            investigation that disclosed the individual had
OIG Information Technology and Data Analysis                 assumed the identity of several different people
Division. The match is being conducted to                    in an effort to gain employment and VA
identify individuals who may be defrauding VAby              benefits. Investigation disclosed the individual
receiving VA benefits intended for veterans whose            fraudulently received VA pension checks and
deaths have not been reported to VA. When                    medical treatment from eight different VAMCs.
indicators of fraud are discovered, the matching
results are transmitted to VA OIG investigative              z    An individual was sentenced to 4 months’
field offices for appropriate action. To date, the           incarceration, 4 months’ home confinement, 3
match has identified in excess of 8,700 possible             years’ supervised release, and ordered to make
investigative leads. Over 5,000 leads have been              restitution of $140,000. The sentencing resulted
reviewed, resulting in the development of 713                from the individual’s conviction for theft of VA
criminal and administrative cases. Investigations            compensation benefits. The VA OIG investigation
have resulted in the actual recovery of $10.5                disclosed the individual, who held joint ownership
million, with an additional $7.5 million in                  of a bank account with a legitimate VA
anticipated recoveries. The 5-year projected                 compensation recipient, failed to notify VAof the
cost avoidance to VA is estimated at $24.8                   beneficiary’s death and continued to access and
million. To date, there have been 94 arrests in              withdraw VA benefits payments deposited into
these cases with several additional cases awaiting           the bank account.
judicial actions.
                                                             z   An individual was indicted for theft of
Benefits Fraud                                               Government funds, following a joint VAOIG and
                                                             SSA OIG investigation. The investigation
z    An information was filed charging the son and           disclosed the individual fraudulently received and
daughter-in-law of a deceased veteran with theft             negotiated her estranged husband’s VA and
of Government funds. The information was based               Social Security disability compensation benefits.
on an investigation that revealed that the son had           She wrongfully received $156,957 from VA and
a joint bank account with his stepmother who had             $42,108 from SSA. A trial date is pending.
been receiving Dependency and Indemnity
Compensation benefit payments as a result of his             z   A veteran was sentenced to 37 months’
father’s death. The son failed to report the                 imprisonment and ordered to pay restitution of
January 1986 death of his stepmother to VA. At               $384,934 to VA after pleading guilty to a two-
various times during the next 14 years, the                  count indictment charging him with making false
defendants withdrew the benefit payments and                 claims against the United States. AVA OIG
used the money for personal expenses. Total VA               investigation disclosed that the individual
loss is $154,312.                                            fraudulently collected compensation benefits since
                                                             1991, claiming he could not walk without the use
z   An individual pled guilty to theft and mail              of braces, crutches or a wheelchair. Because of
fraud charges and was sentenced to 30 months’                the nature of the veteran’s disability, he also




                                                     22
 

                                                                                    Office of Investigations

received special monthly compensation,                       investigation determined the veteran had been
compensation for special adaptive housing, and               fraudulently receiving pension benefits since 1994
assistance with purchasing an automobile.                    while working full-time and improperly reporting
Investigation disclosed that he could walk without           no income to VA. The veteran confessed he
the aid of assisting devices.                                falsely reported zero income to VA while he was
                                                             employed because he was afraid of losing his VA
              Port St. Lucie News
 
                         pension.
               Port St. Lucie, FL
 

            Tuesday, March 16, 2004
 

                                                             z   A veteran pled guilty to a charge of criminal
                                                             conduct for making false statements under oath
                                                             relative to his VA PTSD claim. The veteran was
                                                             immediately sentenced to 30 days’ home
                                                             confinement and 36 months’probation. A joint
                                                             VA OIG and FBI investigation disclosed that for
                                                             the past 17 years, the veteran defrauded VA by
                                                             claiming to have PTSD due to his combat
                                                             experience in Vietnam when, in fact, the veteran
                                                             saw no combat in Vietnam. The VA’s loss is
                                                             $168,000.

                                                             z   A veteran and his wife were indicted and
                                                             charged with conspiracy to defraud VA
                                                             through interstate wire communications, mail
                                                             fraud, and making false statements. A joint VA
                                                             OIG and SSA OIG investigation revealed the
                                                             veteran, who is 100 percent service-connected,
                                                             and his wife conspired to increase the veteran’s
                                                             compensation benefits by providing false
                                                             information in order to receive payment for aid
                                                             and attendance that was allegedly provided by his
                                                             wife. Also, in statements to the SSA to increase
                                                             her Social Security disability benefit payments, the
                                                             wife falsely claimed she could not walk and was
                                                             in need of aid and attendance for services
                                                             provided by the veteran. The veteran admitted he
                                                             and his wife had conspired to lie to VA so he
                                                             could receive a higher amount of compensation
                                                             payments. In addition, he admitted he could
                                                             walk, at which time he stood up and walked out
z   A veteran was sentenced to 6 months’                     of the VAMC. Based upon the alleged fraud,
imprisonment and 60 months’ probation, and                   VA paid the pair approximately $150,000 in
ordered to pay $67,893 restitution stemming from             benefits to which they were not entitled.
a previous theft conviction. AVA OIG



                                                     23
 

Office of Investigations

z   A veteran was indicted and charged with wire              Bribery
fraud and making false statements. The
indictment followed a joint VAOIG and SSA                     z    A former executive vice president of a
OIG investigation that disclosed the veteran, to              technical college, pled guilty to conspiracy and
increase her compensation payments above her                  bribery of public officials and witnesses. The VA
entitlement, falsely informed VA and SSA that                 OIG investigation disclosed the subject offered
she was unable to walk and was confined to a                  cash and gifts to a VA vocational rehabilitation
wheelchair. The total loss to the Government is               counselor for referring students to his college.
$200,000.                                                     The subject, a veteran himself, also paid cash to
                                                              the counselor, who was acting at the direction of
z    A veteran was indicted on charges of theft of            the OIG, in return for being enrolled in VA’s
Government funds and wire fraud. The                          vocational rehabilitation program and for the
indictment resulted from a VAOIG investigation                purchase of a laptop computer. The subject,
that disclosed the veteran fraudulently claimed a             already on probation for a 1999 conviction for
service-connected disability for blindness when, in           income tax evasion and witness tampering, was
fact, his visual acuity appeared to be much better            sentenced to 19 months’ imprisonment, 3 years’
than he claimed. The veteran’s actions caused                 probation, and fined $10,000. Prior to his arrest,
VA to pay entitlements, of which $670,000 is in               this defendant unwittingly introduced the president
question.                                                     of the technical college to a special agent of the
                                                              OIG who was acting in an undercover capacity
Fiduciary Fraud                                               by posing as a VA vocational rehabilitation
                                                              counselor. The president offered a bribe to the
z   An individual was arrested following                      special agent and was later arrested. He
indictment on charges of misappropriation of                  subsequently pled guilty to a single count of
funds by a fiduciary. The VA OIG                              bribery and is awaiting sentencing.
investigation disclosed the individual, a VA-
appointed guardian for several incompetent                    z    A former VA contractor was sentenced to
veterans, embezzled approximately $85,000 of                  24 months’ imprisonment and 36 months’
the veterans’ funds. The individual used the funds            supervised release, and ordered to pay $90,000
for personal expenses, including a down payment               in restitution to VA. A joint investigation by the
on a home.                                                    FBI and VA OIG disclosed that over a
                                                              3-year period, the VAcontracting official
z   Two attorneys were indicted on charges of                 awarded the contractor repair contracts valued at
theft of Government property, mail fraud, and                 $355,462 in return for bribes.
false statements. The indictment followed a
VA OIG investigation that disclosed the attorneys,            Loan Guaranty Fraud
who were appointed as fiduciaries for
incompetent veterans, stole money from the                    z   Two individuals were sentenced to a total
veterans whose financial affairs they were                    of 51 months’ imprisonment, 72 months’
entrusted to manage. One attorney stole over                  probation, and $90,000 in fines, and ordered to
$38,000 and the other over $100,000.                          make restitution of $1,366,279. Their sentencing
                                                              followed guilty pleas to charges of bankruptcy




                                                      24
 

                                                                                    Office of Investigations

fraud, equity skimming, conspiracy, false use of a           consists of conducting matches between
Social Security number, and making a false                   fugitive felon files of law enforcement
statement in a bankruptcy. The charges stemmed               organizations and more than 11 million
from a joint FBI, VA OIG, SSA OIG, Department                records contained in VA benefit system files.
of Housing and Urban Development (HUD) OIG                   Once a veteran is identified as a fugitive,
investigation that disclosed the subjects’                   information on the individual is provided to
involvement in a 10-year equity-skimming                     the law enforcement organization responsible
scheme, in which they filed fraudulent                       for serving the warrant to assist in the
bankruptcies to forestall foreclosure on hundreds            apprehension. Information is then provided to
of VA-guaranteed, HUD-insured, and                           the Department so benefits may be suspended
conventionally insured properties.                           and to initiate recovery action for
                                                             overpayments.
z    A civil settlement agreement was reached
regarding a qui tam lawsuit that was filed against           To date, Memoranda of Understanding/
a law firm under the False Claims Act. The                   Agreements have been completed with the
lawsuit alleged the law firm made numerous false             U.S. Marshals Service and the National Crime
claims involving mortgage loan guarantees granted            Information Center, as well as with the States
by VAand HUD by falsely claiming                             of California, New York, Tennessee, and
reimbursement for fees they did not incur while              Washington. Additional agreements are in the
handling a large number of VAand FHA                         process of being negotiated with other states.
foreclosure sales. The allegations were                      The program has led to additional cooperative
substantiated and the firm agreed to pay                     efforts between the VA OIG, VBA, VHA, and
$676,852 to settle the case. Half of the                     the VA Police in an attempt to implement this
settlement will go to VA and HUD to cover                    new initiative.
losses. Another quarter of the settlement will
go to the Department of Justice, and the                     Investigative leads provided to law
remaining quarter will go to the qui tam                     enforcement agencies since the inception of
relator.                                                     the program have led to the arrest of fugitives
                                                             wanted for murder, manslaughter, sexual
                                                             assault, robbery, drug offenses, and other
Fugitive Felon                                               serious felonies. The apprehension of these
                                                             subjects has made VA facilities safer for our
Program                                                      veterans, employees, and the general public.

The Office of Investigations Fugitive Felon                  The following are examples of fugitive felon
Program identifies VA benefits recipients who                apprehension cases:
are fugitives from justice. The program
evolved after Congress enacted Public Law                    z   A local sheriff’s department requested the
107-103, Veterans Education and Expansion                    assistance of the VA OIG in locating a veteran
Act of 2001, prohibiting veterans who are                    who was wanted on charges of sexually assaulting
fugitive felons, or their dependents, from                   a child. AVA OIG agent developed potential
receiving specified benefits. The program




                                                     25
 

Office of Investigations


The following table identifies the statistics relating to the Fugitive Felon Program during this reporting period,
as well as from the inception of the program.

                                                                                  This
                           Fugitive Felon Program                               Reporting          Total
                                                                                 Period

    Felony Warrants Received from Participating Agencies                           1.2M            1.8M

    Matched Records                                                               14,953           27,661

    Referred to Law Enforcement Agency That Holds the Warrant                      4,341          10,354

    Arrests Made by Law Enforcement Agency That Holds the Warrant                   50              129

    Arrests Made by OIG                                                             99              195

    Referrals to VBA for Benefits Suspension                                      4,236            6,530

    Estimated Identified Overpayments                                              $32M           $46.8M

    Estimated Cost Avoidance                                                      $55.8M          $100M

    M = Million


location information from VA records and                       OIG Questioned
 

together with local sheriff deputies apprehended
the subject.                                                   Document
 

                                                               Forensic Laboratory
 

z   A warrant was issued for an individual as a
result of a Drug Enforcement Administration case.
                                                               The Office of Investigations operates a
Investigative leads developed by the VA OIG
                                                               questioned document forensic laboratory for
resulted in the subject’s arrest at a VAMC by VA
                                                               fraud detection that can be used by all
OIG agents and deputy U.S. Marshals.
                                                               elements of VA. The types of requests
                                                               routinely submitted to the laboratory include
z   AVA human resources and labor relations
                                                               handwriting analysis, analysis of photocopied
specialist was arrested by VA OIG agents and
                                                               documents, and suspected alterations of
officers of a local sheriff’s department based on
                                                               official documents.
an arrest warrant issued after the employee was
indicted on charges of felony assault on a police
                                                               There were a total of 20 completed laboratory
officer. The employee was arrested without
                                                               cases during this semiannual period.
incident at a VAMC.




                                                       26
 

                                                                                    Office of Investigations

                                                              connected death benefit award. Laboratory
      Laboratory Cases for the Period                         examinations of type font design typewriter
                                     C a se s                 entries, pre-printed letter head defects, copy
            Requester                                         toner, and signature examinations, determined 19
                                    Completed
                                                              medical records were fraudulently created. The
    OIG Office of                                             laboratory report was used as basis for denial of
                                         9
    Investigations                                            the widow’s application for VAbenefits.
    VA Top Management                    3
    VA Regional Offices                  8                    OIG Computer Crimes
              TOTAL                     20                    Forensic Laboratory
                                                              The Office of Investigation operates a
The following are examples of completed                       computer crimes forensic laboratory in
laboratory reports.                                           Washington, DC. The laboratory offers
                                                              forensic support in the examination of
z   The VA OIG and SSA OIG conducted a joint                  computers, removable storage media, personal
investigation that disclosed a veteran’s brother              digital assistant, and other digital storage
used the identity of the veteran to obtain service-           devices. The laboratory provides support to
connected compensation benefits and medical                   VA OIG special agents nationwide in the
services. The VA OIG laboratory identified the                investigations of fraud, misuse of Government
brother as the author of numerous fraudulent                  equipment, identity theft, and child
documents on which the VA relied to grant a                   pornography.
100 percent service-connected disability rating
for PTSD. As a result of the subject’s deception,             There were a total of 12 completed laboratory
VA lost $300,000 and SSA lost an additional                   cases during this semiannual period.
$40,000 in benefit payments.

z    The Philadelphia VARO and Insurance                               Laboratory Cases for the Period
Center requested laboratory examinations of
                                                               Theft                                       3
three critical documents that would be the basis of
awarding VAlife insurance funds. Laboratory                    Child/Adult Pornography                     5
examinations determined two of the documents
                                                               Record Alteration                           1
were fraudulently created and identified the
individual who had authored handwritten entries                Fraud                                       2
on one of the documents. The laboratory report
                                                               Misuse of Government Systems                1
was used by VAinsurance officials in the decision
to disperse the VA life insurance funds of $40,615
to the correct beneficiary.                                   The following are notable cases:
z    The Manila VARO requested laboratory
examination of medical records which the widow                z  AVA employee was arrested on suspicion of
of the veteran used as justification for a service-           possession of child pornography. With the




                                                      27
 

Office of Investigations

assistance of the investigating agent and
preliminary examinations conducted at the OIG
field office, the laboratory personnel provided a                                                  VBA
written report and expert testimony in the ensuing                                                 3%
trial. The testimony lasted for 3 days and                                VHA
involved extensive use of a portable forensic                             94%                      VACO
                                                                                                    3%
examination station in the courtroom that was
constructed by the laboratory personnel. The VA
employee was found guilty on two counts of
possession of child pornography. This case was
the first jury conviction for the VA OIG in this
field.                                                         Overall Performance

z    AVA employee was suspected of creating                    Output
 

                                                               z The Division closed 12 cases and issued 7
 

false invoices on behalf of veterans. An
examination of his laptop computer revealed                    reports and 2 advisory memoranda.
 

several deleted files and fragments of files that
could be reconstructed to recreate the invoices.               Outcome
 

                                                               z VA managers agreed to take 28
 

A report was issued along with the recreated
invoices. The suspect was arrested and later pled              administrative sanctions, including personnel
 

guilty.                                                        actions against 9 officials, and corrective actions
 

                                                               in 19 instances to improve operations and
 

                                                               activities. The corrective actions included taking
 

II. ADMINISTRATIVE                                             several steps to withdraw research funds from a
 

INVESTIGATIONS                                                 private nonprofit corporation not authorized to
 

                                                               administer those funds on behalf of VA; issuing
 

DIVISION                                                       bills of collection to recoup Government funds
 

                                                               spent for employees’ personal benefit, including
 

This Division is generally responsible for                     meals and entertainment, and for improper travel
 

investigating allegations against senior VAofficials           claims; directing a physician to return cash
 

and other high profile matters of interest to                  received as gifts from pharmaceutical companies;
 

Congress and the Department.                                   correcting appointments improperly made without
 

                                                               competition; and establishing policies prohibiting
 

Resources                                                      the use of VA-affiliated nonprofit research
 

                                                               corporation funds to purchase food and
 

The Administrative Investigations Division has six             entertainment.
 

FTE allocated. The following chart shows the
percentage of resources used in reviewing                      Samples of the Administrative Investigations
 

allegations by program area.                                   Division reports issued during this period are
 

                                                               provided below. These reports address serious
 

                                                               issues of misconduct against high-ranking officials
 

                                                               and other high-profile matters of interest.
 





                                                       28
 

                                                                                        Office of Investigations

Veterans Health                                                  Misuse of Nonprofit Research
                                                                 Corporation Funds
Administration
                                                                 z    An administrative investigation substantiated
Solicitation of Gifts and Other                                  that officials from a VAnonprofit research
Ethics Violations                                                corporation improperly spent corporation funds
                                                                 on meals and entertainment. Employees who
z    An administrative investigation substantiated a             took part in these activities created the
VAMC physician violated ethical conduct                          appearance they misused their positions for
standards, primarily regarding his relationship with             personal gain by benefiting from free meals. The
pharmaceutical and medical equipment                             affiliated VAMC’s director, as the highest-ranking
companies. The physician solicited gifts of cash                 VA official on the corporation’s board of
from pharmaceutical companies, which are                         directors, did not ensure the corporation furthered
prohibited sources, to offset the cost of a                      the interests of the Department, as required.
cardiology symposium initially paid for from                     VHA officials took numerous actions to educate
personal and private research foundation funds.                  both VA employees throughout the Network, and
The physician used his official position for                     the corporation’s board of directors and
personal gain when he sent the solicitation letters              executive director, regarding the appropriate use
on VAletterhead containing his official VAtitle,                 of VA nonprofit research corporation funds.
thus implying that VAsanctioned his solicitation,
and asked that the cash be deposited in the                      Contract Irregularities and
private research foundation; gave the appearance                 Questionable Expenditures
that he lacked impartiality in performing his official
duties when he allowed three companies doing                     z    An administrative investigation substantiated
business with VA, including two he had solicited,                that a VHA senior official repeatedly requested
to attend or speak at the symposium; gave a gift                 that contracting officials procure services from
to two superiors when he paid for their dinner and               specifically named vendors whom he knew
entertainment at a party he hosted; and did not                  personally, or with whom he had previously
fully cooperate with our official investigation.                 worked, even after the official was advised about
Subsequent to our draft report, VHA officials did                what conditions must be satisfied before a sole-
not renew the physician’s temporary appointment.                 source procurement can be properly awarded. In
The investigation also disclosed the medical                     requesting the procurements, the senior official
center improperly allowed pharmaceutical                         made statements about the uniqueness and
companies to provide meals on a routine basis to                 urgency of his office’s requirements, and the skills
clinical staff and residents. In response to a                   of the particular vendors he requested, that were
recommendation, VHA officials discussed and                      factually unsupported or misleading. The
distributed policy explaining this practice is                   investigation further substantiated the senior
prohibited.                                                      official allowed contractors to perform services
                                                                 that were not authorized by a purchase order, and
                                                                 misrepresented to the contracting office the nature
                                                                 of the services being billed on an invoice. Finally,




                                                         29
 

Office of Investigations

the investigation substantiated the senior official                 z   Practiced a management style regarding
wasted funds while planning and convening two                       her handling of perceived staff performance
staff retreats, and misled his supervisor about their               issues which compromised the staff’s ability
costs. In response to our recommendations,                          to carry out the mission of the office.
VHA agreed to take appropriate administrative                       z Violated the Standards of Ethical
action against the senior official, and to issue him                Conduct for Employees of the Executive
a bill of collection to recoup the funds he allowed                 Branch when she approved four projects
to be spent on entertainment during one staff                       involving participation by a former colleague,
retreat.                                                            with whom the official had a close prior
                                                                    professional relationship.
Use of Government Funds,
Travel, Personnel, Impartiality,                                The Under Secretary for Health agreed to take
                                                                appropriate administrative action against this
and Management Issues
                                                                senior official and those members of her staff
                                                                responsible for approving the use of the funds for
z    An administrative investigation substantiated a
                                                                their own or others’ personal benefit. He also
senior official in VHA Central Office, and certain
                                                                agreed to take several actions to correct the
members of that official’s staff, were responsible
                                                                misuse of funds, including transferring them out of
for improperly spending nearly $1.7 million
                                                                the private nonprofit corporation and properly
provided to VA by pharmaceutical companies,
                                                                disposing of excess funds.
and maintained and administered by a private
nonprofit corporation, for VA’s use in conducting
specific research studies. The money was used                   III. ANALYSIS AND
for purposes unrelated to the projects specified,               OVERSIGHT
including some personal items. The senior
official’s predecessors acted similarly in                      DIVISION
misspending a lesser amount of these funds. The
improper purchases should have been paid for                    This Division has oversight responsibilities for all
either from appropriated funds or personally by                 operations conducted by the Office of
members of the staff.                                           Investigations through a detailed inspection
                                                                program to ensure the agency is in full compliance
Among the other findings, the administrative                    with the quality standards for investigations
investigation substantiated the senior official.                published by the President’s Council on Integrity
                                                                and Efficiency. The Division is also responsible
    z   Traveled unnecessarily, took circuitous                 for facilitating training for all Office of
    routes, claimed lodging expenses above the                  Investigations’ employees, and procuring and
    allowable limits, used expensive ground                     maintaining highly-technical investigative
    transportation, and claimed other improper                  equipment and other property. Additionally, the
    expenses totaling $9,737.                                   Division is the primary point of contact for law
    z Gave improper preference to four                          enforcement communications through the National
    individuals the official wanted hired or                    Crime Information Center, the National Law
    promoted.                                                   Enforcement Telecommunications System, the
                                                                Financial Crimes Criminal Enforcement Network,



                                                        30
 

                                                                                      Office of Investigations

and other law enforcement professional                          z    Participated in an IG Training Academy
organizations.                                                  curriculum conference designed to identify
                                                                recurring agency training needs and to develop a
Resources                                                       training program that will assist agencies in
                                                                complying with theAttorney General’s “periodic
TheAnalysis and Oversight Division has six FTE                  refresher” training mandate.
allocated.                                                      z Facilitated the completion of a memorandum
                                                                of understanding with the Federal Law
Overall Performance                                             Enforcement Training Center, Cheltenham, MD.
                                                                z Conducted 153 National Crime Information

Output and Outcomes
 
                                          Center and National Law Enforcement
z An inspection of the Southeast Field Office
 

                                                                Telecommunication System record checks in
was conducted. Additionally, the Division took
 
               support of criminal investigations.
preliminary actions to conduct an external
 

qualitative assessment review of the investigative
 

operations of another OIG pursuant to Section
 

6(e) of the IG Act and the Attorney General
 

Guidelines for Offices of IG with Statutory
 

Authority.
 

z A sensitive investigation was completed on
 

behalf of the President’s Council on Integrity and
 

Efficiency, Integrity Committee, that involved
 

allegations of misconduct leveled at an Inspector
 

General of another federal agency.
 


During the reporting period, the Division
 

accomplished the following.
 


z    Scheduled and/or facilitated 51 instances of
 

training involving 43 employees for such courses
 

as Criminal Investigator Training Program, IG
 

Transitional Training Program, Continuing Legal
 

Education, Interviewing Techniques, Firearms
 

Instructor Program, Defensive Tactics Training
 

Program, and OPM Management Training.
 

z Scheduled and facilitated computer-based
 

investigative training for 19 agents at the
 

Information Technology and DataAnalysis
 

Division inAustin, TX.
 

z Scheduled and facilitated reality and scenario-
 

based training for 21 VA OIG firearms
 

instructors.
 





                                                        31
 

Office of Investigations




                           32
 

OFFICE OF AUDIT 


Mission Statement                                           In addition, the Office of Audit’s Contract Review
                                                            and Evaluation Division has 25 FTE authorized
    Improve the management of VA programs                   for reimbursement under an agreement with the
    and activities by providing our customers               VAOffice of Acquisition and Materiel
    with timely, balanced, credible, and                    Management. This division conducts preaward
    independent financial and performance                   and postaward reviews of certain categories of
    audits and evaluations that address the                 VA contracts.
    economy, efficiency, and effectiveness of
    VA operations; and that identify                        Overall Performance
    constructive solutions and opportunities
    for improvement; and to conduct                         Outcome
 

    preaward and postaward reviews to assist                z Recommendations to enhance operations
 

    contracting officers in price negotiations              correct operating deficiencies have associated
 

    and to ensure reasonableness of contract                monetary benefits totaling approximately
 

    prices.                                                 $1.4 billion. In addition, contract reviews
 

                                                            identified monetary benefits of $538 million
 

Resources                                                   associated with the results of preaward and
 

                                                            postaward contract reviews.
 

The Office of Audit has 17 FTE allocated for its
headquarters and 159 FTE in 11 operating                    Customer Satisfaction
 

divisions located throughout the country. The               z Customer satisfaction with performance and
 

following chart shows the allocation of resources           financial audits and evaluations during this
 

used in auditing each of VA’s major program                 reporting period was 4.5 on a scale of 5.0. The
 

areas.                                                      average customer satisfaction rating achieved
 

                                                            for contract reviews was 4.7 out of a possible
 

                                                            5.0.
 

                        I&T
                        5%                                  The following summarizes some of the audits
 

                                       VBA
  Management
                                       25%                  and evaluations completed during the reporting
 

     12%
                                                            period organized by VA component: VHA,
 

                                                            VBA, Office of Management, Office of
 

                                    A&MM
                                     8%                     Information and Technology, and multiple office
 

                                                            action.
 

                 VHA
                 50%




                                                    33
 

Office of Audit

Veterans Health                                              amount of time allotted for clinical, administrative,
                                                             research, and educational activities;
Administration                                               (iv) periodically reassess whether physicians are
                                                             appropriately utilized; and (v) ensure physicians’
Quality of Care                                              supervisors and managers receive a copy of VHA
                                                             Handbook 1660.3 and sign the
                                                             acknowledgement form. The Under Secretary
Issue: Part-time physician time and
                                                             for Health agreed with the findings and
   attendance.
                                                             recommendations and provided acceptable
Conclusion: Implementation of
                                                             implementation plans. (Follow-Up of the VHA’s
   management controls continues to
                                                             Part-Time Physician Time and Attendance
   need improvement to ensure
                                                             Audit, 03-02520-85, 2/18/04)
   employment obligations are met.
Impact: Strengthened controls over
                                                             Issue: Anesthesiology residency
   time and attendance.
                                                                program.
                                                             Conclusion: Residents received dual
The OIG conducted an unannounced follow-up at
                                                                compensation and worked
15 VA medical facilities to reassess time and
                                                                excessive hours.
attendance practices of part-time physicians. The
                                                             Impact: Strengthened controls over
purpose of the follow-up was to determine the
                                                                the program.
effectiveness of management controls to ensure
part-time physicians were meeting their
                                                             The OIG evaluated the anesthesiology residency
employment obligations, and to determine the
                                                             program to assess the merit of an anonymous
implementation of selected corrective actions to
                                                             complaint regarding residents’ moonlighting
address continued time and attendance problems.
                                                             activities. The complainant alleged that: (i) since
We found 8 percent of the part-time physicians
                                                             residents are not allowed to engage in
scheduled for duty were not on duty, approved
                                                             moonlighting for pay in their medical specialty, the
leave, or authorized absence and potentially not
                                                             health care system staff circumvented this
meeting their VAemployment obligations. Time
                                                             prohibition by hiring University of California, Los
and attendance controls were generally
                                                             Angeles (UCLA), anesthesiology residents as
implemented, as required. Conflict of interest
                                                             “airway experts,” instead of “anesthesiologists;”
controls were not established, as required.
                                                             (ii) the health care system pays moonlighting
                                                             UCLA anesthesiology residents an additional $50
To address these conditions, we recommended
                                                             an hour to provide coverage on weekends and
the Under Secretary for Health: (i) ensure part-
                                                             nights, even though the residents are already
time physicians receive advance approval before
                                                             compensated for their duty hours; and (iii) several
taking non-emergency leave and have tour of duty
                                                             moonlighting UCLA anesthesiology residents
changes approved in writing; (ii) ensure part-time
                                                             work 36-hour shifts, even though this practice is
physicians fulfill their employment obligations to
                                                             prohibited.
VA; (iii) ensure part-time physicians execute a
written agreement acknowledging VA’s
                                                             We did not substantiate the allegation that health
expectations and employees’ responsibilities
                                                             care system staff circumvented policies prohibiting
specific to each physician and describe the



                                                     34
 

                                                                                                Office of Audit

anesthesiology residents from moonlighting in their            report and submit a certification to Congress as to
medical specialty, because the residents were                  its accuracy. We reviewed the 26 tables included
already trained, licensed, credentialed, and                   in the VA Fiscal Year (FY) 2002 special
privileged to perform the procedures required by               disabilities capacity report. Results of our review
their moonlighting activities. However, we                     showed 13 of 26 tables contain data that are
substantiated allegations that UCLA                            unreliable and frequently contradictory. All 13
anesthesiology residents received additional pay               tables address staffing and related information for
for their duty hours and they worked excessive                 specialized mental health programs. All except
hours. To improve operations the Acting Director               one table rely on inconsistent cost distribution
needed to ensure that: (i) the Department of                   report data. We also found one table listing non-
Anesthesiology monitors moonlighting                           pharmacy mental health expenditures that
anesthesiology residents to ensure they do not                 contained erroneous data, which was corrected
receive additional compensation for duty hours                 and reissued by the VHA during the review. We
already covered under the residency training                   found the remaining 12 tables were adequately
program disbursement agreement;                                supported by data in VHA record systems.
(ii) anesthesiology residents’ timesheets are
current, accurate, complete, and approved by                   We recommended the Under Secretary for
residents’ supervisors, in accordance with VHA                 Health ensure reporting and data validation
policy; and (iii) anesthesiology residents’ duty and           mechanisms for specialized mental health
moonlighting hours are coordinated with the                    programs are strengthened in order to more
affiliated university, documented, monitored, and              accurately present the staffing and related data
evaluated on a daily basis to ensure compliance.               required for the special disabilities capacity
The Acting Director agreed with the                            report. The Under Secretary for Health agreed
recommendations and provided acceptable                        with the review findings and recommendation and
improvement plans. (Evaluation of Allegations                  provided responsive implementation plans.
Regarding the Anesthesiology Residency                         (Review of Department of Veterans Affairs
Program at the VA Greater Los Angeles                           FY 2002 Special Disabilities Capacity Report,
Healthcare System, 03-00810-89,                                03-01356-10, 10/24/03)
2/25/04)

Data Validity

Issue: Compliance with Public
   Law 107-135.
Conclusion: Data used for reporting
   lacks adequate support.
Impact: Accurate data

The review was conducted to comply with the VA
Health Care Programs Enhancement Act of 2001
(Public Law 107-135) that requires the OIG
audit each annual special disabilities capacity




                                                       35
 

Office of Audit

Veterans Benefits                                              accuracy of the VARO’s EP data. The VBA
                                                               Area Director agreed with the evaluation findings
Administration                                                 and provided responsive implementation plans.
                                                               (Evaluation of Alleged Compensation and
Data Integrity                                                 Pension Data Integrity Problems at VARO Salt
                                                               Lake City, UT, 03-01950-31, 11/25/03)
Issue: Compensation and pension
   data integrity problems.                                    Office of Management
Conclusion: Allegations were not
   substantiated.
                                                               VA’s Consolidated Financial
Impact: Accurate data.
                                                               Statements (CFS)
The OIG conducted an evaluation of alleged
compensation and pension data integrity problems               Issue: VA’s CFS for FYs 2003 and 2002.
at the Salt Lake City VARO. The purpose of the                 Conclusion: Audit resulted in an
evaluation was to determine whether the VARO’s                    unqualified opinion, but significant
Veterans Service Center staff had manipulated                     control weaknesses and
end products (EP), and, if so, identify the nature                noncompliance items still remain.
of the manipulation; how it was identified; and                Impact: Improved stewardship of VA
what, if any, remedial or disciplinary actions were               assets and resources.
taken in response to the manipulation. Also, the
evaluation was to determine whether VBA had                    The OIG contracted with the independent public
adequate staff and technical expertise to properly             accounting firm Deloitte & Touche LLP to
identify and address data integrity problems.                  perform the audit. The OIG defined the
                                                               requirements of the audit, approved the audit
We concluded that the allegations of data                      plans, monitored the audit, and reviewed the draft
manipulation and data integrity problems at the                reports. The independent auditors’ report
VARO were not substantiated. Although reviews                  provided an unqualified opinion on VA’s FY 2003
conducted by the VBA’s Western Area Office                     and 2002 CFS. We agree with the auditors’
and the OIG identified improper EPs, the                       opinion and with the conclusions in the related
improper EPs resulted from management and staff                report on VA’s internal control over financial
errors rather than from a concerted, systematic                reporting and compliance with laws and
effort on the part of the staff to manipulate EP               regulation.
productivity and timeliness data. We also noted
VBA had sufficient staffing and technical expertise            The auditor’s report on internal control identifies
at the program and area office level to identify               4 reportable conditions, of which 2 are material
potential data integrity problems, and appropriate             weaknesses. The two material weaknesses are:
actions were taken when the improper use of an                 (i) information technology security controls and
administrative EP was identified at the VARO. To               (ii) integrated financial management system. The
improve operations, the VARO needed to share                   two reportable conditions are: (i) operational
our evaluation results with the staff to assist them           oversight and (ii) medical malpractice claims data.
in addressing EP errors and improving the                      Three of the four findings were reported last year.




                                                       36
 

                                                                                                Office of Audit

The medical malpractice claims data is the new                the report on compliance with laws and
reportable condition for FY 2003. During FY                   regulations. The Enterprise Centers’ management
2003, VA management has taken corrective                      contracted with the independent public accounting
action to eliminate the following two reportable              firm Brown & Company CPAs, PPLC to
conditions reported in the FY 2002 audit report:              perform the audit of VA’s Franchise FY 2003
(i) loan guaranty business process, and                       CFS. The independent auditor’s report provided
(ii) application program and operating system                 an unqualified opinion on VA’s Franchise Fund
change controls.                                              FY 2003 CFS. The Franchise Fund management
                                                              defined the requirements of the audit; and the
The report on compliance with laws and                        OIG reviewed the audit plans, monitored the
regulations continues to conclude that VA is not in           audit, and reviewed the draft reports.
substantial compliance with the financial
management system requirements of the Federal                 The auditor’s report on internal control over
Financial Management Improvement Act of 1996.                 financial reporting identifies one material
The internal control issues concerning an                     weakness concerning information technology
integrated financial system and information                   security controls. This finding and related
technology security controls indicate                         recommendation were included in the
noncompliance with the requirements of Office of              Department’s FYs 2003 and 2002 CFS audit
Management and Budget (OMB) Circular                          reports.
A-127, “Financial Management Systems,” which
incorporates by reference OMB Circulars A-123,                The report on compliance with laws and
“Management Accountability and Control,” and                  regulations discloses that VA, as a whole, is not in
A-130, “Management of Federal Information                     substantial compliance with the financial
Resources.”                                                   management systems requirements of the Federal
                                                              Financial Management Improvement Act of 1996.
The Assistant Secretary for Management agreed                 The Franchise Fund uses VA’s financial
with the reported findings and recommendations.               management systems to prepare its financial
We will follow-up on these findings and evaluate              statements. The auditors’ tests of compliance
implementation of corrective actions during our               disclosed no instances of noncompliance with
audit of VA’s FY 2004 CFS. (Report of the                     other laws and regulations specified in OMB
Audit of the Department of Veterans Affairs                   Bulletin No. 01-02. We will follow-up on the
CFS for FYs 2003 and 2002, 03-01237-21,                       findings during the audits of the Franchise Fund’s
11/14/03)                                                     FY 2004 CFS and VA’s FY 2004 CFS. (Audit
                                                              of the Department of Veterans Affairs’
Issue: Financial management.                                  Franchise Fund CFS for FYs 2003 and 2002,
Conclusion: VA’s Enterprise Centers’                          03-02159-52, 12/19/03)
   financial statements present their
   position fairly.
Impact: Financial reporting and
   control.

Our report contains the audit opinion, the report
on internal control over financial reporting, and



                                                      37
 

Office of Audit

Issue: Allegations of improper Medical                           Issue: Attestation of VA’s accounting
   Care Collection Fund (MCCF)                                      for expenditures on National Drug
   billings.                                                        Control Program activities.
Conclusion: Improper billings                                    Conclusion: The attestation identified
   occurred.                                                        a significant required increase in
Impact: VHA’s planned actions should                                VA’s reported expenditures
   ensure propriety of future billings.                             associated with Program activities.
                                                                 Impact: Financial reporting and
We reviewed billing practices to determine the                      control.
validity of allegations of improper and fraudulent
MCCF billings to American Association of                         We reviewed the VA Detailed Accounting
Retired Persons (AARP). Our review                               Submission relating to obligations on National
substantiated the allegations of improper, but not               Drug Control Program activities. Our review was
fraudulent, billing. Misinterpretations of VHA                   conducted consistent with standards for
coding/billing guidelines by facility staff, mistakes,           attestation engagements established by the
and poor communication among facility MCCF,                      American Institute of Certified Public
Health Information Management, and Office of                     Accountants. We concluded that:
Compliance and Business Integrity staff
contributed to the improper billings.                            z   Estimated obligations of $845.7 million that
                                                                 should be reported for FY 2003 are reliable
We recommended the VISN Director monitor                         based on our review and adjustment of reported
implementation of corrective actions to ensure                   patient counts, and review of the reporting
accuracy and propriety of bills submitted to                     methodology used by VHA to assure ourselves
AARP and refund of overpayments. We also                         that the reporting methodology approved by the
recommended the Under Secretary for Health                       Office of National Drug Control Policy is
monitor follow-up actions, provide appropriate                   appropriately used. Patient counts are important
guidance to ensure that solutions to current billing             because they form the basis for calculating
issues are implement nationwide, and ensure an                   expenditures. Additionally, as reflected in prior
effective process to resolve promptly future billing             attestation reports, our concerns relating to the
issues with AARP. The Under Secretary for                        unreliability of cost accounting data produced by
Health and the VISN 1 Director agreed with the                   VAfinancial systems have not been satisfied.
recommendations and provided responsive                          VA’s independent auditors have recommended
implementation plans. (Evaluation of Medical                     VA cease using the cost system used to produce
Insurance Billing Practices at VAMC Bedford                      the obligations data.
and Northampton, MA, 03-00396-36, 12/1/03)
                                                                 z   All activities conducted by VA having a drug-
                                                                 related nexus are not reflected in the drug
                                                                 methodology. However, the costs associated
                                                                 with unreported drug-related activities may not be
                                                                 material relative to the aggregate costs reported.




                                                         38
 

                                                                                                Office of Audit

Except for the preceding qualification, nothing                Postaward Contract Reviews
came to our attention that caused us to believe the
Detailed Accounting Submission is not presented                Issue: Contractor overcharges for
in conformity with the Office of National Drug                    pharmaceuticals and medical
Control Policy reporting methodology.                             supplies.
(Attestation of the Department of Veterans                     Conclusion: Overcharges were
Affairs Detailed Accounting Submission,                           disclosed.
04-00897-113, 3/17/04)                                         Impact: Recovery of more than
                                                                  $15.2 million.
Preaward Contract Reviews
                                                               We completed seven reviews of vendors’
Issue: Federal Supply Schedule (FSS)                           contractual compliance with the specific pricing
   vendors’ best prices.                                       provisions of their FSS contracts. We also
Conclusion: Vendors can offer better                           completed three drug pricing Public Law
   prices to VA.                                               102-585 compliance reviews at pharmaceutical
Impact: Potential better use of                                vendors. The reviews resulted in recoveries
   $516.5 million.                                             amounting to $15.2 million.

Preaward reviews of 28 FSS and direct delivery                 OIG efforts to maintain an aggressive postaward
offers made recommendations for potential better               contract review program resulted in numerous
use of $516.5 million. Recommendations to                      voluntary disclosures and refund offers from
negotiate lower contract prices were made                      companies relating to overcharges on their
because the vendors were not offering the most                 contracts with VA. Postaward contract reviews
favored customer prices to FSS customers when                  are a major source of recoveries to VA’s
those same prices were extended to commercial                  Revolving Supply Fund. These recoveries are a
customers purchasing under similar terms and                   result of VA’s work as a team, with the Office of
conditions as the FSS.                                         Acquisition and Materiel Management, Office of
                                                               General Counsel, and VHA, to ensure VA’s
Issue: Health care resource contracts.                         contracts are fairly priced.
Conclusion: VA can negotiate reduced
   contract costs.
Impact: Potential better use of
   $6.5 million.

We completed reviews of 17 proposals from VA
affiliated medical schools involving the acquisition
of scarce medical specialists’ services. We
concluded the contracting officers should
negotiate reductions of $6.5 million to the
proposed contract costs because of differences
between the proposed costs for the services
solicited and the costs the affiliate could justify.




                                                       39
 

Office of Audit

Office of Information and                                     guidelines. As a result, significant information
 

                                                              security vulnerabilities continue to place the
 

Technology                                                    Department at risk of the following.
 

                                                              z Denial of service attacks on mission critical
 

Security Controls                                             systems.
 

                                                              z Disruption of mission critical systems.
 

Issue: VA’s information security                              z Unauthorized access to and improper
 

   program.                                                   disclosure of data subject to Privacy Act
 

Conclusion: VA’s programs and                                 protection and sensitive financial data.
 

   sensitive data continue to be                              z Fraudulent payments of benefits.
 

   vulnerable to destruction,                                 z Fraudulent receipt of health care benefits.
 

   manipulation, and inappropriate
   disclosure.                                                Based on the audit results, VA information
 

Impact: Improved automated data                               security should continue to be identified as a
 

   processing security.                                       Department material weakness area under the
 

                                                              Federal Managers’Financial Integrity Act. We
 

The audit evaluated VA’s information security                 recommended a number of operational changes
 

controls and security management. Based on the                that will help improve VA’s information security
 

results of the FY 2003 information security audit,            posture, ensure effective control over sensitive
 

we concluded VAhas made insufficient progress                 information, ensure continuity of operations, and
 

in improving its information security posture. VA             support the Department’s missions of providing
 

is not in compliance with the requirements of the             health care and delivering benefits to the Nation’s
 

Federal Information Security Management Act.                  veterans. The Acting Assistant Secretary for
 

VA’s information security vulnerabilities have not            Information and Technology agreed with the
 

been adequately addressed because the                         findings and recommendations, and provided
 

Department did not complete necessary                         acceptable implementation plans. (Audit of the
 

corrective actions in response to our audit                   Department of Veterans Affairs Information
 

findings. Serious security vulnerabilities have               Security Program, 02-03210-43, 12/9/03)
 

continued to exist over a multi-year period that
place VA systems, data, and delivery of services              Issue: VA’s information security
to the Nation’s veterans at risk. This risk was                  program.
demonstrated this year with the virus/worm                    Conclusion: VA was not prepared for
incursions that disrupted vulnerable Department                  the Blaster Worm attack.
automated systems.                                            Impact: Improved automated data
                                                                 processing security.
The Department has not been able to effectively
address its significant information security                  We evaluated the effectiveness of the installation
vulnerabilities and reverse the impact of its                 of the Microsoft Blaster Worm security patch for
historically decentralized management approach.               computer systems in the VA. The evaluation
VA’s security remediation efforts continue to be              found several deficiencies. Dissemination of the
ineffective with inadequate facility compliance               detailed findings is restricted due to security
with established security policies, procedures, and           reasons. We made several recommendations to




                                                      40
 

                                                                                               Office of Audit

the Acting Assistant Secretary for Information and           The audit also found VA needed to award more
Technology. The Acting Assistant Secretary                   national-scope contracts that will allow VA to
agreed with the findings and recommendations,                best leverage its buying power. Eleven
and provided an acceptable implementation plan.              (22 percent) of the 50 products reviewed were
(Evaluation of the Department of Veterans                    only available on the open market and were not
Affairs Installation of the Microsoft Blaster                covered by contracts or BPAs. In addition, 34
Patch, 03-02970-55, 1/9/04)                                  products (68 percent) were covered by FSS
                                                             contracts, but were not covered by VA national
Multiple Office                                              contracts or BPAs.

Action                                                       Based on our review at the 15 VAMCs, we
                                                             estimated a VHA-wide purchasing savings rate of
Issue: VAMC procurement of medical,                          9 percent and a contracting savings rate of 6
   prosthetic, and miscellaneous                             percent. Extrapolated to total VHA supply
   operating supplies.                                       purchases, these rates equate to cost reductions
Conclusion: VA could reduce costs by                         of about $213.5 million a year. Over the next
   $1.4 billion over 5 years by using                        5 years (FYs 2004–2008), taking into account
   contract sources more effectively                         inflation and increased supply usage, the savings
   and awarding more national-scope                          would be about $1.4 billion.
   contracts.
Impact: Better use of funds.                                 To improve procurement practices, we
                                                             recommended the Under Secretary for Health:
The OIG performed an audit to determine if                   (i) direct VAMCs to fully implement the
VAMCs effectively purchased medical,                         purchasing hierarchy, (ii) implement performance
prosthetic, and miscellaneous operating supplies             monitors to ensure VAMCs appropriately use
using the best available sources, such as VA                 each hierarchy source, and (iii) require National
national contracts. VHA facilities are required to           Acquisition Center approval of local supply
follow a purchasing hierarchy under which VA                 contracts. We also recommended the Under
national contracts, blanket purchase agreements              Secretary for Health and the Assistant Secretary
(BPAs), and FSS contracts are the most                       for Management work together to: (i) ensure
preferred sources and the open market is the least           purchasing staff are trained on the requirements of
preferred source. We evaluated purchases of 50               the purchasing hierarchy; and (ii) increase efforts
representative supply products at 15 VAMCs.                  to award new national contracts and BPAs for
                                                             supply products. The Under Secretary for Health
Large proportions of supply purchases were not               and the Assistant Secretary for Management
made from the best sources. Of the $23.4 million             agreed with the recommendations and provided
the VAMCs spent on products available from                   generally acceptable implementation plans.
contracts and BPAs, only $14.2 million (60.7                 (Audit of VAMC Procurement of Medical,
percent) of these purchases were made from the               Prosthetic, and Miscellaneous Operating
best contract/BPA sources. The remaining                     Supplies, 02-01481-118, 3/31/04)
$9.2 million (39.3 percent) was spent on
purchases from the open market or from higher
priced contracts.



                                                     41
 

Office of Audit




                  42
 

OFFICE OF HEALTHCARE INSPECTIONS 

Mission Statement                                               z   Completed two summary evaluations and
                                                                made seven recommendations to improve patient
                                                                care and efficiencies in the Homemaker and
    Promote the principles of continuous
                                                                Home Health Aide Program and improve security
    quality improvement and provide
                                                                over VA potable and waste water systems.
    effective inspections, oversight, and
    consultation to enhance and strengthen
                                                                z    Completed 16 Hotline cases, which consisted
    the quality of VA’s health care programs.
                                                                of reviews of 78 issues. Administratively closed 2
                                                                cases and issued reports on the remaining 14
Resources                                                       cases. Made 52 recommendations that will
                                                                improve the health care and services provided to
The Office of Healthcare Inspections (OHI) has                  patients.
46 FTE allocated to staff headquarters and field
operations. The following chart shows the                       z   Provided clinical consultative support to
allocation of resources utilized to conduct                     investigators on eight criminal cases.
evaluations, inspections, CAP reviews, oversight,
technical reviews, and clinical consultations in                z Oversaw the work of VHA’s Office of the
support of criminal cases.                                      Medical Inspector on five projects.

                                                                z   We completed 16 technical reviews on
                    Oversights                                  recommended legislation, new and revised
                      10%                                       policies, new program initiatives, and external
                                        CAPs                    draft reports.
       Hotline
                                        40%
     Inspections
        30%                                                     z   We reviewed the responses to 93 Hotline
                                                                cases consisting of 133 issues that were referred
                                                                to VHA managers for review.
             Evaluations         Consults
                10%                10%
                                                                Outcome
                                                                z   Overall OHI made or monitored the
Overall Performance                                             implementation of 118 recommendations and 59
                                                                suggestions to improve the quality of care and
Output
 
                                                       services provided to patients and their families.
z   Participated in 18 CAP reviews to evaluate
 
               VHA managers agreed with all of our
health care issues and made 59 recommendations
 
               recommendations and provided acceptable
and 59 suggestions that will improve operations
 
              implementation plans. VHA implementation
and activities, and the care and services provided
 
           actions will improve clinical care delivery,
to patients.
 
                                                 management efficiency and patient safety, and will
                                                                hold employees accountable for their actions.




                                                        43
 

Office of Healthcare Inspections

Veterans Health                                                rates for the acquisition of program services. If
                                                               VHA had established benchmark rates as
Administration                                                 recommended in a 1997 OIG report, the
                                                               program could have, on average, redirected
Summary Evaluations                                            about $10.7 million annually to treat additional
                                                               patients.
Issue: VHA Homemaker and Home
   Health Aide Program.                                        We made two recommendations. The Under
Conclusion: Prior OIG                                          Secretary for Health concurred and provided
   recommendations were not                                    responsive implementation plans. (Healthcare
   implemented.                                                Inspection, Evaluation of VHA Homemaker
Impact: Improved patient care and                              and Home Health Aide Program,
   reduced costs.                                              02-00124-48, 12/18/03)

As part of the OIG’s CAP reviews, we inspected                 Issue: VA potable and waste water
the program at 17 VA medical facilities. Fourteen                 systems security.
percent of the patients receiving program services             Conclusion: VHA needs to standardize
in our sample did not meet clinical eligibility                   security requirements and
requirements. Initial assessments by clinicians                   coordinate with the EPA.
were often no more than referrals to the program.              Impact: Improved water infrastructure
The assessments rarely included documentation of                  security.
actual evaluations by all required interdisciplinary
team members, and did not thoroughly document                  We conducted a survey for the EPA to review
patients’ disabilities, dependencies, and needs for            security over VA potable and waste water
services. Some facilities had many patients on                 systems, and the degree of VA coordination with
waiting lists and did not always consider clinical             EPA concerning those systems. The purpose of
eligibility or patients’ needs. Programs with                  the review was to determine whether VA is
scarce resources and wait-listed patients cannot               actively and consistently identifying and
afford to serve ineligible patients or patients not            addressing risks to VA-owned or leased utilities
requiring these services.                                      or systems through vulnerability assessments,
                                                               design enhancements, emergency response plans,
To enhance controls, VHA managers need to                      and security improvements.
issue policy for the provision and acquisition of
program services to improve the quality of care                The VHA facilities we surveyed described varying
and to maximize the use of resources. This policy              degrees of effort in conducting water system
should address assessment and monitoring of                    assessments and security reviews. No facility
needs, including consideration of the patient’s                reported that it coordinated these efforts with the
clinical eligibility and special monthly                       EPA or the Department of Homeland Security.
compensation or pension status. VHA managers                   The Under Secretary for Health needs to
also need to establish a method of benchmarking                standardize security requirements for protecting
                                                               water infrastructures, and coordinate efforts with




                                                       44
 

                                                                             Office of Healthcare Inspections

EPA to assess and implement security of potable                  VAMC executive and clinical managers, the
and waste water systems on VHA properties to                     patient advocate, outpatient clinicians, and other
reduce potential vulnerabilities to terrorist threats.           employees who were knowledgeable about the
These actions would assist the Department of                     complainant’s treatment. We reviewed the
Homeland Security in unifying Federal efforts for                complainant’s medical record, VAMC policies
addressing national water infrastructure concerns,               and procedures, and other documents pertaining
including development of critical infrastructure                 to the allegations.
personnel surety programs.
                                                                 We determined the primary care physician
We made three recommendations. The Under                         properly examined and treated the complainant’s
Secretary for Health concurred and provided                      foot condition, prescribed an appropriate
responsive implementation plans. In their                        antibiotic, and ordered appropriate follow-up
response, they stated that currently available EPA               podiatry care. However, we concluded the
guidance is not adequate for addressing VHA                      complainant did not receive timely and
needs, and that VHA would contact EPA for their                  appropriate care because the local procedures to
assistance in developing guidance on water and                   care for walk-ins resulted in the complainant
wastewater security. (Healthcare Inspection,                     having to present to three different clinical areas
Survey of Efforts to Safeguard VA Potable                        and resulted in an ER wait of 5 hours. Despite
and Waste Water Systems, 03-01743-114,                           the complainant’s frustration over his long wait for
3/18/04)                                                         care, the complainant made a poor decision when
                                                                 he left the ER prior to having his infected foot
Healthcare Inspections                                           examined.

                                                                 We concluded the walk-in policies, combined
Issue: Allegations of substandard care.
                                                                 with the complainant’s decision to leave the ER,
Conclusion: Care procedures for walk-
                                                                 resulted in a less than optimal medical outcome
   in patients need improvement.
                                                                 for this veteran. The failure of the complainant to
Impact: Less than optimal medical
                                                                 obtain his antibiotic from the pharmacy and to
   outcome for this veteran.
                                                                 begin timely antibiotic therapy, in conjunction with
                                                                 the lack of care associated with medical center
We conducted this inspection in response to
                                                                 impediments, resulted in missed opportunities to
allegations of substandard care at VAMC
                                                                 control the complainant’s foot infection prior to
Philadelphia. The complainant alleged that in July
                                                                 the necessity for amputation. Our inspection
2002: (i) his primary care physician inadequately
                                                                 indicated the primary care physician was hired as
examined his diabetic foot wound and did not
                                                                 a part-time staff physician who was scheduled to
prescribe oral or topical antibiotics; and (ii)
                                                                 work one afternoon clinic a week and one
podiatry clinic clinicians did not evaluate his
                                                                 morning clinic a month. It does not appear VA is
medical condition when he presented for
                                                                 making proper use of this clinician’s time.
treatment as a walk-in patient, which resulted in
physicians later having to amputate part of his left
foot. We interviewed the complainant, the




                                                         45
 

Office of Healthcare Inspections

We made four recommendations. The VISN 4                      We made three recommendations to
Director concurred and provided responsive                    management. The VISN and Healthcare System
implementation plans. (Healthcare Inspection,                 Directors concurred with the recommendations
Patient Care Issues, VAMC Philadelphia, PA,                   and provided responsive implementation plans.
03-03260-01, 10/6/03)                                         (Healthcare Inspection, Quality of Care Issues,
                                                              VA Long Beach Healthcare System, Long
Issue: Allegation that patient received                       Beach, CA, 03-01915-02, 10/7/03)
   incorrect medication resulting in an
   adverse drug event.                                        Issue: Allegations that patient died
Conclusion: Managers needed to                                   because of inadequate medical
   contact patient and discuss his care                          care.
   and outcome.                                               Conclusion: Patient did not receive
Impact: Improved communication                                   optimal care.
   between clinicians and patients.                           Impact: Incident appeared to be
                                                                 isolated and corrective actions
We reviewed a complainant’s allegation that he                   should reduce the possibility of
received the wrong blood transfusion because he                  reoccurrence.
was wearing another patient’s wristband. The
complainant also alleged another patient received             We initiated an inspection in response to
the wrong medication which resulted in an                     allegations that a patient died because of
adverse drug event. We could not substantiate or              inadequate medical care provided to him when he
refute the allegation that the complainant wore an            presented to the VAMC Dayton ER. The
identification wristband that displayed the name of           complainants also alleged the patient received
another patient on it. Also, we did not                       substandard care at the Richmond, IN
substantiate that the complainant received the                Community-Based Outpatient Clinic.
wrong blood transfusion.
                                                              The patient went to the outpatient clinic to have a
We substantiated the allegation that another                  catheter removed; however, clinicians were
patient received incorrect medication which                   unsuccessful inserting the replacement catheter.
resulted in an adverse drug event. After receiving            They transferred the patient to the VAMC ER
the medication, the patient developed shortness of            where the catheter was inserted. However, a
breath, tachycardia, and welts on his back. VA                routine blood test showed his potassium level was
clinicians immediately responded and resolved the             dangerously low and the physician gave the
patient’s reactions to the wrong medication.                  patient a single dose of oral potassium, but did
While we did not substantiate that the patient                not recheck the level before discharge. The
received inappropriate care after the event, we               patient left the ER and went to the outpatient
determined facility managers needed to contact                pharmacy to fill his prescriptions. While waiting in
the patient and discuss his care and outcome.                 line to obtain his medications, he collapsed and
Both cases illustrated the importance of clear,               died a short time later.
timely communication with patients when they
present their concerns to facility managers.                  We substantiated the allegation that the VAMC
                                                              physician did not meet the standard of care and




                                                      46
 

                                                                             Office of Healthcare Inspections

the patient did not receive adequate medical care.               allegation that he received inadequate pain
We found there were no written guidelines or                     management during his hospitalization, but we
policies requiring nurses to obtain physician                    found documented lapses in the treatment of his
consultations, but the generally accepted practice               pain. There was evidence in the medical record
at the clinic was for nurses to consult physicians               documenting that physicians communicated with
about their patient encounters. The incident                     the complainant about his plan of care. We could
appeared to be isolated and the VAMC Director                    not substantiate the complainant’s allegation that
initiated internal corrective actions that should                his inpatient physician was rude to him, but the
reduce the possibility of reoccurrence. Therefore,               physician was firm in advising the patient
we did not make additional recommendations                       regarding his course of care. Although the
concerning the incident.                                         complainant’s privacy during an eye clinic
                                                                 evaluation should have been considered, we did
We recommended the VISN Director require the                     not find evidence that his privacy was violated.
VAMC Director to: (i) develop and implement a
policy that requires clinic nursing employees to                 We were assured by the Acting VAMC Director
contemporaneously inform attending physicians                    and quality manager that they would discuss the
about all clinical patient encounters; and (ii) inform           importance of timeliness and pain management
the deceased patient’s family members of the                     with the involved inpatient clinicians and would
circumstances surrounding his death and make                     take all appropriate measures to meet the
them aware of their rights to seek redress. The                  complainant’s needs. The patient was assigned a
VISN and VAMC Directors concurred with the                       new primary care provider and is currently
recommendations and provided responsive                          receiving treatments from a dermatologist and an
implementation plans. (Healthcare Inspection,                    ophthalmologist. Therefore, we made no
Patient Care Incident, VAMC Dayton, OH,                          recommendations. (Healthcare Inspection,
03-01644-15, 10/29/03)                                           Patient Care, Communication, and Privacy
                                                                 Issues, Overton Brooks VAMC, Shreveport,LA,
Issue: Allegations of questionable                               03-02160-016, 11/4/03)
   medical treatment.
Conclusion: Treatment interventions
   needed improvement.
Impact: Improved timeliness and pain
   management.

We conducted the inspection in response to
allegations of questionable medical treatment,
poor communications, and Health Insurance
Portability and Accountability Act privacy
violations. Overall, we found the patient received
adequate medical care; although, we identified
lapses in the timeliness of some interventions. We                       Overton Brooks VA Medical Center
could not confirm or refute the complainant’s                                     Shreveport, LA




                                                         47
 

Office of Healthcare Inspections

Issue: Patient care allegations.                             have extensive policy on hand-washing
Conclusion: Lapses in medical                                procedures and during our visit, we observed
   record documentation.                                     employees using gloves when caring for patients.
Impact: Importance of documentation                          Similarly, we could not refute or confirm the
   discussed with all applicable                             allegation that employees did not clean beds after
   personnel.                                                patients were discharged. We found the facility
                                                             had a comprehensive bed-cleaning policy, used
We conducted an inspection in response to                    cleaning logs and tags to track compliance, and
allegations that a patient developed pressure                were following policy.
ulcers because nurses failed to turn and bathe
the patient, and the patient was discharged too              We discussed the issues in detail with facility
early. We also reviewed allegations that                     management and they assured us they would
employees did not wash their hands or use                    discuss the importance of documentation and the
gloves when treating patients and did not clean              above issues and procedures with all applicable
beds between patients at the VA facility.                    personnel. Therefore, we made no
                                                             recommendations. (Healthcare Inspection,
                                                             Patient Care and Infection Control Issues, VA
                                                             New Jersey Health Care System, East Orange,
                                                             NJ, 03-02799-30, 11/24/03)

                                                             Issue: Medical care foster home
                                                                program.
                                                             Conclusion: Policy guidance and
                                                                program oversight needed
                                                                improvement.
                                                             Impact: Improved monitoring practices
                                                                and controls.
       VA New Jersey Health Care System
               East Orange, NJ
                                                             We reviewed the Central Arkansas Veterans
We did not substantiate the complainant’s                    Healthcare System’s medical care foster home
allegation that the patient developed pressure               program at the request of the VHA Geriatrics and
ulcers because nurses failed to follow turning or            Extended Care program officials. The program
bathing procedures. We also did not substantiate             was designed to serve patients with severe
that the patient was discharged too early,                   chronic illnesses who do not have the necessary
however, there were lapses in medical record                 resources (housing or family support) to remain at
documentation which were addressed with                      home, but who are resistant to nursing home
applicable employees. We could not refute or                 placement. We found that as a new clinical
confirm the allegation that physicians and nurses            initiative, the program needed specific policy
did not wash their hands or wear gloves when                 guidance. Since the medical care foster home
caring for patients, as we had no direct evidence            program most closely resembled VHA’s
of this alleged practice during the time the patient         Community Residential Care Program, we used
was receiving care. However, the facility did                the prescribed monitor and control procedures
                                                             from the residential care program as a basis of
                                                             comparison.


                                                       48

                                                                          Office of Healthcare Inspections

We found the medical care foster home program                 these two groups periodically communicate for
could benefit from the establishment and                      the purpose of ensuring veterans residing in the
implementation of VHA policies that will                      homes are adequately cared for and are safe.
prescribe specific patient assessment, placement,
and follow-up practices; home inspection                      We made six recommendations to improve
requirements; and communication guidelines. We                monitoring practices and controls. The VISN
believe patient safety and care could be                      Director’s concurred with the recommendations
enhanced if procedures are established and                    and provided responsive implementation plans.
implemented to require VAclinicians to complete               (Healthcare Inspection, Medical Care Foster
interdisciplinary assessments prior to placing                Home Program, Central Arkansas Veterans
veterans in caregivers’homes. VAclinicians                    Healthcare System, Little Rock, Arkansas,
needed to provide foster home caregivers with                 03-00391-39, 12/3/03)
patients’ information and care instructions at the
time of the placements, and assess the adequacy               Issue: Allegations of inadequate
of patients’ adjustments to their home. Because                  medical care.
owners typically only bring one or two veterans               Conclusion: Clinical evaluation and
into their homes, they are not regulated by the                  diagnostic considerations were not
State. This makes it very important that VA                      adequately documented in the
clinicians ensure the designated homes are clean                 medical record.
and safe.                                                     Impact: Inadequate documentation
                                                                 impeded understanding of
In addition, we found some veterans in the                       clinicians’ efforts.
program were rated as incompetent for VA
purposes, and were also under the supervision of              We conducted an inspection to determine the
VBA’s field examiners. VAguidelines require                   validity of allegations that a patient received
VHA clinicians and VBA field examiner                         inadequate medical care. The complainant
supervisors to meet annually to discuss patients of           alleged a physician gave the patient an intravenous
mutual concern. Actions are needed to ensure                  medication, causing an adverse reaction that led
                                                              to his death. The complainant also alleged
                                                              clinicians delayed treating the patient’s symptoms
                                                              and clinicians performed an unauthorized autopsy.

                                                              We did not substantiate any of the complainant’s
                                                              allegations. However, we found the details of the
                                                              clinical evaluation, diagnostic considerations, and
                                                              clinical reasoning that underpinned the patient’s
                                                              care were not adequately documented in the
                                                              medical record. Inadequate documentation
                                                              impeded tracking and understanding of clinicians’
                                                              efforts from the medical record alone. We found
                                                              the autopsy was authorized by the next-of-kin.
  Central Arkansas Veterans Healthcare System
                 Little Rock, AR




                                                      49
 

Office of Healthcare Inspections

We made one recommendation. The VISN                           evidence to suggest reports of adverse patient
Director concurred with the recommendation and                 incidents were destroyed as part of a cover-up,
provided a responsive implementation plan.                     but we substantiated the allegation that patient
(Healthcare Inspection, Alleged Medical                        incident reports were not always forwarded to the
Treatment Issues, Houston VAMC, Houston,                       patient safety officer.
TX, 03-01526-64, 1/12/04)
                                                               We made thirteen recommendations. The VISN
Issue: Allegations of substandard                              and System Directors concurred with the
   anesthesia care and not reporting                           recommendations and provided responsive
   adverse incidents.                                          implementation plans. (Healthcare Inspection,
Conclusion: Substantiated nine                                 Anesthesia Management and Patient Care
   significant patient safety issues.                          Issues, New Mexico VA Healthcare System,
Impact: Improved patient safety.                               Albuquerque, NM, 03-01914-68, 1/14/04)

We conducted an inspection to determine the                    Issue: Allegation that physicians
validity of allegations of substandard anesthesia                 deviated from the standard of care.
care. The complainant alleged no one reviewed                  Conclusion: Provided appropriate
the appropriateness of using sedation and                         care; however, attending physician
analgesia medications and reversal agents in areas                had inadequate personal interaction
other than the operating room or assessed the                     with the patient and family, and
competence of non-anesthesia providers, and                       managers did not timely
there were no guidelines for nurses who gave                      communicate compensation
sedation medications. In addition, the                            options to the family.
complainant alleged anesthesia employees                       Impact: Improved communication
practiced without advanced cardiac life support                   between clinicians and patient.
certifications, and intensive care unit clinicians
inappropriately used medications for anesthesia                We conducted this inspection in response to an
use. The complainant further alleged managers                  allegation that physicians at the VAMC deviated
had not reported adverse incidents to the safety               from the standard of care during the treatment of
officer, attempting to cover up medical and
nursing errors resulting from time pressures in the
operating room.

We substantiated nine significant patient safety
issues, including allegations that clinical managers
had not monitored the practices of non-anesthesia
providers who administered sedation and
anesthetic medications or reversal agents,
clinicians were using a medication (etomidate) that
was restricted by facility policy for use by
anesthesiology and ER physicians only, and some
anesthesiology section clinicians did not have the                        Iowa City VA Medical Center
required certifications. We did not find any                                      Iowa City, IA




                                                       50
 

                                                                            Office of Healthcare Inspections

a patient. The purpose of the inspection was to                 (iii) cardiology on-call response was
determine the validity of the allegation. The issues            inappropriately delayed in one surgical case; (iv)
reviewed were: (i) deviation from the standard of               anesthesiologists occasionally left potassium vials
care during the treatment of the patient; (ii) an               unsecured in the operating room following cardio-
inappropriate trainee surgeon in the operating                  thoracic (open-heart) surgery; and (v) clinicians
room; (iii) inadequate attending physician                      did not obtain proper surgical consent in one
involvement with the patient and family; and (iv)               case.
failure to properly notify the family regarding their
rights to compensation.                                         We substantiated four of the five patient care
                                                                issues, including allegations that attending
We did not substantiate the allegation that                     surgeons did not consistently document that they
physicians deviated from the standard of care or                assessed patients prior to surgery, surgical
that it was inappropriate for a trainee surgeon to              managers did not consistently require attending
be in the operating room. To improve operations,                surgeons be present during their patients’
the system managers needed to communicate the                   operations, cardiology support was
requirements of VHA Handbook 1400.1, which                      inappropriately delayed in one incident, and
governs resident supervision, to all attending                  potassium vials had not been properly accounted
physicians and require compliance with all aspects              for immediately following open-heart surgery. We
of this directive; and develop procedures to fully              did not substantiate that improper surgical consent
inform patients and their families of their options             was obtained in the case cited by the
for compensation under 38 U.S.C. 1151 and a                     complainant.
tort claim. The VISN 23 Director agreed with
the recommendations and provided responsive
implementation plans. (Healthcare Inspection,
Quality of Care Issues, Iowa City VAMC, Iowa
City, Iowa, 03-01423-70, 1/16/04)

Issue: Allegations of poor patient care.
Conclusion: Substantiated four of five
   patient care issues.
Impact: Improve attending surgeons’
   compliance with resident
   supervision handbook, and monitor
   compliance with security of                                       Greater Los Angeles Healthcare System
   potassium solutions.                                                        Los Angeles, CA


We conducted an inspection to determine the                     To improve operations, managers needed to
validity of allegations of poor patient care. An                ensure attending surgeons’ compliance with the
anonymous complainant alleged that: (i) attending               provisions of the VHA Resident Supervision
surgeons did not assess patients prior to surgery;              Handbook and develop procedures and monitor
(ii) attending surgeons routinely arrived after                 anesthesiologists’ compliance with the security of
anesthesia had been started and after the surgical              potassium solutions. The VISN Director
residents had begun the surgical procedures;



                                                        51
 

Office of Healthcare Inspections

concurred with the recommendations and                         Issue: Negligence and substandard
provided responsive implementation plans.                         care at a community nursing home.
(Healthcare Inspection, Patient Care Issues,                   Conclusion: Actions were needed to
Greater Los Angeles Healthcare System, Los                        ensure the patient received the care
Angeles, CA, 03-02849-81, 2/6/04)                                 needed.
                                                               Impact: Improved discharge planning
Issue: Allegation of non-authorized                               processes and patient safety.
   patient research.
Conclusion: No evidence of                                     We initiated an inspection in response to
   unauthorized patient research, but                          allegations that a patient was neglected and
   commodity standardization policy                            received substandard care at a community nursing
   training is needed.                                         home under contract with the medical center. We
Impact: Improved patient care.                                 concluded nursing home employees did not
                                                               provide the care to this patient that was outlined
We conducted an inspection to determine the                    in the medical center discharge summary. The
validity of allegations concerning abuse of a                  patient’s medical center treatment team and the
patient during an endoscopy procedure. The                     nursing home clinicians had different expectations
complainant alleged the physician took extra                   about the level of care this patient was to receive.
tissue in order to do parallel testing, which is               Medical center clinicians did not ensure that this
considered research, and therefore, required                   patient’s transfer resulted in the continuous
informed consent and institutional review board                delivery of required health care to this patient.
approval.
                                                               We recommended managers: (i) ensure clinicians
We concluded no extra tissue was obtained                      review the care other VA patients have and are
during the procedure. We further concluded the                 receiving in this nursing home; (ii) amend the
physician had obtained proper consent for the                  discharge planning process to require clinicians to
procedure and that parallel testing is not                     verify that all required care is available for patients
considered research, and therefore, not subject to             upon admission to the home; (iii) review the
board approval. We recommended the facility:                   medical center’s overall oversight process; and
(i) conduct in-service training for appropriate                (iv) seek advice from General Counsel regarding
clinicians to ensure compliance with commodity                 the need to advise family members to seek
standardization policy; and (ii) establish a quality           compensation. The VISN and VAMC Directors
improvement monitor to ensure compliance with                  concurred with the recommendations and
policy. The VISN and facility leadership                       provided responsive implementation plans.
concurred with the recommendations and                         (Healthcare Inspection, Contract Nursing
provided responsive implementation plans.                      Home Patient Care Issues, VA Pittsburgh
(Healthcare Inspection, Patient Care Issues at                 Healthcare System, University Drive Division,
the Samuel S. Stratton Department of Veterans                  Pittsburgh, PA 03-02167-101, 3/10/04)
Affairs Medical Center, Albany, NY,
03-01744-102, 3/10/04)




                                                       52
 

                                                                              Office of Healthcare Inspections

Issue: Quality of care, patient                                   substantiate or refute the allegation that the patient
   information security, unsanitary                               was treated rudely during visits. However, we
   conditions, and rude behavior by                               did witness episodes of rude behavior by
   employees toward patients.                                     employees toward patients, failure of employees
Conclusion: Substantiated allegations                             to wear their identification badges, and employees
   of inadequate security of                                      eating in patient treatment areas. We also found
   information, unsanitary conditions,                            that managers failed to enforce egress
   lack of assistance with check in,                              requirements in hallways.
   and failure to make needed repairs,
   and also witnessed rude behavior                               We made seven recommendations. The Director
   by employees.                                                  concurred with the recommendations and
Impact: Improve security, cleanliness,                            provided responsive implementation plans.
   patient care, and employee                                     (Hotline Inspection, Quality of Care, Patient
   professionalism.                                               Information Security, and Environment of
                                                                  Care Issues, Edward Hines, Jr. VA Hospital,
We conducted this inspection in response to                       Hines, IL, 03-02306-107, 3/15/04)
allegations from a relative of an active duty soldier
injured in Iraq. The allegations included:
 (i) extensive waiting time in outpatient radiology,
(ii) rude behavior by employees during the
patient’s visit, (iii) improper supervision of patients
waiting for appointments, (iv) inadequate security
of confidential patient information, (v) unsanitary
conditions in the environment of care (e.g., live
ants were observed in outpatient treatment areas),
(vi) lack of staff to assist patients with the check
in process in outpatient radiology, (vii) failure to
change linens on radiology tables between patient
examinations, and (viii) failure to make needed
repairs (e.g., replacing missing ceiling tiles and                           Edward Hines, Jr., VA Hospital
eliminating hanging cords from the ceiling).                                          Hines, IL


We substantiated the allegations of inadequate
security of confidential patient information,
unsanitary conditions in the environment of care,
lack of employees to assist patients with check in
processes in outpatient radiology, and failure to
make needed repairs. We did not substantiate
the allegations of extensive waiting time in
outpatient radiology and improper supervision of
patients. However, we found inconsistent linen
changing practices, which could result in linens not
being changed between patients. We could not



                                                          53
 

Office of Healthcare Inspections

Issue: Suspicious death.                                        observation checks. Overall, employees made
Conclusion: The patient had                                     good faith efforts to treat this patient’s complex
   inappropriate access to narcotic                             medical and psychiatric problems.
   drugs and documentation
   deficiencies.                                                We made three recommendations. The Director
Impact: Improved patient safety and                             concurred with the recommendations and
   medical record documentation.                                provided responsive implementation plans.
                                                                (Healthcare Inspection, Drug Overdose,
We conducted this inspection in response to                     VAMC Hampton, VA, 03-02149-221, 3/31/04)
allegations that a patient died of a drug overdose
while receiving care on an inpatient unit. Other
allegations included: (i) the medical examiner was
not notified in a timely manner of the death,
(ii) irregularities in the manner in which the body
was handled, (iii) poor and insensitive
communication with the patient’s family members,
(iv) quality of care deficiencies, and (v) failure to
notify patient’s spouse of a previous near-fatal
drug overdose.

We concluded the patient had inappropriate
access to narcotic drugs and managers had not
notified the medical examiner in a timely manner.
We also found the patient’s medical record had
the following documentation deficiencies:
(i) inadequately descriptive progress notes
depicting nursing involvement in his treatment, and
(ii) inadequate documentation of patient safety




                VA Medical Center
                  Hampton, VA




                                                        54
 

OFFICE OF MANAGEMENT &
ADMINISTRATION

Mission Statement                                        III. Information Technology (IT) and Data
                                                         Analysis – Manages nationwide IT support,
   Promote OIG organizational                            systems development and integration;
   effectiveness and efficiency by providing             represents the OIG on numerous intra- and
   reliable and timely management and                    inter-agency IT organizations; and does
   administrative support, and providing                 strategic IT planning for all OIG requirements.
   products and services that promote the                The Division maintains the Master Case Index
   overall mission and goals of the OIG.                 (MCI) system, the OIG’s primary information
   Strive to ensure that all allegations                 system for case management and decision
   communicated to the OIG are effectively               making. The Data Analysis Section, located in
   monitored and resolved in a timely,                   Austin, TX, provides data processing support,
   efficient, and impartial manner.                      such as computer matching and data extraction
                                                         from VA databases.
The Office of Management and Administration
is responsible for a wide range of                       IV. Financial and Administrative Support –
administrative and operational support                   Responsible for OIG financial operations,
functions. The Office includes five divisions.           including budget formulation and execution,
                                                         and all other OIG administrative support
I. Hotline – Determines action to be taken on            services.
allegations received by the OIG Hotline. The
Division receives thousands of contacts                  V. Human Resources Management – Provides
annually from veterans, VA employees, and                the full range of personnel management
Congress. The work includes controlling and              services, including classification, staffing,
referring many cases to the OIG Offices of               employee relations, training, and incentive
Investigations, Audit, and Healthcare                    awards program.
Inspections, or to impartial VA components for
review.                                                  Resources

II. Operational Support – Performs follow-up             The Office of Management and Administration
on implementation of OIG report                          has 57 FTE allocated to the following areas.
recommendations; Freedom of Information
Act/Privacy Act (FOIA/PA) releases; strategic,
operational, and performance planning;
electronic report distribution; and OIG
reporting requirements and policy
development.




                                                 55
 

Office of Management & Administration

                                 Human
     Financial &                Resources                                              Information &
                                                                       VHA
    Administration                12%                                                   Technology
                                                                       53%
        15%                                                                                 4%
                                      Hotline                                                  NCA
   Operational                         15%
                                                                                               1%
    Support
     18%                                                                                   Managem ent
                                    IT &                               VBA
                                Data Analysis                                                 19%
                                                                       23%
                                    40%




I. HOTLINE DIVISION                                       Overall Performance

                                                          During the reporting period, the Hotline received
 

Mission Statement
                                                          13,976 contacts. This resulted in opening 546
 

                                                          cases. The OIG reviewed 170 (31 percent) of
 

   Ensure that allegations of criminal
                                                          these and referred the remaining 376 cases to VA
 

   activity, waste, abuse, and
                                                          program offices for review.
 

   mismanagement are responded to in an
   efficient and effective manner.
                                                          Output
 

                                                          z During the reporting period, Hotline staff
 

The Division operates a toll-free telephone
                                                          closed 513 cases, of which 166 (32 percent)
 

service, Monday through Friday, from
                                                          contained substantiated allegations. We wrote
 

8:30 a.m. to 4 p.m. Eastern time. Employees,
                                                          82 letters responding to inquiries received
 

veterans, the general public, Congress, U.S.
                                                          from Members of the Senate and House of
 

General Accounting Office, and other Federal
                                                          Representatives.
 

agencies report issues of criminal activity,
waste, and abuse through calls, letters, faxes,
                                                          Outcome
 

and e-mail messages. The Hotline Division
                                                          z VA managers imposed 40 administrative
 

carefully considers all complaints and
                                                          sanctions against employees and took 81
 

allegations; OIG or other Departmental staff
                                                          corrective actions to improve operations and
 

address mission-related issues.
                                                          activities as the result of these reviews. The
 

                                                          monetary impact resulting from these cases
 

Resources                                                 totaled almost $960,000.
 

The Hotline Division has eight FTE. The
following chart shows the estimated
percentage of resources devoted to various
program areas.




                                                  56
 

                                                                 Office of Management & Administration

Veterans Health                                              codes for declined organs for VA patients. On
                                                             more than one occasion when organs were
Administration                                               transplanted into university patients with lower
                                                             transplant list scores, the VA transplant
Quality of Patient Care                                      surgeons were not informed of the availability
                                                             of donor organs. As a result of this review, the
The responses to Hotline inquiries by VA                     VAMC has applied for and received an
management officials indicated that 45                       independent charter for kidney and liver
allegations regarding deficiencies in the                    transplantation, has hired a transplant surgeon,
quality of patient care provided by individual               and has an agreement with the United Network
facilities were found to have merit and                      of Organ Sharing to notify a VA surgeon every
required corrective action. Examples follow.                 time a liver or kidney becomes available for
                                                             VA-listed transplant patients.
z   A VHA review substantiated allegations
that five VA patients were delayed in receiving              z   A VHA review found that nursing staff had
organ transplants at an affiliated university, in            been illegally restraining patients with wrist
violation of uniform transplant network                      restraints without a doctor’s order and were
guidelines and policies. The Hotline received                not making appropriate entries in patient
anonymous allegations that university patients               medical records when a physician ordered
who ranked below veteran patients were                       restraints. Consequently, supervisors have
receiving liver transplants ahead of VA                      counseled the nursing staff involved, and
patients, without adequate explanation for the               quality control and monitoring measures have
denials. The VHA review confirmed that one                   been implemented by management.
of the five patients was denied a liver on six
occasions, with inaccurate refusal codes                     z   AVHA peer review of a patient’s psychiatric
entered by the affiliate for all denials. Three of           care determined his physician might have
the other VA patients were denied organs on                  exercised questionable judgment in abruptly
multiple occasions with similarly inaccurate                 terminating the patient’s psychotropic
refusal codes. For example, refusal codes                    medications. The physician did so because he
indicated a patient was not within acceptable                had concerns about the patient’s elevated liver
weight or serological standards, when the                    enzyme levels, but the review noted the
patient was within both standards. In one                    enzyme levels were not unusual in this patient,
instance, the patient was recorded as                        who had a history of alcohol abuse and high
unavailable when he was in the local VA                      cholesterol. The veteran was assigned to a
hospital. Due to limited access to records                   new psychiatrist.
from the affiliate, the review could not
definitely ascertain the specific reasons for all            Employee Misconduct
denials. The review found that VA personnel
complied with all VA and transplant network                  The responses to Hotline inquiries by
policies and procedures concerning allocations               management officials indicated that 12
of transplant organs. Furthermore, VA                        allegations of employee misconduct at
personnel had not entered or approved refusal




                                                     57
 

Office of Management & Administration

individual VA facilities were found to have                    z    AVHA review confirmed that a VA employee
merit and required corrective action.                          falsified her employment application by stating she
Examples of the issues follow.                                 was an American citizen when, in fact, she is a
                                                               citizen of Surinam. Management is taking action
z    A VHA board of investigation concluded that               to remove the employee from Federal service.
an employee, while engaged in an intimate
relationship with a non-employee, provided                     Time and Attendance
him with her network logon codes, allowing him
to remotely access her VA computer and review                  The responses to Hotline inquiries by
e-mails in her VA Microsoft Outlook account.                   management officials indicate that 14
The facility information security officer determined           allegations of time and attendance abuse at
that no sensitive medical records had been                     individual VA facilities were found to have
accessed. The employee received a reprimand                    merit and required corrective action. An
for failure to safeguard confidential material.                example follows.

z   A VHA review confirmed that an employee                    z   A VHA review confirmed that an employee
misused a Government vehicle, used his                         used leave without pay to work at another job
Government travel credit card for dinner at a                  outside of the VA with his supervisor’s
local restaurant while not on travel, and                      knowledge. Disciplinary action was proposed.
consumed alcoholic beverages on Government
property. The employee’s credit card has been                  Fiscal Controls
suspended. Further personnel action is under
review.                                                        The responses to Hotline inquiries by
                                                               management officials indicate that four
z A VHA review confirmed a complainant’s                       allegations of deficient or improper fiscal
allegations that two employees at a VAMC                       controls at individual VA facilities were found
used their VA computers to access and use                      to have merit and required corrective action.
various unauthorized Internet sites,                           An example follows.
disregarding the needs and presence of patients
seeking their services. Additionally, the review               z    A VHA review found that several vendors
determined that another employee treated                       threatened to discontinue providing service to
patients with contempt, spoke condescendingly to               the medical center if they continued to receive
patients, and yelled at them when they were                    late payments for services rendered.
merely seeking information on eligibility                      Management has eliminated the backlog and
concerns. All parties involved, to include their               processed the claims. The review also found that
first line supervisor, received written                        the resource manager routinely moved money
counseling. One employee received a                            between fund control points without the
reprimand.                                                     knowledge of the service lines. Resource
                                                               management and other service lines were not
                                                               tracking day-to-day expenses, causing the
                                                               inability of other service lines to track day-to-
                                                               day spending. A process was put into place to




                                                       58
 

                                                                    Office of Management & Administration

ensure service line notification when movement of               z    A VHA review concluded that a home health
funds occurred. Resource management will                        contractor failed to comply with the requirement
complete fund control point reconciliation.                     to service ventilator patients and responded
Service lines have been given access to the fund                inappropriately to a request. As a result, a cure
distribution control point listing and the accounting           notice was issued to the vendor, which requires
history on Veterans Health Information Systems                  the problem be “cured” by a deadline or the
and TechnologyArchitecture.                                     Government will terminate the contract for
                                                                default. The vendor has since assigned additional
Patient Safety                                                  registered respiratory therapists in the service
                                                                area and assured VAthat they intend to fulfill their
The responses to Hotline inquiries by                           contractual obligations. VAmanagement is
management officials indicate that nine                         monitoring the vendor’s performance.
allegations of patient safety deficiencies at
individual VA facilities were found to have                     Government Equipment and Supplies
merit and required corrective action.
Examples follow.                                                The responses to Hotline inquiries by
                                                                management officials indicate that five
z   A VHA review found that a cystoscope that                   allegations involving misuse of Government
was used on 40 patients during a 7-month period                 equipment and supplies at individual VA
was not being disinfected and processed                         facilities were found to have merit and
according to manufacturer’s recommendations.                    required corrective action. An example
As a result, these 40 patients were mailed a                    follows.
letter that outlined the problem and were asked
to make an appointment for follow-up if                         z   A VHA review of vehicle use at a VAMC
indicated. Patients who called were scheduled                   found significant lapses in the administration of
for evaluation and treatment.                                   the program, including incomplete trip tickets,
                                                                inadequate audits, and discrepancies in mileage
z A VHA review determined that although                         reports compared to actual mileage. Chiefs of
newly-purchased ventilators initially performed                 affected services admonished those employees
well, as time passed, they exhibited evidence of                involved. Additionally, the director ordered
unreliability and failure. Despite numerous                     the facility compliance officer to review
attempts to repair and upgrade computer                         procedures regulating use of Government
software, chronic unreliability persisted.                      vehicles with all section chiefs and the associate
Eventually the company provided rental                          director to recommend strategies to tighten
replacement ventilators. When it became                         controls.
apparent that the ventilators would continue to
be unreliable and unsuitable to the needs of the                Ethical Improprieties
patient population, a decision was made to
remove them permanently from service.                           The responses to Hotline inquiries by
                                                                management officials indicate that five
                                                                allegations involving violations of ethical




                                                        59
 

Office of Management & Administration

conduct standards at individual VA facilities                   Facilities and Services
were found to have merit and required
corrective action. An example follows.                          The responses to Hotline inquiries by VA
                                                                management officials indicated that 29
z A VHA review substantiated the allegation                     allegations regarding deficiencies with
of abuse of transit subsidy benefits by two VA                  facilities or the services provided by individual
employees. As a result, one employee                            VA facilities were found to have merit and
voluntarily surrendered her bus pass.                           required corrective action. Examples of the
Management issued the second employee an                        issues follow.
official letter of counseling.
                                                                z   A VHA review found there were systemic
Privacy Issues/Health Insurance                                 problems in the treatment of a patient who had
Portability and Accountability Act                              pending criminal proceedings. As a result of
                                                                the Hotline inquiry, a station policy is being
The responses to Hotline inquiries by                           developed giving guidance on admission and
management officials indicate that four                         discharge of a patient involved in criminal
allegations involving violations of privacy and                 proceedings. The existing policy on
the new Act by employees at individual VA                       management of disturbed behavior is being
facilities were found to have merit and                         revised to clarify the roles of all participants in
required corrective action. Examples of the                     any disturbance situation, including police
issues follow.                                                  officers. All pertinent staff will be given in-
                                                                service training in order to recognize relevant
z A VHA review found that a veteran                             court documents used in patient admissions
employee received copies of his medical                         and discharges when legal proceedings are
records directly from his physician without                     involved. The psychiatry service chief has
going through the proper procedures of                          conducted an extensive review of one
signing a release of information form.                          physician’s cases to assess appropriateness of
Management reviewed the procedures with                         care and documentation practices.
care providers.                                                 Appropriate disciplinary action is being taken.

z    A VHA review substantiated the allegation                  z    A VHA review concluded that a physician
that documents containing sensitive patient                     refused to fill out encounter forms for
information were improperly disposed. The                       procedures, coding, and billing charges. He
information security officer discussed with the                 felt the requirement was clerical in nature,
staff on duty the proper procedures for disposing               burdensome, and took away from his time to care
of sensitive patient information. Management                    for patients. This potentially might have caused
recommended all nursing staff receive a refresher               the facility to lose thousands of dollars.
training course on their roles and responsibility for           Consequently, the surgical service has
properly disposing of sensitive patient information.            automated the procedure, with specialty clinics
                                                                and general surgeons accepting the computer
                                                                template encounter form. Additionally, the
                                                                physician has agreed to begin using the




                                                        60
 

                                                                   Office of Management & Administration

template, acknowledging that the number of                     install equipment, and walk briskly. The VARO
patients he will see may need to be reduced in                 has proposed terminating the veteran’s rating of
order to compensate for the time involved in                   unemployability, resulting in a savings to VAof
completing the forms.                                          $332,883.

z   A VHA review determined that due to the                    z   A VBA review confirmed a veteran failed
merging of two facilities and moving to a                      to notify VA of his incarceration, creating an
service-line structure, the peer review process                overpayment of $34,810.
for the social work staff was not formally
maintained. As a result, a task group with                     z   A VBA review of a veteran’s claim folder
representatives from both campuses was                         based on a Hotline inquiry determined that he
charged with developing a formal peer review                   failed to notify the VARO of his marriage
process. Additionally, management reminded                     annulment, causing an overpayment of
the staff about the importance of adhering to                  $17,311. Corrective action was taken to
policies and procedures regarding                              remove the spouse and dependent children of
confidentiality of patient information.                        the ex-spouse from the veteran’s award.

Veterans Benefits                                              z   A VBA review confirmed that a veteran’s
                                                               guardian failed to keep the veteran apprised on
Administration                                                 a regular basis of all financial activities
                                                               affecting his account. As a result of a meeting
Receipt of VA Benefits                                         with the concerned parties, the guardian
                                                               agreed to provide regular accounting of the
The responses to Hotline inquiries by                          veteran’s financial activities.
management officials indicate that 20
allegations involving improprieties in the                     Ethical Improprieties
receipt of VA benefits were found to have merit
and required corrective action. Examples                       The following violation of ethical conduct
follow.                                                        standards was found to have merit and
                                                               required corrective action.
z   AVBA review determined a veteran’s
benefits should be reduced to 10 percent, which                z   AVAregional counsel review substantiated
also included the loss of individual unemployability           the allegation of violations of ethical conduct
benefits and eligibility to receive dependents’                standards by two VARO employees. One
educational assistance. Projected savings to the               VARO employee borrowed money from some
Government is $507,078.                                        of VHA’s compensated work therapy program
                                                               employees at the same facility. The other
z   A VBA field examination and follow-up                      VARO employee had program employees get
physical examination revealed that a veteran                   lunch for her and move her personal vehicle.
who claimed to be unable to work because of a                  As a result, management will be taking
painful back condition was still agile enough to               disciplinary action against the two employees.
climb trees, bend backward from the waist to




                                                       61
 

Office of Management & Administration

Facilities and Services                                     II. OPERATIONAL
The responses to Hotline inquiries by VA                    SUPPORT DIVISION
management officials indicated that 12
allegations regarding deficiencies with                     Mission Statement
facilities or the services provided by individual
VA facilities were found to have merit and                     Promote OIG organizational
required corrective action. An example                         effectiveness and efficiency by providing
follows.                                                       reliable and timely follow-up reporting
                                                               and tracking on OIG recommendations;
z   A VBA review of a veteran’s records found                  responding to Freedom of Information
that VARO employees had provided incorrect                     Act / Privacy Act requests; conducting
information in two of three e-mail responses                   policy review and development; strategic,
regarding the start of the veteran’s                           operational, and performance planning;
compensation payments as he completed a                        providing electronic report distribution;
recoupment schedule. Management discussed                      and overseeing Inspector General
the errors with the employees and supervisors                  reporting requirements.
of the responding teams. Additionally, an audit
of the recoupment showed the veteran actually               Resources
had a balance of $272 owing on his separation
pay. This sum was withheld from his                         This Division has 10 FTE assigned with the
compensation.                                               following allocation.

National Cemetery
                                                                          Leg. Reviews
Administration                                                                10%
                                                                                          Rpt. Dist.
Facilities and Services                                        Pol. & Plan.                 27%
                                                                  17%
The responses to Hotline inquiries by VA
management officials indicated that one                                                  Follow-Up
                                                                    FOIA/PA
allegation regarding deficiencies with                                                      23%
                                                                     23%
facilities or the services was found to have
merit.

z    An NCA review determined that the ashes of
a decedent veteran’s spouse were disinterred
without appropriate consent from the
immediate next-of-kin and released to an
unauthorized family member who re-interred
them outside of the United States. Management
took appropriate administrative actions against
staff involved.



                                                    62
 

                                                               Office of Management & Administration

Overall Performance                                         other Federal Departments and agencies, such as
                                                            the Office of Special Counsel and the Department
Follow Up on OIG Reports                                    of Justice. These requests require the review and
                                                            possible redacting of OIG hotline, healthcare
Operational Support is responsible for obtaining            inspection, criminal and administrative
implementation actions on previously issued                 investigation, contract audit, and internal audit
audits, inspections, and reviews with over                  reports and files. Operational Support also
$2.04 billion of actual or potential monetary               processes OIG reports and documents to assist
benefits as of March 31, 2004.                              VAmanagement in establishing evidence files used
                                                            to support administrative or disciplinary actions
The Division maintains the centralized follow-              against VAemployees.
up system that provides oversight, monitoring,
and tracking of all OIG recommendations                     During this reporting period, we processed 172
through both resolution and implementation.                 requests under the FOIA and PA and released
Resolution and implementation actions are                   229 audit, investigative, and other OIG reports.
monitored to ensure that disagreements between              Information was totally denied in 2 requests and
OIG and VA management are resolved promptly                 partially withheld in 91 requests, because release
and that corrective actions are implemented by              would constitute an unwarranted invasion of
VA management officials. VA’s Deputy Secretary,             personal privacy, interfere with enforcement
as the Department’s audit resolution official,              proceedings, disclose the identity of confidential
resolves any disagreements about                            sources, disclose internal Departmental matters,
recommendations.                                            or was specifically exempt from disclosure by
                                                            statute. During this period, all FOIA cases
After obtaining information that showed                     received a written response within 20 workdays,
management officials had fully implemented                  as required. There are no requests pending over
corrective actions, Operational Support closed              6 months.
89 reports and 395 recommendations with a
monetary benefit of $807 million during this                Electronic Report Distribution
period. As of March 31, 2004, VA had 89 open
OIG reports with 329 unimplemented                          The President’s electronic Government initiatives,
recommendations.                                            as described at http://www.whitehouse.gov/omb/
                                                            egov/, aim to put Government at citizens’ and
Freedom of Information Act, Privacy                         employees’ fingertips, making it more responsive
Act, and Other Disclosure Activities                        and cost-effective. In keeping with this effort,
                                                            electronic report distribution is an initiative to
Operational Support processes all OIG FOIA                  distribute OIG reports through a link to the
and PA requests from Congress, veterans,                    OIG Web page. Individuals on the distribution
veterans service organizations, VA employees,               list receive a short e-mail describing the report,
news media, law firms, contractors,                         with a link directly to the report.
complainants, the general public, and subjects of
investigations. In addition, we process official
requests for information and documents from




                                                    63
 

Office of Management & Administration

We believe this distribution method provides                      developing, maintaining, and enhancing
many advantages. It is fast and efficient, avoiding               the enterprise database application;
the cost and delays involved in producing large                   facilitating reliable, secure, responsive,
numbers of paper copies and the time problems                     and cost-effective access to this database,
of security screening of mail deliveries. It greatly              VA databases, and electronic mail by all
reduces the need to print paper copies. This                      authorized OIG employees; providing
approach also places OIG reports on our Web                       Internet document management and
page as soon as they are issued.                                  control; and providing statistical
                                                                  consultation and support to all OIG
We began using this method to distribute our                      components. Provide automated data
CAP review reports in October 2003. During                        processing technical support to all
this reporting period, a total of 23 CAP                          elements of the OIG and other Federal
reports, 3 CAP summary reports, and 1 non-                        Government agencies needing
CAP report were released electronically. We                       information from VA electronic
will expand it to include other OIG reports and                   databases.
information in the following months.
                                                               The Information Technology and DataAnalysis
Review and Impact of Legislation and                           Division provides IT and statistical support
Regulations                                                    services to all components of the OIG. It has
                                                               responsibility for the continued development
Operational Support coordinated concurrences                   and operation of the management information
on 33 legislative, 47 regulatory, and 91                       system known as the Master Case Index
administrative proposals from the Congress,                    (MCI), as well as the OIG’s Internet and
OMB, and VA. The OIG commented and                             Intranet resources. The Division interfaces
made recommendations concerning the impact                     with VA IT units nationwide to establish and
of the legislation and regulations on economy                  support local and wide area networks,
and efficiency in the administration of                        guarantee uninterrupted access to electronic
programs and operations or the prevention and                  mail, service personal computers, detect and
detection of fraud and abuse.                                  defeat computer threats, and provide support
                                                               in protecting all electronic communications.
                                                               The OIG’s Chief Information Officer and staff
III. INFORMATION                                               represent the OIG on numerous intra- and
                                                               inter-agency IT organizations and are
TECHNOLOGY AND DATA                                            responsible for strategic IT planning for all
ANALYSIS DIVISION                                              OIG requirements. The Data Analysis Section
                                                               in Austin, TX, provides data gathering and
                                                               analysis support for OIG oversight efforts, and
Mission Statement                                              VA and other Federal agencies requesting
                                                               information contained in VAautomated systems.
    Promote OIG organizational                                 Finally, a member of the staff serves as the OIG
    effectiveness and efficiency by ensuring                   statistician.
    the accessibility, usability, reliability and
    security of OIG information assets;



                                                       64
 

                                                                    Office of Management & Administration

Resources                                                        We posted the frequently requested report,
                                                                 Administrative Investigation, Use of
The Division has 22 FTE allocated in Washington,                 Government Funds, Travel, Personnel,
Austin, and Chicago.                                             Impartiality, and Management Issues,
                                                                 Research and Development Office, VHA; and
Overall Performance                                              the report, Interim Report - Patient Care and
                                                                 Administrative Issues at VAMC Bay Pines, FL,
Master Case Index (MCI)                                          in our electronic reading room in compliance with
                                                                 the Electronic Freedom of Information Act. We
During this reporting period, the MCI application                posted 37 CAP reports, 5 audit reports, 38 press
has continued to expand in support of the OIG                    releases, and other OIG publications on the
mission. Within MCI, the fugitive felon system                   Websites.
now contains over 13,000 warrants. We are
currently in the process of allowing intranet web                Information Management, Security, and
access to the application in order to provide a                  Coordination
mechanism for direct VHA and VBA status
updates. New features within MCI include a                       We provided hands-on training on the OIG’s data
searchable contact form for Hotline, and a                       encryption software to OIG investigators and
property and weapons assignment tracking                         health care inspectors. We successfully
system for Investigations.                                       implemented a new initiative to provide live tele-
                                                                 training on our encryption software to OIG staff
Internet and Electronic FOIA                                     across the country, which decreased travel costs
                                                                 and increased both training participation and
The Division is responsible for processing and                   usage of encryption to protect sensitive data. We
controlling electronic publication of OIG                        addressed information assurance threats that
reports, including maintaining the OIG                           affected OIG IT resources, providing the OIG
Websites and posting OIG reports on the                          additional protection behind VA’s information
Internet. Data files on the OIG Website were                     security infrastructure.
accessed over 1.5 million times by more than
125,000 visitors. The most popular reports                       Statistical Support and IT Training
were downloaded over 143,000 times,
providing both timely access to OIG customers                    The OIG statistician is part of the technical
and cost avoidance in the reduced number of                      support team under the direction of the OIG’s
reports printed and mailed. OIG publications and                 Chief Information Officer and provides assistance
vacancy announcements accounted for over                         in planning, designing, and sampling for relevant
305,000 downloads from our Websites.                             OIG projects. In addition, the statistician
We worked directly with OIG’s Operational                        provides support in the implementation of
Support Division in launching the OIG electronic                 appropriate methods to ensure that data
report distribution initiative. This initiative showed           collection, preparation, analysis, and reporting are
an immediate benefit with an almost 200 percent                  accurate and valid.
increase in the number of downloads of our most
popular reports (over 95,000 more downloads).




                                                         65
 

Office of Management & Administration

For the reporting period, the OIG statistician              properly scheduled, and to examine patient
provided statistical consultation and support on            activity scheduling related to the individual
five research design and/or sampling plans for              physicians.
proposed audit projects and OHI proactive
program evaluations; statistical support for all            Fugitive Felon Matches
CAP reviews, and data analysis concerning
purchase card use at each facility.                         As a continuation of the computer match of VA
                                                            records to state and Federal files, the DAS
DATA ANALYSIS SECTION                                       matched an additional 1.2 million felony
                                                            warrant records from the National Crime
The Data Analysis Section (DAS) develops                    Information Center, as well as from the States
proactive computer profiles that search VA                  of New York, Tennessee and Washington.
computer data for patterns of inconsistent or               These felony records were matched with the
irregular records with a high potential for fraud           more than 11 million records contained in the VA
and refers these leads to OIG auditors and                  system files to produce 14,953 matched records
investigators for further review. The DAS                   in this reporting period.
provides technical assessments and support to all
elements of the OIG and other governmental                  Data Mining to Detect Potential Fraud in
agencies needing information from VAcomputer                VA Computer Systems
files. In addition, DAS supported the following
projects:                                                   The DAS took a proactive approach to finding
                                                            and reporting fraud by developing computer
Part-time Physician Time and                                profiles that reflect the known procedures used
Attendance Follow-Up                                        to defraud the VA. An updated run of the death
                                                            match program resulted in an additional 1,575
An unannounced follow-up review was                         referrals to the Office of Investigations.
conducted by VA OIG teams simultaneously at
15 medical facilities. An earlier review found an           Combined Assessment Program
inordinate number of part-time physicians could             Reviews
not be located in a medical center despite being
scheduled for work at specified times. DAS staff            The DAS provided technical support and data for
provided information related to approved work               30 CAP health care reviews focusing on the
schedules and leave as a support for the teams.             quality, efficiency, and effectiveness of medical
They focused on the 58 physicians who were not              services provided to veterans. The DAS also
on duty to determine if leave had been pre-                 provided support to nine CAP reviews on VA
approved, whether tour changes had been                     benefits, which focused on the delivery of
                                                            monetary benefits to veterans and their
                                                            dependents. A combined total of over 367 data
                                                            extracts and reports were produced in support of
                                                            this activity.




                                                    66
 

                                                               Office of Management & Administration

Assistance to Other Agencies                                Overall Performance
The DAS provided assistance on requests for VA              Budget
information from the Department of Justice, SSA,
and California Department of Justice. The                   The staff assisted in the preparation of the
information provided to these agencies was useful           FY 2005 budget submission and materials for
in criminal investigations.                                 associated hearings with VAand the Office of
                                                            Management and Budget.
IV. FINANCIAL AND
                                                            Travel
ADMINISTRATIVE
SUPPORT DIVISION                                            By the nature of our work, OIG personnel travel
                                                            almost continuously. As a result, we processed
Mission Statement                                           1,569 temporary duty travel and 25 permanent
                                                            change of station vouchers.
    Promote OIG organizational
                                                            Administrative Operations
    effectiveness and efficiency by providing
    reliable and timely financial and
                                                            The administrative staff works closely with VA
    administrative support services.
                                                            Central Office administrative offices and building
                                                            management to coordinate various administrative
The Division provides support services for the
                                                            functions, office renovation plans, telephone
entire OIG. Services include budget formulation,
                                                            installations, and furniture and equipment
presentation, and execution; travel processing;
                                                            procurement. In addition, we processed 192
procurement; space and facilities management;
                                                            procurement actions and reviewed and approved
and general administrative support.
                                                            monthly the 90 statements received from the
                                                            OIG’s credit cardholders under the Government’s
Resources                                                   purchase card program.
Eight staff currently spend time across three
functional areas in the following proportions.




                                   Budget
                                    13%
       Admin.
      Operations
        75%                          Travel
                                      12%




                                                    67
 

Office of Management & Administration

V. HUMAN RESOURCES                                         Overall Performance
MANAGEMENT DIVISION                                        Human Resources Management

Mission Statement                                          During this period, 46 new employees joined the
                                                           OIG workforce and 21 departed. The current
   Promote OIG organizational                              on-board strength is at its highest in OIG history
   effectiveness and efficiency by providing               with 405 employees in authorized positions and
   reliable and timely human resources                     24 employees in positions that are reimbursed by
   management and related support                          the Department. The staff processed 105
   services.                                               recruitment and placement actions, processed 55
                                                           awards, enrolled 22 employees in advanced
The Division provides human resources                      management development classes, and collected
management services for the entire OIG. These              482 hours of donated leave for OIG employees
services include internal and external staffing,           experiencing medical emergencies.
classification, pay administration, employee
relations, benefits, performance and awards, and           Fifteen college students are working part-time in
management advisory assistance. It also serves             our field offices and headquarters in a variety of
as liaison to the VA Central Offices of Human              occupational disciplines under the OIG Student
Resources and Payroll, as those offices process            Career Experience Program. Students in this
our actions into the VA integrated payroll and             program receive developmental assignments and
personnel system.                                          training in their career fields, and are eligible for
                                                           permanent placement upon graduation. Our first
Resources                                                  students will graduate this May.

Seven FTE, committed to human resources
management and support, currently expend time
across the following functional areas.


                           Special Projects &
                            Advisory Service
                                 15%
   Staffing &                 Employee Relations
 Classification                  & Benefits
     65%                            10%

                           Performance
                            & Awards
                               10%




                                                   68
 

OTHER SIGNIFICANT OIG ACTIVITIES 

President’s Council on Integrity                           Office of Acquisition and Materiel
and Efficiency                                             Management’s Acquisition Forums

z   The OIG FinancialAudits Division staff                 z   The Counselor to the IG and OIG
participated in the audit executive committee              representatives from the Contract Review and
workgroup on financial statements. The                     Evaluation Division made two presentations to VA
workgroup facilitates communication of financial           contracting personnel. The presentations covered
statement audit issues throughout the Federal              various aspects of contracting with affiliates for
community.                                                 health care resources.

z   The Director, Audit Operational Support                VISN 6 Management
Division, represented VA OIG in a PCIE
workgroup to revise the external quality control           z   The Counselor to the IG and an OIG
review guides used by all Federal agencies to              representative from the Contract Review and
ensure compliance with the U.S. General                    Evaluation Division made a presentation to
Accounting Office’s generally accepted                     VISN 6 facility directors, associate directors,
Government auditing standards.                             chiefs of staff, and regional counsel. The
                                                           presentation covered various aspects of
OIG Management Presentations                               contracting with affiliates for health care
                                                           resources.
Leadership VA 2003 Program
                                                           American Bar Association Public Law
                                                           102-585 Conference
z   The Inspector General made a presentation
on the work of the OIG to the Leadership VA
                                                           z   A representative from the OIG’s Contract
Class of 2003. This program is VA’s premier
                                                           Review and Evaluation Division presented to
leadership development program.
                                                           industry on the effect of Public Law provisions on
                                                           VA awarded Federal Supply Schedule
VISN Directors Conference
                                                           pharmaceutical contracts. The American Bar
                                                           Association hosted the 1-day conference.
z The Deputy AIGs for Audit and Healthcare
Inspections made a presentation on the FY 2004
                                                           VHA Chief Logistics Officers
CAP schedule at the VHA VISN Director’s
                                                           Conference
meeting.
                                                           z  The Director, Veterans Benefits and
                                                           Healthcare Audit Division, gave a presentation on
                                                           VAMC supply procurement practices and the
                                                           contract hierarchy at the conference.




                                                   69
 

Other Significant OIG Activities

VHA Radiology Teleconference                                Awards and Special Thanks
z   The Director,Audit Planning Division, gave a            Secretary’s Exceptional Service Award
presentation to VHA radiologists on issues
emerging from CAP reviews relating to the award             z    We said good-bye to Michael G. Sullivan, the
and administration of radiology contracts.                  former Deputy Inspector General, upon his
                                                            retirement after a distinguished 35-year Federal
VA Acquisition Managers Symposium                           career. Secretary Principi presented Mr. Sullivan
                                                            with the Department’s highest award, the
z  The Director, Veterans Benefits and                      Secretary’s Exceptional Service Award, in
Healthcare Audit Division, gave a presentation on           recognition of his leadership and dedicated
OIG evaluations and VA procurement issues.                  service to our Nation’s veterans at a retirement
Also an audit manager from the Bedford Audit                ceremony held on March 30, 2004.
Operations Division made presentations on
contract issues identified during CAP reviews and           Secretary’s Meritorious Service Awards
OIG’s evaluation of the purchase card program.
                                                            z   Michael Slachta, Jr., retired from the position
System-Wide Ongoing Assessment and                          of Assistant Inspector General for Audit on
Review Strategy Consultant Training                         January 2, 2004. Secretary Principi recognized
Conference                                                  Mr. Slachta with the Secretary’s Meritorious
                                                            Service Award for his noteworthy career
z   The Directors of the Dallas Audit Operations            achievements spanning 32 years at the VA.
Division and Healthcare Inspections Regional
Office made a presentation on CAP reviews and               z   After 32 years of service with the VA,
recent findings to VHA employees training as                Alanson J. Schweitzer retired from the position of
consultants.                                                Assistant Inspector General for Healthcare
                                                            Inspections on December 27, 2003. Secretary
Washington Chapter of the Association                       Principi recognized Mr. Schweitzer’s significant
of Certified Fraud Examiners                                career achievements with the Secretary’s
                                                            Meritorious Service Award.
z   The OIG Human Resources Director
addressed the chapter on career development                 PCIE 2003 Awards Ceremony -
and advancement in the Government.                          October 16, 2003

Data Integrity Board                                        z   The “June Gibbs Brown Career Achievement
                                                            Award” was presented to Michael Slachta, Jr., in
z  The Deputy AIG for Audit served on the VA                recognition of Mr. Slachta’s leadership of the VA
board that reviews and approves agency                      OIG Office of Audit.
computer matching proposals.




                                                    70
 

                                                                               Other Significant OIG Activities

z    An “Award for Excellence - Multiple                         monetary benefits for the 12-month period. Team
Disciplines” was presented to 29 staff members in                members included Marci Anderson, Michael
ten OIG audit, healthcare inspections,                           Grivnovics, Lacy Jamison, James P. O’Neill, Tina
investigations, and IT offices in recognition of their           Robinson, and Brenda Lindsey.
diligent, collaborative efforts in conducting the
sanitation and CAP follow-up review at VAMC                      z    An “Award for Excellence - Investigations”
Kansas City that resulted in improved quality                    was presented to two staff members from the
medical care for veterans. Team members                          Office of Investigations in recognition of their
included Michael Slachta, Jr., Michael Staley,                   tireless and outstanding investigative efforts during
Robert Zabel, Larry Reinkemeyer, Joseph Janasz,                  the investigation of Edward Lee Daily. Team
Jr., Kenneth Myers, Carla Reid, Lynn Scheffner,                  members were the Nashville Resident Agent in
Dennis Capps, James Garrison, Robin Frazier,                     Charge, Michael Keen; and the Director, OIG
Henry Mendala, Oscar Williams, Marcia                            Questioned Document Forensic Laboratory,
Schumacher, Linda DeLong, Patricia Christ,                       Stephen Fortenberry.
Verena Briley-Hudson, Frederick Marchand,
Paula Chapman, Sheila Cooley, Michele                            Clarksburg and Harrison County, WV
Eskridge, Leslie Rogers, Gregory Billingsley, John               Sherlock Holmes Award
Metzler, Mary Lopez, Gilberto Melendez, Judy
Shelly, Steven Wise, and Kelli Kemper.                           Washington Resident Agency special agents
                                                                 Patrick McCormack and Jeffrey Stachowiak
z   An “Award for Excellence -Audit” was                         were recognized by the law enforcement commu-
presented to nine staff members from the Kansas                  nity of Clarksburg and Harrison County, West
City Audit Operations Division and the Austin                    Virginia, by being awarded the Sherlock Holmes
Data Analysis Section in recognition of their                    Award for their roles in a long term, and highly
efforts to improve the integrity, efficiency, and                successful drug investigation at the Louis B.
effectiveness of VHA’s management of part-time                   Johnson VA Medical Center, Clarksburg, WV.
physician time and attendance. Team members                      They identified several VAMC employees and
included William Withrow, Larry Reinkemeyer,                     contractors who were involved in a series of
Joseph Janasz, Jr., Kenneth Myers, Carla Reid,                   gambling, theft, and other employee misconduct
Dennis Capps, Henry Mendala, Oscar Williams,                     that had an effect on patient care and employee
and Gilberto Melendez.                                           morale. In addition, they identified VAMC
                                                                 personnel who were engaged in dealing and/or
z    An “Award for Excellence -Audit” was                        brokering the sale of controlled substances on VA
presented to six staff members from the Contract                 property while on duty. Previous attempts by the
Review and Evaluation Division in recognition of                 law enforcement community to penetrating the
their consistent efforts resulting in significant cost           illegal operations proved unsuccessful prior to
recoveries, reducing contract costs, identifying                 Special Agents McCormack’s and Stachowiak’s
areas of contract vulnerabilities, and ensuring                  involvement. All subjects either pled guilty or
compliance with applicable laws and regulations                  were found guilty at trial.
that resulted in achieving $17.5 million in




                                                         71
 

Other Significant OIG Activities

Thank You from American Airlines                              Letters of Appreciation

z Dorothy Duncan, R.N., Healthcare Inspector,                 z   Verena Briley-Hudson, Director, Chicago
Dallas Healthcare Inspections Regional Office,                Regional Office of Healthcare Inspections,
received a formal “Thank You” fromAmerican                    received letters of appreciation and
Airlines for the assistance provided to a stricken            congratulations from the President of the
passenger on October 26, 2003, aboard flight                  American Hospital Association and VHA’s Chief
4410 which operated from Chicago to Portland.                 Nursing Officer for her energetic commitment and
The letter stated: “We are all grateful that you              contributions to excellence and leadership in
were on board and freely offered your medical                 nursing.
expertise when it was needed most. Without a
doubt, you helped improve a difficult situation.”             OIG Congressional Testimony
American Organization of Nurse                                z   In January 2004, the Assistant Inspector
Executive                                                     General for Healthcare Inspections, accompanied
                                                              by the Director,Atlanta Regional Office of
z   Verena Briley-Hudson, Director, Chicago                   Healthcare Inspections, testified before the House
Regional Office of Healthcare Inspections, was                Committee on Veterans’Affairs. The testimony
elected to the American Organization of Nurse                 presented the results of our evaluation of the
Executives Board of Director’s Nominating                     VHA Community Nursing Home Program and
Committee, Region 5. In this special leadership               the Homemaker and Home Health Aide Program.
role, she will represent nurse leaders who are
shaping the future of and improving health care.

American Pharmacists Association

z   Dr. Wilma Wong, Associate Director, Los
Angeles Regional Office of Healthcare
Inspections, received the association’s
DistinguishedAchievement Award in Hospital and
Institutional Practice award in recognition of her
quarter-century commitment to VA’s health care
facilities and strong influence on the direction of
pharmacy practice, which has affected policies on
the national level. From her early days as a staff
clinical pharmacist to her current management
position, Dr. Wong has never lost sight of her
primary mission as a pharmacist: providing the
best pharmaceutical care, especially for veterans.




                                                      72
 

                                           APPENDIX A 


                            DEPARTMENT OF VETERANS AFFAIRS
                             OFFICE OF INSPECTOR GENERAL
                                 REVIEWS BY OIG STAFF


  Report                                                            Funds Recommended
 Number/                                                               for Better Use  Questioned
Issue Date                    Report Title                           OIG    Management   Costs

COMBINED ASSESSMENT PROGRAM REVIEWS

03-02420-6    Combined Assessment Program Review of the              $136,550   $136,550
10/14/03      W.G. (Bill) Hefner VA Medical Center
              Salisbury, NC

03-02278-8    Combined Assessment Program Review of the              $162,198   $162,198
10/29/03      Coatesville VA Medical Center Coatesville, PA

03-02290-12   Combined Assessment Program Review of the
11/4/03       Grand Junction VA Medical Center Grand Junction, CO

03-02374-17   Combined Assessment Program Review of the Muskogee     $155,436   $155,436
11/7/03       VA Medical Center Muskogee, OK

03-01948-18   Combined Assessment Program Review of the VA
11/10/03      Greater Los Angeles Healthcare System

03-02446-23   Combined Assessment Program Review of the               $51,500    $51,500
11/13/03      G.V. (Sonny) Montgomery VA Medical Center
              Jackson, MS

03-02612-27   Combined Assessment Program Review of the Sheridan      $73,674    $73,674
11/21/03      VA Medical Center Sheridan, WY

03-02067-29   Combined Assessment Program Review of the VA           $110,716   $110,716
11/21/03      Medical Center Tomah, WI

03-02191-47   Combined Assessment Program Review of the VA           $137,831   $137,831
12/15/03      Regional Office Buffalo, NY

03-02029-45   Combined Assessment Program Review of the VA
12/19/03      Medical/Regional Office Center Cheyenne, WY

03-01357-61   Combined Assessment Program Review of the VA            $68,599    $68,599
1/12/04       Medical Center Wilkes-Barre, PA

03-02577-62   Combined Assessment Program Review of the Lebanon
1/12/04       VA Medical Center Lebanon, PA




                                                      73
 

  Report                                                              Funds Recommended
 Number/                                                                 for Better Use   Questioned
Issue Date                      Report T itle                          OIG     Management   Costs

COMBINED ASSESSMENT PROGRAM REVIEWS (Cont’d)

04-00115-65    Combined Assessment Program Review of the VA             $44,294     $44,294
1/28/04        Regional Office Columbia, SC

03-02850-66    Combined Assessment Program Review of the VA             $14,292     $14,292
1/28/04        Southern Oregon Rehabilitation Center and Clinics
               White City, OR

03-03136-69    Combined Assessment Program Review of the
1/28/04        Louis A. Johnson VA Medical Center Clarksburg, WV

03-03208-76    Combined Assessment Program Review of the                $48,400     $48,400
2/2/04         James E. Van Zandt VA Medical Center Altoona, PA

03-02725-93    Combined Assessment Program Review of the VA            $230,551    $230,551
2/27/04        Regional Office Houston, TX

03-02996-94    Combined Assessment Program Review of the
3/1/04         VA Black Hills Health Care System

03-02735-103   Combined Assessment Program Review of                   $320,286    $320,286
3/16/04        Veterans Health Administration Activities at the
               Robert J. Dole VA Medical and Regional Office Center
               Wichita, KS

03-02735-104   Combined Assessment Program Review of                    $96,853     $96,853
3/16/04        Veterans Benefits Administration Activities at the
               Robert J. Dole VA Medical and Regional Office Center
               Wichita, KS

03-03210-109   Combined Assessment Program Review of the VA            $205,983    $205,983
3/18/04        Medical Center Salem, VA

04-00059-110   Combined Assessment Program Review of the VA             $10,329     $10,329
3/18/04        Medical Center St. Cloud, MN

03-02906-116   Combined Assessment Program Review of the VA             $55,894     $55,894
3/22/04        Regional Office San Diego, CA

COMBINED ASSESSMENT PROGRAM SUMMARY REVIEWS

04-00625-38    Summary Report of Combined Assessment Program
12/8/03        Reviews at Veterans Health Administration Medical
               Facilities October 2002 through September 2003

04-00624-54    Summary Report of Combined Assessment Program
1/2/04         Reviews at Veterans Benefits Administration Regional
               Offices October 2002 through September 2003



                                                       74

  Report                                                                    Funds Recommended
 Number/                                                                       for Better Use   Questioned
Issue Date                         Report T itle                             OIG     Management   Costs

COMBINED ASSESSMENT PROGRAM SUMMARY REVIEWS (Cont’d)

04-01010-111     Summary Report of Combined Assessment Program
3/18/04          Reviews at Veterans Health Administration Medical
                 Facilities October 2003 through December 2003

JOINT REVIEW

04-01371-108     Interim Report - Patient Care and Administrative
3/19/04          Issues at VA Medical Center Bay Pines, FL

INTERNAL AUDITS

03-01237-21      Report of the Audit of the Department of Veterans
11/14/03         Affairs Consolidated Financial Statements for Fiscal
                 Years 2003 and 2002

02-03210-43      Audit of the Department of Veterans Affairs
12/9/03          Information Security Program

03-02159-52      Report of the Audit of the Department of Veterans
12/19/03         Affairs’ Franchise Fund Consolidated Financial
                 Statements for Fiscal Years 2003 and 2002

03-02520-85      Follow-up of the Veterans Health Administration’s
2/18/04          Part-Time Physician Time and Attendance Audit

04-00897-113     Attestation of the Department of Veterans Affairs
3/17/04          Detailed Accounting Submission

02-01481-118     Audit of VA Medical Center Procurement of              $1,397,500,000            *$0
3/31/04          Medical, Prosthetic, and Miscellaneous Operating
                 Supplies

OTHER OFFICE OF AUDIT REVIEWS

03-01356-10      Review of Department of Veterans Affairs Fiscal
10/24/03         Year 2002 Special Disabilities Capacity Report

02-02759-20      Evaluation of Allegations of Irregularities in
11/10/03         Acquiring a Telecommunication System for
                 Veterans Integrated Service Network 15

03-01950-31      Evaluation of Alleged Compensation and Pension
11/25/03         Data Integrity Problems at VA Regional Office
                 Salt Lake City, UT
* VHA stated they could not provide an estimated monetary benefit pending their review of the volume and cost of
supplies purchased in FY 2003, including 50 products reviewed by the OIG. This review, to be completed by June 2004,
will provide useful data for determining the effectiveness of current measures to enhance procurement practices.

                                                            75

  Report                                                                  Funds Recommended
 Number/                                                                     for Better Use   Questioned
Issue Date                        Report T itle                            OIG     Management   Costs

OTHER OFFICE OF AUDIT REVIEWS (Cont’d)

03-00396-36      Evaluation of Medical Insurance Billing Practices
12/1/03          at VA Medical Centers Bedford and
                 Northampton, MA

03-02970-55      Evaluation of the Department of Veterans Affairs’
1/9/04           Installation of the Microsoft Blaster Worm Patch

03-00810-89      Evaluation of Allegations Regarding the Anesthesiology
2/25/04          Residency Program at the VA Greater Los Angeles
                 Healthcare System

CONTRACT PREAWARD REVIEWS **

03-01974-5       Review of Federal Supply Schedule Proposal Submitted
10/10/03         by Buffalo Supply, Inc., Under Solicitation
                 Number 797-FSS-99-0025

03-02762-9       Review of Federal Supply Schedule Proposal Submitted
10/22/03         by 3M Pharmaceuticals Under Solicitation
                 Number M5-Q50A-03

03-02494-11      Review of Federal Supply Schedule Proposal Submitted         $1,899
10/27/03         by Chiron Corporation Under Solicitation
                 Number M5-Q50A-03

03-02493-13      Review of Proposal Submitted by the University of          $709,555
10/29/03	 	      Miami Under Solicitation Number RFP 546-38-03
                 for Anesthesiology Services at the Department of
                 Veterans Affairs Medical Center Miami, FL

03-02761-14      Review of Proposal Submitted by the University of          $649,200
10/29/03	 	      Utah Hospitals & Clinics Under Solicitation
                 Number 660-023-03 for Heart Transplants and
                 LVAD/RVAD Services for the Department of Veterans
                 Affairs Salt Lake City Health Care System

03-03023-19      Review of Federal Supply Schedule Proposal
11/5/03          Submitted by Sanofi-Synthelobo, Inc., Under
                 Solicitation Number M5-Q50A-03

04-00133-22      Review of Proposal Submitted by the University of
11/7/03	 	       Kansas Medical Center Under Contract Number
                 V225P(589)0849 for Otolaryngology Services for the
                 Department of Veterans Affairs Medical Center
                 Kansas City, MO


** Management estimates are not applicable to contract reviews. Cost avoidances resulting from these reviews are
determined when the OIG receives the contracting officer’s decision on the recommendations.

                                                          76

  Report                                                           Funds Recommended
 Number/                                                              for Better Use   Questioned
Issue Date                     Report T itle                        OIG     Management   Costs

CONTRACT PREAWARD REVIEWS (Cont’d)

03-02748-25   Review of Federal Supply Schedule Proposal          $90,126,165
11/13/03	     Submitted by Schering Corporation Under
              Solicitation Number M5-Q50A-03

03-02987-28   Review of Proposal Submitted by Northwestern
11/17/03	     Memorial Hospital Under Solicitation Number
              RFP 69D-078-03 for Liver Transplantation Services
              for the VA Chicago Healthcare System

03-03003-32   Review of Proposal Submitted by the University of     $399,429
11/24/03	 	   Medicine & Dentistry of New Jersey Under
              Solicitation Number RFP 10N3-070-03 for
              Radiology Services at the Department of Veterans
              Affairs New Jersey Health Care System

04-00369-33   Review of Proposal Submitted by Stanford School       $462,514
11/24/03	     of Medicine Under Solicitation Number
              RFP 261-0079-03 for Vascular Physician
              Services at the VA Palo Alto Health Care System

03-02795-34   Review of Federal Supply Schedule Proposal           $8,469,166
11/24/03	     Submitted by Kos Pharmaceuticals, Inc.,
              Under Solicitation Number M5-Q50A-03

03-02853-40   Review of Federal Supply Schedule Proposal
12/3/03	      Submitted by Centocor, Inc., Under
              Solicitation Number M5-Q50A-03

03-03088-41   Review of Federal Supply Schedule Proposal
12/4/03	      Submitted by Boehringer Ingelheim
              Pharmaceuticals, Inc., Under Solicitation
              Number M5-Q50A-03

04-00051-42   Review of Federal Supply Schedule Proposal
12/4/03	      Submitted by Intermune, Inc., Under Solicitation
              Number M5-Q50A-03

03-02425-44   Review of Federal Supply Schedule Proposal             $47,936
12/8/03	      Submitted by Novartis Ophthalmics, Inc., for
              Pharmaceuticals Under Solicitation Number
              M5-Q50A-03

04-00291-46   Review of Proposal Submitted by Medical College       $423,880
12/9/03	      of Virginia Physicians Under Solicitation Number
              652-049-02 for Radiation Oncology Services at
              VAMC Richmond, VA




                                                       77
 

  Report                                                              Funds Recommended
 Number/                                                                 for Better Use   Questioned
Issue Date                     Report T itle                           OIG     Management   Costs

CONTRACT PREAWARD REVIEWS (Cont’d)

04-00368-49   Review of Proposal Submitted by Stanford School of       $403,087
12/15/03      Medicine Under Solicitation Number RFP
              261-0238-02 for Cardiothoracic Physician Services

              at the VA Palo Alto Health Care System
03-03076-50   Review of Federal Supply Schedule Proposal              $2,280,185
12/22/03      Submitted by Par Pharmaceutical, Inc.,
              Under Solicitation Number M5-Q50A-03

03-01809-57   Review of Proposal Submitted by                          $103,867
12/30/03	 	   Johnson & Johnson Health Care Systems Inc.,
              on Behalf of Ortho-McNeil Pharmaceutical, Inc.,
              Under Solicitation Number M5-Q50A-03

04-00064-58   Review of Federal Supply Schedule Proposal
12/30/03      Submitted by ZLB Bioplasma Under Solicitation
              Number M5-Q50A-03

04-00199-59   Review of Federal Supply Schedule Proposal
1/5/04        Submitted by Elan Pharmaceuticals Under
              Solicitation Number M5-Q50A-03

03-02208-60   Review of Federal Supply Schedule Proposal             $69,436,556
1/6/04        Submitted by Eisai Inc., Under Solicitation
              Number M5-Q50A-03

04-00065-63   Review of Proposal Submitted by Indiana                   $14,620
1/7/04        University Under Solicitation Number 583-63-02 for
              Allergist Services at Richard L. Roudebush
              VA Medical Center

03-03020-67   Review of Federal Supply Schedule Proposal
1/13/04       Submitted by Bayer Pharma Corporation Under
              Solicitation Number M5-Q50A-03

04-00570-71   Review of Proposal Submitted by Gilead
1/16/04       Sciences, Inc., Under Solicitation Number M5-Q50A-03

03-02816-72   Review of Proposal Submitted by Duke University         $1,074,040
1/16/04	 	    Health Systems, Inc., Under Solicitation Number
              RFP 246-03-00160 for Anesthesiology Services at
              the Department of Veterans Affairs Medical Center,
              Durham, NC

03-03150-74   Review of Federal Supply Schedule Proposal              $6,489,197
1/22/04       Submitted by American Pharmaceutical Partners, Inc.,
              Under Solicitation Number M5-Q50A-03



                                                      78

  Report                                                              Funds Recommended
 Number/                                                                 for Better Use   Questioned
Issue Date                     Report T itle                           OIG     Management   Costs

CONTRACT PREAWARD REVIEWS (Cont’d)

03-03166-75   Review of Federal Supply Schedule Proposal                $80,888
1/30/04       Submitted by Alcon Laboratories, Inc., Under
              Solicitation Number M5-Q50A-03

03-03022-77   Review of Federal Supply Schedule Proposal             $72,617,155
1/30/04       Submitted by Wyeth Pharmaceuticals Under
              Solicitation Number M5-Q50A-03

03-02384-78   Review of Federal Supply Schedule Proposal
2/2/04        Submitted by Bayer Pharma Corporation, Biological
              Products, Under Solicitation Number M5-Q50A-03

03-02760-80   Review of Proposal Submitted by the University of
2/4/04        Pittsburgh Physicians Under Solicitation Number
              646-62-03 for Critical Care Medicine Physician
              Services at the Department of Veterans Affairs
              Pittsburgh Health Care System

04-00070-82   Review of Federal Supply Schedule Proposal               $821,720
2/5/04        Submitted by Bedford Laboratories Under
              Solicitation Number M5-Q50A-03

04-00576-83   Review of Philips Medical Systems’ Direct Delivery
2/12/04       Pricing Proposal for Ultrasound Imaging Systems
              Under Solicitation Number M6-Q5-03

04-00575-87   Review of General Electric Medical Systems, Inc.’s,     $2,464,056
2/17/04       Direct Delivery Pricing Proposal for Ultrasound
              Imaging Systems Under Solicitation Number
              M6-Q5-03

04-00188-91   Review of Federal Supply Schedule Proposal              $1,094,371
2/20/04       Submitted by Schwarz Pharma, Inc., Under
              Solicitation Number M5-Q50A-03

04-00431-90   Review of Proposal Submitted by the University
2/24/04       of Pennsylvania Health System Under RFP Number
              642-02-04 for Interim Cardiac Surgery Services for
              the Department of Veterans Affairs Medical Center
              Philadelphia, PA

03-02320-99   Review of Proposal Submitted by Stanford School of       $341,115
3/1/04        Medicine Under Solicitation Number RFP
              261-0074-03 for Anesthesia Physician Services at the
              VA Palo Alto Health Care System




                                                       79
 

  Report                                                              Funds Recommended
 Number/                                                                 for Better Use   Questioned
Issue Date                      Report T itle                          OIG     Management   Costs

CONTRACT PREAWARD REVIEWS (Cont’d)

03-03055-97    Review of Federal Supply Schedule Proposal
3/1/04         Submitted by Bristol-Myers Squibb Pharma
               Company Under Solicitation Number M5-Q50A-03

03-02318-100   Review of Proposal Submitted by University of            $66,765
3/2/04	 	      California, San Francisco, Under Solicitation
               Number RFP 261-0142-03 for Anesthesia Physician
               Services at the VA Medical Center San Francisco

03-02749-98    Review of Federal Supply Schedule Proposal           $261,930,409
3/4/04	 	      Submitted by Smithkline Beecham Corporation d/b/a
               Glaxosmithkline Under Solicitation Number
               M5-Q50A-03

04-00581-105   Review of Proposal Submitted by the University of       $506,512
3/9/04	 	      Minnesota Physicians Under Solicitation Number
               618-68-04 for Cardiac/Thoracic Surgical Procedures
               at the VA Medical Center, Minneapolis, MN

04-00324-112   Review of Proposal Submitted by University Medical      $564,134
3/16/04        Associates of Nebraska Under Solicitation Number
               636-0029-03 for Anesthesiology Services at VA
               Nebraska Western Iowa Health Care System
               Omaha Division

04-00568-117   Review of Proposal Submitted by University of Utah      $921,556
3/25/04	 	     Under Solicitation Number 660-72-03 for
               Hematology/Oncology Services at VA Salt Lake City
               Health Care System

CONTRACT POSTAWARD REVIEWS

03-02544-3     Review of Amgen, Inc.’s, Self-Audit of Federal                                $24,661
10/7/03        Ceiling Price Errors Under Federal Supply Schedule
               Contract V797P-5109x

03-02673-4     Review of Gynetics, Inc.’s, Billings Under Federal                             $2,731
10/9/03        Supply Schedule Contract Number V797P-5355x

02-00813-24    Review of Mylan Pharmaceuticals, Incorporated’s
11/13/03       Implementation of Section 603 Drug Pricing
               Provisions of Public Law 102-585 Under Federal
               Supply Schedule Contract Number V797P-5328x

03-01235-26    Post-Award Review of C.R. Bard, Inc.,                                        $183,043
11/13/03       Electrophysiology Division’s Federal Supply
               Schedule Contract, V797P-3618k



                                                        80

  Report                                                              Funds Recommended
 Number/                                                                 for Better Use   Questioned
Issue Date                     Report T itle                           OIG     Management   Costs

CONTRACT POSTAWARD REVIEWS (Cont’d)
04-00189-35   Review of the Billings and Final Payment Due                                  $100,535
11/24/03      From Dicut, Inc., on the Patient Medical Information
              Printing and Mailing Blanket Purchase Agreement
              Number VANAC049A1NIC-03-001

00-02849-37   Settlement Agreement Pharmaceutical Manufacturer                              $465,371
11/25/03

03-02969-51   Review of Modification Request From the Sewing           $531,852
12/18/03      Source, Inc., to Contract Number V797P-4437a

03-01234-53   Review of C.R. Bard, Inc.’s, Billings Under Federal                            $28,991
12/22/03      Supply Schedule Contract Number V797P-3349k

04-00292-56   Review of Self-Audit Performed by Women’s Capital                              $15,833
12/30/03      Corporation for Public Law 102-585, Section 603
              Overcharges

00-00228-88   Settlement Agreement Life Technologies, Inc.                                $14,291,261
2/2/04

04-01264-84   Verification of Celltech Americas, Inc.’s, Self-Audit                           $2,570
2/17/04       Under Federal Supply Schedule Contract Number
              V797P-5197X

04-01169-96   Review of Upsher-Smith Laboratories, Inc.’s,                                   $76,345
2/27/04       Voluntary Disclosure and Refund Offer Under
              Federal Supply Schedule Contract V797P-5263x

HEALTHCARE INSPECTIONS

02-03260-1    Healthcare Inspection, Patient Care Issues,
10/6/03       VA Medical Center Philadelphia, PA

03-01915-2    Healthcare Inspection, Quality of Care Issues,
10/7/03       VA Long Beach Healthcare System Long Beach, CA

03-01644-15   Healthcare Inspection, Patient Care Incident,
10/29/03      VA Medical Center Dayton, OH

03-02160-16   Healthcare Inspection, Patient Care, Communication,
11/4/03       and Privacy Issues, Overton Brooks VA Medical
              Center Shreveport, LA

03-02799-30   Healthcare Inspection, Patient Care and Infection
11/24/03      Control Issues, VA New Jersey Health Care System
              East Orange, NJ



                                                         81

  Report                                                                  Funds Recommended
 Number/                                                                     for Better Use   Questioned
Issue Date                        Report T itle                            OIG     Management   Costs

HEALTHCARE INSPECTIONS (Cont’d)

03-00391-39      Healthcare Inspection, Medical Care Foster Home
12/3/03          Program, Central Arkansas Veterans Healthcare
                 System Little Rock, AR

02-00124-48      Healthcare Inspection, Evaluation of Veterans           $10,700,000     ***$0
12/18/03         Health Administration Homemaker and Home
                 Health Aide Program

03-01526-64      Healthcare Inspection, Alleged Medical Treatment
1/12/04          Issues, Houston VA Medical Center Houston, TX

03-01914-68      Healthcare Inspection, Anesthesia Management and
1/14/04          Patient Care Issues, New Mexico VA Healthcare
                 System Albuquerque, NM

03-01423-70      Healthcare Inspection, Quality of Care Issues,
1/16/04          Iowa City VA Medical Center

03-02849-81      Healthcare Inspection, Patient Care Issues,
2/6/04           VA Greater Los Angeles Healthcare System
                 Los Angeles, CA

03-02167-101     Healthcare Inspection, Contract Nursing Home
3/10/04          Patient Care Issues, VA Pittsburgh Healthcare
                 System, University Drive Division Pittsburgh, PA

03-01744-102     Healthcare Inspection, Patient Care Issues,
3/10/04          Samuel S. Stratton Department of Veterans Affairs
                 Medical Center Albany, NY

03-02306-107     Healthcare Inspection, Quality of Care, Patient
3/15/04          Information Security, and Environment of Care
                 Issues Edward Hines, Jr. VA Hospital Hines, IL

03-01743-114     Healthcare Inspection, Survey of Efforts to Safeguard
3/18/04          VA Potable and Waste Water Systems

03-02149-221     Healthcare Inspection, Drug Overdose, Department
3/31/04          of Veterans Affairs Medical Center Hampton, VA




***VHA stated they could not provide an estimated monetary benefit.

                                                          82

  Report                                                                  Funds Recommended
 Number/                                                                     for Better Use   Questioned
Issue Date                       Report T itle                             OIG     Management   Costs

ADMINISTRATIVE INVESTIGATIONS

03-02130-7     Administrative Investigation, Impartiality Issue,
10/22/03       VA Medical Center Tomah, WI

03-00966-73    Administrative Investigation, Use of Nonprofit
1/16/04        Research Corporation Funds, VA San Diego
               Healthcare System San Diego, CA

03-00815-79    Administrative Investigation, Solicitation of Gifts
2/4/04         and Other Ethics Issues, VA Medical Center
               Bay Pines, FL

03-01120-86    Administrative Investigation, Contract and Employee                                     $823
2/18/04        Retreat Expenditure Issues, Financial Assistance
               Office, Veterans Health Administration

03-02467-95    Administrative Investigation, Position Classification
2/27/04        Issue, VA Medical Center Albuquerque, NM

03-01975-106   Administrative Investigation, Property Misuse and
3/11/04	 	     Supervisory Oversight Issues, Emergency
               Management Strategic Healthcare Group,
               Martinsburg, WV

03-03053-115   Administrative Investigation, Use of Government                                       $9,737
3/22/04	 	     Funds, Travel, Personnel, Impartiality, and
               Management Issues, Research and Development
               Office, Veterans Health Administration

TOTAL                       118 Reports                              $1,933,155,215   $1,923,386 $15,201,901




                                                          83
 

84
 

                                                APPENDIX B
 


             STATUS OF OIG REPORTS UNIMPLEMENTED FOR OVER 1 YEAR


 The Federal Acquisition Streamlining Act of 1994 provides guidance on prompt management decisions
 and implementation of OIG recommendations. It states a Federal agency shall complete final action on each
 recommendation in an OIG report within 12 months after the report is finalized. If the agency fails to
 complete final action within this period, the OIG will identify the matter in its semiannual report to Congress
 until the final action is completed. This appendix summarizes the status of OIG unimplemented reports and
 recommendations.

 The OIG requires that management officials provide documentation showing the completion of corrective
 actions on OIG recommendations. In turn, OIG reviews status reports submitted by management officials
 to assess both the adequacy and timeliness of agreed-upon implementation actions. When a status report
 adequately documents corrective actions, OIG closes the recommendation. If the actions do not implement
 the recommendation, we continue to monitor progress.

 The following chart lists the total number of unimplemented OIG reports and recommendations by
 organization. It also provides the total number of unimplemented reports and recommendations issued over
 1 year ago (March 31, 2003, and earlier).


                         Unimplemented OIG Reports and Recommendations

                                                Total          Issued 3/31/03, and
                      VA Office                                      Earlier

                                      Repts         Recoms     Repts       Recoms

                        A&MM            45               99       0             0

                         VHA            34              173       4            12

                         VBA             5              19        1             4

                          I&T            3              21        0             0

                      VHA/S&LE           1              15        1            15

                       VHA/I&T           1               2        1             2

                         Total          89              329       7           33



Acquisition and Materiel Management (A&MM)
Office of Information and Technology (I&T)
Office of Security and Law Enforcement (S&LE)



                                                         85
The OIG is particularly concerned with one report on VHA operations (issued in 1997) and one report on
VBA operations (issued in 2000) with recommendations that still remain open. The following information
provides a summary of reports over a year old with open recommendations.

Veterans Health Administration
Unimplemented Recommendations and Status

Report: Internal Controls Over the Fee-Basis Program, 7R3-A05-099, 6/20/97

Recommendations: The Under Secretary for Health should improve the cost effectiveness of home health
services by:
    1. Establishing guidelines for contracting for such services.
    2. Providing contracting officers with benchmark rates for determining the reasonableness of charges.

Status: The VHA Chief Consultant for Geriatrics and Extended Care has proposed guidelines and
benchmark rates that has been set forth in a draft home health and hospice care reimbursement handbook.
The handbook was drafted in September 2003; however, it has not received VHA staff concurrence. No
planned completion date is available.

                                                **********

Report: Audit of the Medical Care Collection Fund Program, 01-00046-65, 2/26/02

Recommendations:
   1. The Under Secretary for Health should improve Medical Care Collection Fund program
      operations by ensuring that VA medical facilities use the preregistration software as
     required.

Status: The VHA Chief Business Office has submitted a project request for an enhancement to the VHA
diagnostic measures to include a new national report on the use of the pre-registration software. The
addition of this report to the diagnostic measures Website will allow VHA to ensure that facilities are using
the software. The planned completion date for report deployment is July 2004.

                                                **********

Report: Healthcare Inspection, Patient Care Issues, Department of Veterans Affairs Hudson Valley
Health Care System, Franklin Delano Roosevelt Campus Montrose, New York. 02-02374-08,
10/18/02

Recommendation:
   1. The VISN Director should ensure that the VA Hudson Valley Health Care System Director brings
      the Franklin Delano Roosevelt campus Residential Care Program into compliance with VHA policy
      by ensuring that all VA-sponsored homes meet all State and local requirements.




                                                       86
 

Status: As of March 31, 2004, there are 66 veterans residing in 10 unlicensed community residential care
homes, as compared to 182 veterans in 28 unlicensed homes on October 1, 2002. The VA Hudson Valley
Health Care System continues facilitating the licensure process of the homes by working closely with the VA
Central Office program office (VHA Chief Consultant for Geriatrics and Extended Care); the New York
State Department of Health, Office of Child and Family Services; and the VA sponsored homes. The homes
are inspected regularly and provisions are in place for immediately relocating the veterans from a home if a
home fails to meet inspection requirements. The veterans will be relocated should a home fail to demonstrate
a good faith effort in the licensure process. The planned completion date is April 2005.

                                                **********

Report: Healthcare Inspection, Evaluation of the VHA’s Contract Community Nursing Home
Program 02-00972-44, 12/31/02

Recommendations: The Under Secretary for Health needs to ensure that:
   1. VHA medical facility managers devote the necessary resources to adequately administer the
      Contract Nursing Home (CNH) program.
   2. Critical aspects of the new VHA policy are discussed with senior managers, CNH review teams,
      and other applicable quality management program employees using education and training mediums.
   3. VHA medical facility managers emphasize the need for CNH review teams to access and critically
      analyze external reports of incidents of patient abuse, neglect, and exploitation, and to increase their
      efforts to collaborate with state ombudsman officials.
   4. Clarify whether the new VHA policy intended the responsibilities of CNH oversight committees to
      be extended to CNH review teams or some other committee.
   5. Contracting officers strengthen the contracting process by requiring CNHs to produce current state
      licenses, Department of Health and Human Services Center for Medicaid and Medicare Services
      certifications, assurances of the clinical competency and backgrounds of CNH clinical employees,
      Center for Medicaid and Medicare Services or state minimum standards for staffing levels to provide
      direct nursing care to veterans on a daily basis, and submissions of routine performance improvement
      data.
   6. CNH review teams are reminded to critically evaluate and mitigate the risks associated with routinely
      transporting veterans between CNHs and VAmedical facilities.
   7. Managers integrate CNH activities into medical facility quality management programs and review
      performance data to monitor bedsores, medication errors, falls, and other treatment quality
      indicators that may warrant their attention.
   8. Coordinate efforts with the Under Secretary for Benefits to determine how VHA CNH managers
      and VBA fiduciary and field examination employees can most effectively complement each other and
      share information such as medical record competency notes, on-line survey certification and
      reporting data, and VBA reports of adverse conditions, to protect the financial interests of veterans
      receiving health care and VA-derived benefits.

Status: As of March 31, 2004, 8 of 11 recommendations remain unimplemented pending actions by the
VHA Chief Consultant for Geriatrics and Extended Care. VHA needs to finalize and publish CNH
Handbook 1143.2, “VHA Community Nursing Home Oversight Procedures.” In addition, VHA needs to
finalize new performance indicators; schedule training audio broadcasts; upgrade the Website from the
prototype to a finalized site; demonstrate that community health nurses and social workers are visiting
veterans in CNHs at the recommended frequency and gathering the recommended information; complete the

                                                     87

guidance, appropriate Website links, and special broadcast on new exclusionary criteria related to neglect
and abuse; and finalize implementation plan/coordinated efforts on how VHA CNH and VBA fiduciary and
field examination employees can most effectively complement each other and share information.
Completion of the CNH Website links is expected in April 2004. No planned completion dates for the
other actions are available.

                                               **********

Joint (Veterans Health Administration and Office of
Security and Law Enforcement)
Unimplemented Recommendations and Status

Report: Review of Security and Inventory Controls Over Selected Biological, Chemical, and Radio-
active Agents Owned by or Controlled at VA Facilities, 02-00266-76, 3/14/02

Recommendations: The Under Secretary for Health, in conjunction with senior policy, research, and
operations manages, need to:
   1. Redefine and strengthen security and access requirements and procedures for safeguarding high-risk
        agents and materials used in VA facilities, such as the agents on the Centers for Disease Control and
        Prevention Select Agents List, other biological agents, toxic chemicals, and certain pharmaceuticals
        that might be targeted for use by terrorists.
   2. Improve personnel access controls and reduce vulnerabilities to theft of selected agents by
        implementing measures such as the consistent use of photo identification badges with expiration
        dates, installation of electronically controlled entry points to and from sensitive areas, and use of
        key-card systems, video surveillance, and/or biometric systems.
   3. Review documents related to VA leased-space to others for research use (e.g., to an affiliated
        university) to ensure that VA’s agreements define security responsibilities and limitations.
   4. Clarify VA’s accountability and responsibilities for actions of non-VA persons supervising VA or
        non-VA research in VA facilities or in VA space leased to other institutions.
   5. Strengthen controls for authorizing and procuring high-risk materials and agents including biological
        agents, and ensure that inventory, transfer, and validated destruction policies and procedures
        account for biological agents and chemicals at all times. Additionally, procedures should outline
        appropriate requirements for the use of witnesses to verify transfer and destruction processes.
   6. Require managers to transfer, dispose of, or establish delimiting dates on select agents no longer in
        use and stored in research and clinical laboratories.
   7. Reevaluate the extent of compliance with radiation safety and handling/delivery procedures,
        particularly vendor deliveries after regular working hours and on weekends. In addition, facility
        managers should require contractors and vendors to provide evidence that background and legal
        histories on their employees are checked before they are allowed to access sensitive VA areas.
   8. Strengthen human resource management controls and procedures to consistently verify or update
        non-citizens’legal residence or employment status while working in VAfacilities or on VA matters,
        including students and contractors.
   9. Reevaluate the adequacy of security clearance level requirements for employees who could have
        access to or work with highly sensitive agents and materials.



                                                     88

    10. Take action on non-citizen employees without valid legal status and notify appropriate legal
        authorities.
    11. Take action on any noncitizens with access to VHA research and clinical laboratories if they are
        considered “restricted persons” according to the USA PATRIOTAct.
    12. Ensure clearance and checkout procedures extend to employees without compensation and
        contract employees.
    13. Issue guidance to revise local disaster plans to include provisions for responding to terrorist
        activities.
    14. Direct managers at all facilities to perform vulnerability assessments of their physical research and
        clinical laboratories and consistently implement security measures.
    15. Provide researchers and other appropriate personnel necessary training on security issues, including
        security of high-risk and sensitive agents, and procedures to forward requests for research articles
        through their managers and the facility Freedom of Information Act officer.

Status: This report requires action by VHA and the Office of Security and Law Enforcement (S&LE), part
 

of the Office of Policy, Planning, and Preparedness. The Under Secretary for Health and the Assistant
 

Secretary for Policy and Planning were requested by the VA Deputy Secretary to issue a joint report by
 

September 30, 2002, certifying that all the recommendations had been completed. However, as of
 

March 31, 2003, 15 of 16 recommendations continue to remain unimplemented.
 


VHA’s Office of Research and Development plans on systematically reviewing all field research sites over
 

the next 3 years. In November 2002, VHA issued Directive 2002-075, “Control of Hazardous Materials in
 

VA Research Laboratories,” and a revision should be published by the end of April 2004. VHA’s clinical
 

laboratory managers “are expected to operate in accordance with the recommendations” of VHA’s
 

Biohazardous Materials Task Force as well as an issued joint memorandum. The memorandum was an
 

interim measure to immediately address laboratory safety and security and to apply already existing
 

Department physical security standards. Based on that memorandum, S&LE inspectors began reviewing
 

VHA clinical and research laboratory security as part of routine, on-site program inspections. VHA also
 

published an Emergency Management Guidebook with requirements to include security of sensitive and
 

critical locations as part of facilities’ hazard vulnerability assessments. The VHA Office of Patient Care
 

Services is developing a directive for the clinical Biosafety Level 2 and 3 laboratories and it should be
 

published by the end of April 2004. In the interim, all clinical laboratories were reminded of the necessity
 

for complying with existing accreditation and regulatory requirements and letters of instruction regarding the
 

handling of select agents. In addition, all VHA certifications will be consolidated and provided to the OIG
 

after all directives and handbooks are published and implemented.
 


VA’s S&LE office is revising a draft of VA Directive and Handbook 0730, “Security and Law Enforcement”
 

and VA Directive 0710, “Personnel Suitability and Security Program.” No planned completion date is
 

available for these three documents.
 


                                                **********




                                                      89
 

Joint (Veterans Health Administration and Office of
Information and Technology)
Unimplemented Recommendations and Status

Report: Healthcare Inspection, Evaluation of VHA Medical Record Security and Privacy Practices,
01-01968-41, 12/24/2002

Recommendations: The Assistant Secretary for Information and Technology, in conjunction with the
Under Secretary for Health, issue additional guidance requiring that VHA managers:
   1. Position computer monitors such that patient information is not visible to unauthorized persons in the
       area and install computer privacy screens for those monitors that cannot be adequately repositioned.
   2. Appoint full-time or primary-duty information security officers and ensure that they have the
       necessary technical skills in automated information systems.

Status: This report requires action by VHA and the Office of Information and Technology.
    1. 	 All VISNs and VAMCs have been directed to review positioning of computer terminals and make
         physical adjustments where possible to ensure the information on the terminal is not visible to
         unauthorized persons, or install privacy screens on those terminals that cannot be adequately
         repositioned. In turn, VISNs must provide a consolidated report to VHA. The planned completion
         date is June 30, 2004.
    2. 	 The VA Office of Information and Technology has incorporated staff comments into a revised draft
         directive and handbook that includes the responsibilities to appoint full-time or primary-duty
         information security officers. The expected concurrence and approval is by August 2004.

                                               **********

Veterans Benefits Administration
Unimplemented Recommendations and Status

Report: Audit of the Compensation and Pension Program’s Internal Controls at
VARO St. Petersburg, FL, 99-00169-97, 7/18/00

Recommendations: The Under Secretary for Benefits should:
   1. Establish a positive control Benefits Delivery Network (BDN) system edit keyed to employee
      identification number that ensures employee claims are adjudicated only at the assigned regional
      office of jurisdiction and prevents employees from adjudicating matters involving fellow employees
      and veterans service officers at their home office.
   2. Establish a BDN system field for third-person authorization and a control to prevent release of
      payments greater than $15,000 without the third-person authorization.
   3. Determine the feasibility of direct input and storage of rating decisions in BDN.
   4. Take steps necessary to make use of Social Security Numbers (SSNs) as employee identification
      numbers, and tie BDN access to SSNs.



                                                     90
 

Status: 1 and 2. As the Modern Award Processing system is designed, this control will be incorporated.
         Beta testing of the system began in March 2004. This control will be implemented in the final
         stages of deployment that is scheduled for completion in December 2005.
    3. 	 A new version of the Rating Board Automation 2000 application was deployed to all VAROs. In
         March 2004, VAROs were notified that they had 60 days to review the new installation and
         validate that all outstanding defects that impeded the 100 percent utilization of the new application
         have been eliminated. Upon conclusion of this period of validation, VBA will determine the
         feasibility and schedule for the retirement of the old application.
    4. 	 VBA implemented a change to the BDN security screen to include SSNs and the BDN user’s full
         name. The SSN was added to VBA regional office user and VHA user accounts that have
         processing capability. VBA considers this recommendation closed. The OIG is in the process of
         verifying that the intent of the recommendation has been met.

                                                        **********




                                                      91
 

92
 

                                                 APPENDIX C
 


                     INSPECTOR GENERAL ACT REPORTING REQUIREMENTS

The table below cross-references the specific pages in this semiannual report to the reporting requirements
where they are prescribed by the Inspector General Act of 1978 (Public Law 95-452), as amended by the
Inspector General Act Amendments of 1988 (Public Law 100-504), and the Omnibus Consolidated
Appropriations Act of 1997 (Public Law 104-208).

  IG Act
References                                 Reporting Requirement                               Page

Section 4 (a) (2)      Review of legislation and regulations                                     64

Section 5 (a) (1)      Significant problems, abuses, and deficiencies                           1-68

Section 5 (a) (2)	     Recommendations with respect to significant problems, abuses,            1-68
                       and deficiencies

Section 5 (a) (3)	     Prior significant recommendations on which corrective                     85
                       action has not been completed                                          (App. B)

Section 5 (a) (4)	     Matters referred to prosecutive authorities and resulting                  i
                       prosecutions and convictions

Section 5 (a) (5)      Summary of instances where information was refused                        94
                                                                                              (App. C)

Section 5 (a) (6)	     List of audit reports by subject matter, showing dollar value of       73 to 83
                       questioned costs and recommendations that funds be put to better use   (App. A)

Section 5 (a) (7)      Summary of each particularly significant report                         i to vii

Section 5 (a) (8)	     Statistical tables showing number of reports and dollar value             95
                       of questioned costs for unresolved, issued, and resolved reports       (Table 1)

Section 5 (a) (9)	     Statistical tables showing number of reports and dollar value of          96
                       recommendations that funds be put to better use for unresolved,        (Table 2)
                       issued, and resolved reports

Section 5 (a) (10)	 	 Summary of each audit report issued before this reporting period for       94
                      which no management decision was made by end of reporting period        (App. C)
                      of reporting period

Section 5 (a) (11)     Significant revised management decisions                                 94
                                                                                              (App. C)

Section 5 (a) (12)	 	 Significant management decisions with which the Inspector General          94
                      is indisagreement                                                       (App. C)

Section 5 (a) (13) 	   Information described under section 5(b) of the Federal Financial         94
                       Management Improvement Act of 1996 (Public Law 104-208)                (App. C)

                                                            93

          INSPECTOR GENERAL ACT REPORTING REQUIREMENTS (CONT’D)

Prior Significant Recommendations Without Corrective Action and Significant Man-
agement Decisions

The IGAct requires identification of: (i) significant revised management decisions, and (ii) significant manage-
ment decisions with which the OIG is in disagreement. During this 6-month period, there were no report-
able instances under the Act.

Obtaining Required Information or Assistance

The IG Act requires the OIG to report instances where access to records or assistance requested was
unreasonably refused, thus hindering the ability to conduct audits or investigations. During this 6-month
period, there were no reportable instances under the Act.

Federal Financial Management Improvement Act of 1996 (Public Law 104-208)

The IG Act requires the OIG to report instances and reasons when VA has not met the intermediate target
dates established in the VA remediation plan to bring VA’s financial management system into substantial
compliance with the requirements of Public Law 104-208. The OIG has reported in our Report of the
Audit of the Department of Veterans Affairs Consolidated Financial Statements for Fiscal Years
2003 and 2002 (Report Number 03-01237-21, Issued 11/14/03), that corrective action dates in the VA
remediation plan are all in the future.

Reports Issued Before this Reporting Period Without a Management Decision Made
by the End of the Reporting Period

The IG Act requires a summary of audit reports issued before this reporting period for which no management
decision was made by the end of the reporting period. There were no internal OIG reports unresolved for
over 6 months. However, there were six contract review reports unresolved because a contracting officer
decision has not been made for over 6 months. These contract review reports were issued before the start
of this semiannual reporting period and will be closed after the OIG receives the contracting officer price
negotiation memorandum following contract awards.

Statistical Tables 1 and 2 Showing Number of Unresolved Reports

As required by the IG Act, Tables 1 and 2 provide statistical summaries of unresolved and resolved reports
for this reporting period. Specifically, they provide summaries of the number of OIG reports with potential
monetary benefits that were unresolved at the beginning of the period, the number of reports issued and
resolved during the period with potential monetary benefits, and the number of reports with potential monetary
benefits that remained unresolved at the end of the period.




                                                      94
 

TABLE 1 - RESOLUTION STATUS OF REPORTS WITH QUESTIONED COSTS
 


This table provides the resolution status information required by the IG Act. It summarizes the reports with
questioned costs.


                                                                    NUMBER             QUESTIONED
                     RESOLUTION STATUS                                 OF                  COSTS
                                                                    REPORTS             (in Millions)

    No management decision by 9/30/03                                     0                $0

    Issued during reporting period                                       12                $15.2

           Total Inventory This Period                                   12                $15.2

    Management decision during reporting period
       Disallowed costs (agreed to by management)                        12                $15.2

       Allowed costs (not agreed to by management)                        0                $0

           Total Management Decisions This Period                        12                $15.2

           Total Carried Over to Next Period                              0                $0


Definitions:

z Questioned Costs
         For audit reports, it is the amounts paid by VA and unbilled amounts for which the OIG recom-
mends VApursue collection, including Government property, services or benefits provided to ineligible
recipients; recommended collections of money inadvertently or erroneously paid out; and recommended
collections or offsets for overcharges or ineligible costs claimed.
         For contract review reports, it is contractor costs OIG recommends be disallowed by the contract-
ing officer or other management official. Costs normally result from a finding that expenditures were not
made in accordance with applicable laws, regulations, contracts, or other agreements; or a finding that the
expenditure of funds for the intended purpose was unnecessary or unreasonable.

z  Disallowed Costs are costs that contracting officers or management officials have determined should
not be charged to the Government and which will be pursued for recovery; or on which management has
agreed that VA should bill for property, services, benefits provided, monies erroneously paid out, over-
charges, etc. Disallowed costs do not necessarily represent the actual amount of money that will be recov-
ered by the Government due to unsuccessful collection actions, appeal decisions, or other similar actions.

z Allowed Costs are amounts on which contracting officers or management officials have determined that
VA will not pursue recovery of funds.




                                                     95
 

TABLE 2 – RESOLUTION STATUS OF REPORTS WITH RECOMMENDED
          FUNDS TO BE PUT TO BETTER USE BY MANAGEMENT

This table provides the resolution status information required by the IG Act. It summarizes the reports with
recommended funds to be put to better use by management.


                                                                                   RECOMMENDED
                                                                NUMBER
                                                                                  FUNDS TO BE PUT
                 RESOLUTION STATUS                                 OF
                                                                                   TO BETTER USE
                                                                REPORTS
                                                                                     (IN MILLIONS)
No management decision by 9/30/03                                    15                  $17.4
Issued during reporting period                                       47               $1,933.1
        Total inventory this period                                  62               $1,950.5
Mangement decisions during reporting period
    Agreed to by management                                          27               $1,414.9
    Not agreed to by management                                       3                    $5.3
        Total Management Decisions This Period                       30               $1,420.2
        Total Carried Over to Next Period                            32                 $530.3


Definitions:

z   Recommended Better Use of Funds
     For audit reports, it represents a quantification of funds that could be used more efficiently if manage-
ment took actions to complete recommendations pertaining to deobligation of funds, costs not incurred by
implementing recommended improvements, and other savings identified in audit reports.
     For contract review reports, it is the sum of the questioned and unsupported costs identified in
preaward contract reviews which the OIG recommends be disallowed in negotiations unless additional
evidence supporting the costs is provided. Questioned costs normally result from findings such as a failure
to comply with regulations or contract requirements, mathematical errors, duplication of costs, proposal of
excessive rates, or differences in accounting methodology. Unsupported costs result from a finding that
inadequate documentation exists to enable the auditor to make a determination concerning allowability of
costs proposed.

z  Dollar Value of Recommendations Agreed to by Management provides the OIG estimate of
funds that will be used more efficiently based on management’s agreement to implement actions, or the
amount contracting officers disallowed in negotiations, including the amount associated with contracts that
were not awarded as a result of audits.

z   Dollar Value of Recommendations Not Agreed to by Management is the amount associated with
recommendations that management decided will not be implemented, or the amount of questioned and/or
unsupported costs that contracting officers decided to allow.

                                                      96

                                                 APPENDIX D
 


                                       OIG OPERATIONS PHONE LIST


Investigations


Headquarters Investigations Washington, DC ..................................................... (202) 565-7702

Northeast Field Office (51NY) New York, NY ...................................................... (212) 951-6307

      Boston Resident Agency (51BN) Bedford, MA .................................................. (781) 687-3138

      Newark Resident Agency (51NJ) Newark, NJ ..................................................... (973) 297-3338

      Pittsburgh Resident Agency (51PB) Pittsburgh, PA ............................................ (412) 784-3818

      Washington Resident Agency (51WA) Washington, DC ...................................... (202) 530-9191

Southeast Field Office (51SP) Bay Pines, FL ............................................................ (727) 319-1215

      Atlanta Resident Agency (51AT) Atlanta, GA ........................................................ (404) 929-5950

      Columbia Resident Agency (51CS) Columbia, SC .............................................. (803) 695-6707

      Nashville Resident Agency (51NV) Nashville, TN .............................................. (615) 695-6373

      West Palm Beach Resident Agency (51WP) West Palm Beach, FL ...................... (561) 882-7720

Central Field Office (51CH) Chicago, IL ................................................................ (708) 202-2676

      Denver Resident Agency (51DV) Denver, CO ................................................... (303) 331-7673

      Cleveland ResidentAgency (51CL) Cleveland, OH ............................................... (216) 522-7606

      Kansas City Resident Agency (51KC) Kansas City, KS ......................................... (913) 551-1439

South Central Field Office (51DA) Dallas, TX ........................................................ (214) 253-3360

      Houston Resident Agency (51HU) Houston, TX................................................ (713) 794-3652

      New Orleans Resident Agency (51NO) New Orleans, LA .................................. (504) 619-4340

Western Field Office (51LA) Los Angeles, CA ........................................................ (310) 268-4269

      Phoenix Resident Agency (51PX) Phoenix, AZ .................................................. (602) 627-3252

      San Diego Resident Agency (51SD) San Diego, CA .......................................... (619) 400-5326

      San Francisco Resident Agency (51SF) Oakland, CA ......................................... (510) 637-6360

      Seattle Resident Agency (51SE) Seattle, WA......................................... (206) 220-6654, ext 31





                                                            97
 

                               OIG OPERATIONS PHONE LIST (CONT’D)


Healthcare Inspections


Central Office Operations Washington, DC ......................................................... (202) 565-8305

Healthcare Regional Office Washington (54DC) Washington, DC .................... (202) 565-8452

Healthcare Regional Office Atlanta (54AT) Atlanta, GA .................................... (404) 929-5961

Healthcare Regional Office Bedford (54BN) Bedford, MA .................................. (781) 687-2134

Healthcare Regional Office Chicago (54CH) Chicago, IL .................................. (708) 202-2672

Healthcare Regional Office Dallas (54DA) Dallas, TX .......................................... (214) 253-3330

Healthcare Regional Office Los Angeles (54LA) Los Angeles, CA ..................... (310) 268-3005




Audit


Central Office Operations Washington, DC ......................................................... (202) 565-4625

Central Office Operations Division (52CO) Washington, DC ................................ (202) 565-4434

Contract Review and Evaluation Division (52C) Washington, DC ........................ (202) 565-4818

Financial Audit Division (52CF) Washington, DC .................................................. (202) 565-7913

Information Technology Division (52IT) Washington, DC ..................................... (202) 565-5826

Veterans Health and Benefits Division (52VH) Washington, DC ............................. (202) 565-8447

Operations Division Atlanta (52AT) Atlanta, GA ................................................... (404) 929-5921

Operations Division Bedford (52BN) Bedford, MA ................................................ (781) 687-3120

Operations Division Chicago (52CH) Chicago, IL .................................................. (708) 202-2667

Operations Division Dallas (52DA) Dallas, TX ........................................................ (214) 253-3300

      Austin Residence (52AU) Austin, TX ................................................................ (512) 326-6216

Operations Division Kansas City (52KC) Kansas City, MO .................................. (816) 426-7100

Operations Division Los Angeles (52LA) Los Angeles, CA ..................................... (310) 268-4335

Operations Division Seattle (52SE) Seattle, WA ...................................................... (206) 220-6654





                                                            98
 

                                   APPENDIX E
 


                                      GLOSSARY
 

A&MM      Acquisition and Materiel Management
 

AARP      American Association of Retired Persons
 

BDN       Benefits Delivery Network
 

BPA       Blanket Purchase Agreement
 

CAP       Combined Assessment Program
 

CNH       Contract Nursing Home
 

CoreFLS   Core Financial and Logistics System
 

DAS       Data Analysis Section
 

EP        End Products
 

FBI       Federal Bureau of Investigation
 

FOIA/PA   Freedom of Information Act/Privacy Act
 

FSS       Federal Supply Schedule
 

FTE       Full Time Equivalent
 

FY        Fiscal Year
 

HUD       Department of Housing and Urban Development
 

I&T       Office of Information and Technology
 

IG        Inspector General
 

IT        Information Technology
 

MCCF      Medical Care Collection Fund
 

MCI       Master Case Index
 

NCA       National Cemetery Administration
 

OHI       Office of Healthcare Inspections
 

OIG       Office of Inspector General
 

OMB       Office of Management and Budget
 

PTSD      Post-Traumatic Stress Disorder
 

S&LE      Office of Security and Law Enforcement
 

SPD       Supply Processing and Distribution
 

SSA       Social Security Administration
 

SSN       Social Security Number
 

U.S.      United States
 

UCLA      University of California, Los Angeles
 

VA        Department of Veterans Affairs
 

VAMC      Veterans Affairs Medical Center
 

VAMROC    Veterans Affairs Medical and Regional Office Center
 

VARO      VA Regional Office
 

VBA       Veterans Benefits Administration
 

VHA       Veterans Health Administration
 

VISN      Veterans Integrated Service Network
 





                                            99
 

Copies of this report are available to the public. Written requests should be sent to:

        Office of the Inspector General (53B)
        Department of Veterans Affairs
        810 Vermont Avenue, NW
        Washington, DC 20420


The report is also available on our website:

        http://www.va.gov/oig/53/semiann/reports.htm

For further information regarding VA’s OIG, you may call 202 565-8620.




Cover photo of
 

Winged Victory Monument to World War I Veterans
 

State Capitol, Olympia, Washington by
 

Joseph M. Vallowe, Esq.
 

VA OIG, Washington, DC
 





                                                     100
 

Help VA’s Secretary ensure the integrity of departmental
operations by reporting suspected criminal activity, waste, or
abuse in VA programs or operations to the Inspector General
Hotline.


                  (CALLER CAN REMAIN ANONYMOUS)




To Telephone:          (800) 488-8244
                       (800) 488-VAIG
To FAX:                (202) 565-7936

To Send
Correspondence:        Department of Veterans Affairs
                       Inspector General Hotline (53E)
                       P.O. Box 50410
                       Washington, DC 20091-0410

Internet Homepage:     http://www.va.gov/oig/hotline/hotline.htm

E-mail Address:        vaoighotline@mail.va.gov




                    Department of Veterans Affairs
                     Office of Inspector General
                   Semiannual Report to Congress

                   October 1, 2003 - March 31, 2004
